                                                                                              INTRODUCTION



ABOUT THIS REPORT
The Federal Trade Commission’s (FTC) Fiscal Year (FY) 2013 Performance and Accountability report (PAR)
provides the results of the agency’s program and financial performance and demonstrates to the Congress, the
President, and the public, the FTC’s commitment to its mission and accountability over the resources entrusted
to it.

This report, available at the FTC’s website (www.ftc.gov/par), includes information that satisfies the reporting
requirements contained in the following legislation:

  •	   Federal Managers’ Financial Integrity Act of 1982
  •	   Government Performance and Results Act of 1993
  •	   Government Management Reform Act of 1994
  •	   Reports Consolidation Act of 2000
  •	   Accountability of Tax Dollars Act of 2002
  •	   Improper Payments Information Act of 2002
  •	   Government Performance and Modernization Act of 2010

The performance and financial information contained in this report is summarized in a two-page “snapshot”
available in February 2014 at www.ftc.gov/par.


  CERTIFICATE OF EXCELLENCE AND SPECIAL AWARD


                           CERTIFICATE OF                                                                        CERTIFICATE OF
                           EXCELLENCE IN                                                                         EXCELLENCE IN
                          ACCOUNTABILITY                                                                        ACCOUNTABILITY
                             REPORTING                                                    ®
                                                                                                                  REPORTING                                  ®


                                                                                                             SPECIAL RECOGNITION AWARD

                                                  Presented to the                                                             Presented to the


                                                                                                                        Federal Trade
                                   Federal Trade                                                                        Commission
                                   Commission                                                                         In recognition for Providing the

                                                                                                                      Best Agency Head Message
                            In recognition of your outstanding efforts in
                                                                                                             in your FY12 Performance and Accountability Report
                              preparing the agency’s Performance and
                              Accountability Report for the fiscal year
                                     ended September 30, 2012.


                              A Certificate of Excellence in Accountability Reporting is presented
                             by AGA to federal government agencies whose Performance and                                 Robert F. Dacey, CGFM, CPA
                            Accountability Reports achieve the highest standards demonstrating                           Chair, Certificate of Excellence
                                                                                                                         in Accountability Reporting Board
                                         accountability and communicating results.




                                                                                                                         Relmond P. Van Daniker, DBA, CPA
                                                                                                                         Executive Director, AGA
                                                      Robert F. Dacey, CGFM, CPA
                                                      Chair, Certificate of Excellence
                                                      in Accountability Reporting Board




                                                      Relmond P. Van Daniker, DBA, CPA
                                                      Executive Director, AGA




  The FTC received the Association of Government Accountants’ Certificate of Excellence in Accountability Reporting for
  its FY 2012 PAR as well as a Special Recognition award for Best Agency Head Message.



                                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                                                  I
                                                                                                    INTRODUCTION



                                          HOW THIS REPORT IS ORGANIZED
                                          This report includes four major sections, plus supplemental information.

                                                                      1. MANAGEMENT’S DISCUSSION AND ANALYSIS SECTION
                                                                      The Management’s Discussion and Analysis Section provides an overview of the FTC’s
                                                                      mission and organization, an overview of key performance measures and efficiency measures,
                                                                      mission challenges, financial highlights, and management assurances on internal controls,
                                            MANAGEMENT’S DISCUSSION
                                                 AND ANALYSIS         financial systems, and compliance with laws and regulations.



                                                                      2. PERFORMANCE SECTION
                                                                      The Performance Section explains the FTC’s performance relative to its strategic goals and
                                                                      objectives, and includes an overview of how the performance data are verified and validated.

                                                 PERFORMANCE
                                                    SECTION




                                                                      3. FINANCIAL SECTION
                                                                      The Financial Section provides financial details, including the independent auditor’s report
                                                                      and audited financial statements with accompanying notes.

                                                   FINANCIAL
                                                    SECTION




                                                                      4. OTHER ACCOMPANYING INFORMATION SECTION
                                                                      The Other Accompanying Information Section provides management and performance
                                                                      challenges identified by the Inspector General along with the Chairwoman’s response and a
THIS PAGE INTENTIONALLY LEFT BLANK




                                                                      summary of financial statement audit and management assurances.
                                              OTHER ACCOMPANYING
                                                 INFORMATION




                                                                      5. APPENDICES
                                                                      Appendix A provides the data quality information for FTC’s performance measures; Appendix
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                      B lists the acronyms used throughout this report; Appendix C lists useful links for references;
                                                                      Appendix D provides contact information and acknowledgements.
                                                  APPENDICES




                                     II                        FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                            INTRODUCTION



THE FTC AT-A-GLANCE
HISTORY                                                         PROFILE
The federal government created the Bureau of                       •	   The agency is headquartered in Washington,
Corporations in 1903. In 1914, President Woodrow                        DC, and operates with seven regions across the
Wilson signed the Federal Trade Commission Act into                     United States.
law, and the Bureau of Corporations became the FTC.                •	   The agency had 1,165 full-time equivalent
                                                                        employees at the end of FY 2013.
LAWS ENFORCED                                                      •	   Total new budget authority for FY 2013 was
The FTC is a law enforcement agency with both                           $296 million.
consumer protection and competition jurisdiction
in broad sectors of the economy. The agency
administers a wide variety of laws and regulations.
Examples include the Federal Trade Commission
Act, Telemarketing Sales Rule, Identity Theft Act,
Fair Credit Reporting Act, and Clayton Act. In total,
the Commission has enforcement or administrative
responsibilities under more than 70 laws (see
www.ftc.gov/ogc/stats.shtm for a listing).




                                                            THE FTC’S INCEPTION AND
                                                            AUTHORITY
                                                            The Bureau of Corporations, created in 1903, served as
                                                            the FTC’s predecessor agency. It was the Supreme Court’s
                                                            1911 decision in the Standard Oil case (Standard Oil Co. v.
                                                            U.S., 221 U.S. 1 (1911)) that prompted the transformation
                                                            from the Bureau of Corporations to the FTC. The decision
                                                            resulted in the FTC Act of 1914, where Congress created
                                                            an administrative agency charged with preventing “unfair
                                                            methods of competition,” giving definition to that general
                                                            prohibition, utilizing a number of quasi-judicial powers
   to enforce that prohibition, and enforcing the Clayton Act. The FTC Act was later amended to prohibit unfair
   or deceptive acts or practices and the FTC currently maintains enforcement and administrative responsibilities
   under 70 laws. For a description of and further information regarding each law, visit: www.ftc.gov/ogc/stats.shtm.




                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                              III
                                                   INTRODUCTION




     MESSAGE FROM THE
     CHAIRWOMAN                                                                              Edith Ramirez
                                                                                             Chairwoman




     The Federal Trade Commission has a unique             security program, and undergo independent
     dual mission to protect consumers and maintain        security assessments every other year for the next
     competition in broad sectors of our economy. In       20 years.
     FY 2013, the FTC continued to exemplify good
     government, effective law enforcement, and            The FTC filed its first case against mobile
     outstanding outreach to consumers, businesses,        cramming case against Wise Media in April
     and our law enforcement partners around the           2013. The company signed consumers up for
     world. This Performance and Accountability            so-called “premium services” that sent text
     Report illustrates how we managed our resources,      messages with horoscopes and other information,
     highlights our major accomplishments, and             and then placed recurring charges of $9.99
     outlines our plans to address the challenges ahead.   per month on mobile phone bills, all allegedly
                                                           without consumers’ knowledge or permission.
     FY 2013 PERFORMANCE                                   In November 2013, Wise Media agreed to a
                                                           settlement that permanently bans it from placing
     HIGHLIGHTS                                            any charges on consumers’ telephone bills or
     CONSUMER PROTECTION                                   assisting anyone else in doing so.
     The FTC continues to give priority to protecting
                                                           This year also marked the 10th anniversary of
     consumer privacy and improving data security,
                                                           the FTC’s National Do Not Call Registry, which
     stopping harmful practices that take advantage
                                                           allows consumers to opt-out of receiving certain
     of new technology, and protecting underserved
                                                           telemarketing calls. The Registry currently
     Americans from fraud including in the financial
                                                           includes over 223 million telephone numbers
     services marketplace.
                                                           and remains one of the government’s most
                                                           popular programs. The agency escalated its
     In February 2013, the FTC charged mobile
                                                           campaign against illegal robocalls by leading
     device manufacturer HTC America failed to
                                                           joint federal-state law enforcement efforts against
     take reasonable steps to secure the software it
                                                           operations allegedly responsible for millions of
     developed, introducing security flaws that placed
                                                           robocalls pitching phony credit card interest rate
     sensitive information about millions of consumers
                                                           reductions. In addition, the FTC challenged
     at risk. HTC America agreed to a settlement
                                                           the public to create an innovative technological
     that requires the company to develop and release
                                                           solution to block illegal robocalls. Out of the
     software patches to fix vulnerabilities found in
                                                           nearly 800 eligible submissions to the FTC’s
     millions of its devices, establish a comprehensive


IV              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                        INTRODUCTION



Robocall Challenge, two winners tied for the            from anticompetitive drug-patent settlements
$50,000 prize and they are working to bring their       that result in higher drug costs. Additionally, in
ideas to market.                                        February 2013, the Supreme Court unanimously
                                                        ruled in favor of the FTC in FTC v. Phoebe Putney
The FTC also continued its law enforcement              Health System, reviving the FTC’s administrative
efforts to stop fraudulent financial services. In       challenge to a hospital merger resulting in a
June 2013, the FTC brought an action against            monopoly for general acute-care inpatient
Mortgage Investors Corporation, one of the              services in the Albany, Georgia area. Addressing
nation’s leading refinancers of veterans’ home          the respondents’ claim of state action immunity,
loans.  The company will pay a record $7.5 million      the Court held that the Georgia legislature did not
civil penalty to resolve allegations that it violated   articulate a clear policy that hospital authorities
the agency’s Telemarketing Sales Rule by calling        could eliminate competition through a hospital
more than 5.4 million U.S. service members and          merger merely by conferring general corporate
veterans whose phone numbers were on the Do             powers on the local hospital authority. The ruling
Not Call Registry and misrepresenting the cost          has broad implications for antitrust enforcement
of and savings from refinancing mortgages. This         because it clarifies and tightens the test for
case also represents the first action brought by the    determining when state action immunity applies
FTC to enforce the Mortgage Acts and Practices -        to anticompetitive actions by non-sovereign state
Advertising Rule, which allows the FTC to collect       actors, such as the Georgia Hospital Authority of
civil penalties for deceptive mortgage ads. In July     Albany-Dougherty County.
2013, the FTC also reached a settlement with the
world’s largest debt collection operation, Expert       OUTREACH AND PARTNERSHIPS
Global Solutions and its subsidiaries, who agreed       Consumers, industry, and our law enforcement
to stop harassing consumers with allegedly illegal      partners keep us informed about real-world
debt collection calls and to pay a $3.2 million civil   trends and challenges in the marketplace.
penalty – the largest ever obtained by the FTC          Consumers can contact us online or via toll-
against a third-party debt collector.                   free phone numbers. Our public outreach also
                                                        includes online resources, such as www.ftc.gov,
PROMOTING COMPETITION                                   much of which is also available in Spanish. We
One of the agency’s top priorities is promoting         also provide updates on Facebook and Twitter,
competition in the health care sector of the            and host educational videos on the FTC’s
economy. This year the FTC had two landmark             YouTube channel. The FTC’s online Business
victories at the U.S. Supreme Court. In June 2013,      Center offers extensive guidance to businesses.
the FTC achieved a significant victory when the
Supreme Court ruled in FTC v. Actavis that pay-         FINANCIAL MANAGEMENT
for-delay settlements can violate the antitrust         Being diligent and responsible stewards of the
laws and should be subject to antitrust review.         public resources that the American taxpayers and
In so doing, the Court overturned the so-called         the Congress provide to us is one of our most
“scope of the patent” test, which some courts had       important jobs. For the FY 2013 independent
adopted, and which had virtually immunized              financial audit, we received our 17th consecutive
pay-for-delay settlements from antitrust review.        unqualified opinion, the highest audit opinion
Because of the Court’s decision, the FTC is in          available. The independent auditors did not
a much stronger position to protect consumers           identify any material weaknesses, significant

                           FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                     V
                                                   INTRODUCTION



     deficiencies, or instances of non-compliance with    Additionally, the Reports Consolidation Act of 2000
     laws and regulations. I am pleased to report that    requires the Inspector General (IG) to determine
     management’s assessment of risks and review of       key management and performance challenges facing
     controls also disclosed no material weaknesses       the agency, and to assess our progress in addressing
                                                          them. The IG noted that the agency faces challenges
     (see Statement of Assurance, p. 27) and that the
                                                          this coming year in consolidating two Washington,
     financial and performance data presented here is
                                                          D.C. satellite offices into one space at the Constitution
     reliable and complete.                               Center building; securing the agency’s information
                                                          systems and networks from destruction, data loss, or
     FUTURE CHALLENGES                                    compromise; and reducing the vulnerability of leaks
     In pursuing our strategic goals and objectives,      of nonpublic information during FTC investigations.
     many of the FTC’s challenges are defined by          Agency management agrees that these are critical chal-
     the conditions of the marketplace, and thus are      lenges, and with the IG’s assessment of our progress in
                                                          addressing the challenges, as discussed in the Other
     ever changing. We work to stay informed about
                                                          Accompanying Information Section of this report (see
     new technologies, which can bring tremendous         p. 138).
     benefits to consumers, but also pose challenges on
     both the competition and consumer protection
     fronts. For a more detailed description of our       All of us at the FTC look forward to continuing
     mission challenges that have been identified by      our work to protect American consumers and
     senior management, see p. 21.                        promote competition along with our partners and
                                                          colleagues in Congress, industry, and domestic
                                                          and international law enforcement.




                                                          Edith Ramirez
                                                          December 16, 2013




VI             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                                                      INTRODUCTION



TABLE OF CONTENTS
INTRODUCTION
About This Report..........................................................................................................................................................................I
How This Report Is Organized................................................................................................................................................... II
The FTC At-A-Glance.................................................................................................................................................................III
Message from the Chairwoman.................................................................................................................................................IV


MANAGEMENT’S DISCUSSION AND ANALYSIS.............................................................................................................1
Mission and Organization............................................................................................................................................................ 2
             The FTC: Our Purpose and History............................................................................................................................. 2
             Our Organization............................................................................................................................................................ 3
             Our People........................................................................................................................................................................ 5
Performance Overview................................................................................................................................................................. 6
             Strategic and Performance Planning Framework....................................................................................................... 6
             Performance Measurement Process............................................................................................................................. 7
             Key Performance Measures and Efficiency Measures Overview............................................................................. 8
Agency Mission Challenges........................................................................................................................................................21
Management Assurances............................................................................................................................................................26
             Implementation of the Federal Managers’ Financial Integrity Act (FMFIA) at the FTC...................................26
             Chairman’s FMFIA Statement of Assurance.............................................................................................................27
Financial Highlights....................................................................................................................................................................29


PERFORMANCE SECTION................................................................................................................................................. 35
Introduction to Performance.....................................................................................................................................................36
             Relationship of Outputs to Outcomes........................................................................................................................36
             Verification and Validation of Performance Data....................................................................................................37
             Strategic Human Capital Management......................................................................................................................37
             Performance Measure Summary Tables....................................................................................................................38




                                               FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                                                                       VII
                                                                                      INTRODUCTION


       Strategic Goal # 1: Protect Consumers.....................................................................................................................................48
       Stretegic Goal #2: Maintain Competition................................................................................................................................69
       Strategic Goal #3: Advance Performance.................................................................................................................................95


       FINANCIAL SECTION........................................................................................................................................................ 105
       Message from the Chief Financial Officer..............................................................................................................................106
       Inspector General’s Transmittal Letter for Audit Report.....................................................................................................107
       Independent Auditor’s Report..................................................................................................................................................109
       Principal Financial Statements.................................................................................................................................................113
       Notes to the Financial Statements...........................................................................................................................................119


       OTHER ACCOMPANYING INFORMATION.................................................................................................................... 137
       Inspector General-Identified Management and Performance Challenges........................................................................138
       Chairman’s Response to IG Challenges..................................................................................................................................145
       Summary of Financial Statement Audit and Management Assurances.............................................................................146
       Improper Payments Elimination and Recovery Act.............................................................................................................147


       APPENDICES...................................................................................................................................................................... 149
       Appendix A: Data Quality Information..................................................................................................................................150
       Appendix B: Acronyms.............................................................................................................................................................164
       Appendix C: Other Useful Links.............................................................................................................................................166
       Appendix D: Contact Information and Acknowledgements..............................................................................................168




VIII                     FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION
     AND ANALYSIS
                                                  MANAGEMENT’S DISCUSSION AND ANALYSIS



MISSION AND ORGANIZATION
The work of the Federal Trade Commission (FTC)           THE FTC: OUR PURPOSE AND
is critical to protecting and strengthening free and
open markets and promoting informed consumer             HISTORY
choice, both in the United States (U.S.) and around      Consumers and businesses are likely to be more
the world. The FTC performs its mission through the      familiar with the work of the FTC than they think. In
use of a variety of tools, including law enforcement,    the consumer protection area, the product warranties,
rulemaking, research, studies on marketplace trends      care labels in clothes, and labels showing the energy
and legal developments, and consumer and business        costs of home appliances provide information that is
education.                                               required by the FTC. Likewise, businesses must be
                                                         familiar with the laws requiring truthful advertising
    THE FTC’S VISION                                     and protecting consumers’ personally identifiable and
                                                         sensitive health information. These laws are enforced
A U.S. economy characterized by vigorous competition
                                                         by the FTC.
among producers and consumer access to accurate
information, yielding high-quality products at low       Competition among independent businesses is good
prices and encouraging efficiency, innovation, and       for consumers, the businesses themselves, and the
consumer choice.                                         economy. Competitive markets yield lower prices
                                                         and better quality goods and services, and a vigorous
    THE FTC’S MISSION                                    marketplace provides the incentive and opportunity
                                                         for the development of new ideas and innovative
To prevent business practices that are anticompetitive
                                                         products and services. Many of the laws governing
or deceptive or unfair to consumers; to enhance
                                                         competition also are enforced by the FTC.
informed consumer choice and public understanding
of the competitive process; and to accomplish this       The FTC has a long tradition of maintaining a
without unduly burdening legitimate business activity.   competitive marketplace for both consumers and
                                                         businesses. When the FTC was created in 1914,
                                                         its purpose was to prevent unfair methods of
                                                         competition in commerce as part of the battle to
                                                         “bust the trusts.” Over the years, the Congress passed
                                                         additional laws giving the agency greater authority
                                                         over anticompetitive practices. In 1938, the Congress
                                                         passed a broad prohibition against “unfair or deceptive
                                                         acts or practices in or affecting commerce.” Since
                                                         then, the FTC also has been directed to enforce
                                                         a wide variety of other consumer protection laws
                                                         and regulations, including the Telemarketing Sales
                                                         Rule, the Identity Theft Act, and the Equal Credit
                                                         Opportunity Act.




2          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS




The FTC Commission as of September 30, 2013: (left to right) Joshua D. Wright, Commissioner; Julie Brill, Commissioner; Edith
Ramirez, Chairwoman; Maureen Ohlhausen, Commissioner.


OUR ORGANIZATION                                                  one commissioner to act as Chairman. The post is
                                                                  currently held by Chairwoman Edith Ramirez, a
The FTC is an independent agency that reports to                  commissioner since 2010, who was confirmed as
the President and to Congress on its actions. These               Chairwoman by the U.S. Senate on March 4, 2013. At
actions include pursuing vigorous and effective law               the end of the fiscal year, the commissioners were Julie
enforcement; advancing consumers’ interests by                    Brill, Maureen K. Ohlhausen, and Joshua D. Wright.
sharing its expertise with federal and state legislatures
and U.S. and international government agencies;                   The FTC’s mission is carried out by three bureaus:
developing policy and research tools through                      the Bureau of Consumer Protection, the Bureau of
hearings, workshops, and conferences; and creating                Competition, and the Bureau of Economics. Their
practical and plain-language educational programs                 work is aided by the Office of General Counsel, the
for consumers and businesses in a global marketplace              Office of International Affairs, the Office of Policy
with constantly changing technologies.                            Planning, the Office of Public Affairs, the Office of
                                                                  Congressional Relations, the Office of the Secretary,
The FTC is headed by a Commission composed of                     the Office of the Executive Director, the Office of
five commissioners, nominated by the President and                Administrative Law Judges, the Office of Equal
confirmed by the Senate, each serving a seven-year                Employment Opportunity, the Office of Inspector
term. No more than three commissioners may be                     General, and seven regional offices.
from the same political party. The President chooses




                               FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                   3
                                                        MANAGEMENT’S DISCUSSION AND ANALYSIS




    FEDERAL TRADE COMMISSION ORGANIZATIONAL CHART

            Commissioner             Commissioner        Chairwoman           Commissioner             Commissioner
          Maureen Ohlhausen            Julie Brill       Edith Ramirez       Joshua D. Wright            (Vacant)
                                                          Chief of Staff
                                                        Heather Hippsley




                                   Office of
                             Congressional Relations
                                Jeanne Bumpus
                                                                                      Office of
                                                                             Administrative Law Judges*
                                                                                D. Michael Chappell
                             Office of Public Affairs
                             Peter P. Kaplan (Acting)

                                                                                       Office of
                                                                                  Inspector General*
                                     Office of                                      Scott E. Wilson
                                 Policy Planning
                                 Andrew I. Gavil

                                                                                  Office of Equal
                                                                              Employment Opportunity
                                     Office of                                   Kevin D. Williams
                               International Affairs
                                Randolph W. Tritell




                              Office of the Secretary
                                  Donald S. Clark




            Office of the              Bureau of           Office of the         Bureau of                  Bureau of
           General Counsel        Consumer Protection   Executive Director      Competition               Economics**
             Jonathan E.             Jessica L. Rich     David B. Robbins    Deborah L. Feinstein      Pauline M. Ippolito
            Nuechterlein                                                                                     (Acting)




                                                           Regions



    * An independent organization within the FTC
    **The current Director is Martin Gaynor, effective October 1, 2013.



4            FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS


The agency is headquartered in Washington, DC, and operates with seven regions across the U.S. The graphic
below illustrates the locations of the FTC regions.




                                                                                                  •




OUR PEOPLE
The FTC’s workforce is its greatest asset. The agency’s workforce consists of 1,165 civil service employees dedicated
to addressing the major concerns of American consumers. The chart below shows workforce composition by
category.

FTC’S WORKFORCE COMPOSITION



                                                                                   Attorneys; 616


      Senior Management; 39



                 Other*; 360                                                                    Economists; 80

                                                                                       Paralegals; 70
 * “Other” includes support staff, program management, investigators, and information technology-related occupations.



                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                             5
                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



PERFORMANCE OVERVIEW                                           STRATEGIC AND PERFORMANCE
                                                               PLANNING FRAMEWORK
This section explains the FTC’s strategic and
                                                               The FY 2013 performance planning framework
performance planning framework and summarizes the
                                                               originates from the FTC’s Strategic Plan for Fiscal
key performance measures and efficiency measures
                                                               Years 2009 to 2014, available at www.FTC.gov/opp/
reported in the Performance Section. The Performance
                                                               gpra/spfy09fy14.pdf and is supported by the FTC’s
Section contains details of program performance
                                                               Performance Plan, available at www.ftc.gov/sites/
results, trend data by fiscal year, resources, strategies,
                                                               default/files/documents/reports_annual/performance-
factors affecting performance, and the procedures
                                                               plan/2013_performance_plan.pdf.
used to verify and validate the performance data. The
financial data and performance results described in            In FY 2012, the FTC released an addendum to the
this report enable the FTC to administer its programs,         strategic plan that included several target increases and
gauge their success, and make adjustments necessary            a minor measure change. The changes have been noted
to improve program quality for the public. The                 in this report next to each measure’s performance
steps the FTC has taken to ensure the performance              discussion, as applicable. The addendum is available
information it reports is complete, accurate, and              at www.ftc.gov/sites/default/files/documents/reports_
consistent are described in the Performance Section            annual/strategic-plan/spfy09fy14add.pdf.
under Verification and Validation of Performance
Data, and in Appendix A: Data Quality Information.             The FTC began operating under this strategic plan
                                                               in FY 2010. The FTC’s work is structured around
                                                               three strategic goals and 13 objectives. Performance
                                                               measures are used to gauge the FTC’s success for each
                                                               objective.

                                                               In FY 2014, the agency will implement an updated
                                                               strategic plan for fiscal years 2014 to 2018, which will be
                                                               available at www.ftc.gov/opp/gpra/index.shtm.

                                                               The table below describes each element in the FTC’s
                                                               performance framework.

                                             Statements of long-term aims outlined in the Strategic Plan, which define
    Strategic Goals
                                             how the agency carries out its mission.

    Objectives                               Statements of how the FTC plans to achieve the strategic goals.


    Performance Measures                     Indicators used to gauge success in reaching strategic objectives.

                                             Measures that best indicate whether agency activities are achieving the
    Key Measures
                                             desired outcome associated with the related objective.

                                             Expressions of desired performance levels or specific desired results
    Targets
                                             targeted for a given fiscal year. Targets are expressed in quantifiable terms.



6             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



 STRATEGIC GOALS
                                                 OBJECTIVES
 (Numbers shown in millions)
 PROTECT CONSUMERS                               Identify fraud, deception, and unfair practices that cause the greatest
 Prevent fraud, deception, and unfair            consumer injury.
 business practices in the marketplace.
                                                 Stop fraud, deception, unfairness, and other unlawful practices through law
                                                 enforcement.
 Net Costs: $151
                                                 Prevent consumer injury through education.
                                                 Enhance consumer protection through research, reports, rulemaking, and
                                                 advocacy.
                                                 Protect American consumers in the global marketplace by providing
                                                 sound policy and technical input to foreign governments and international
                                                 organizations to promote sound consumer policy.
 MAINTAIN COMPETITION                            Take action against anticompetitive mergers and practices that may cause
 Prevent anticompetitive mergers                 significant consumer injury.
 and other anticompetitive business
 practices in the marketplace.                   Prevent consumer injury through education.

                                                 Enhance consumer benefit through research, reports, and advocacy.
 Net Costs: $41                                  Protect American consumers in the global marketplace by providing sound
                                                 policy recommendations and technical advice to foreign governments and
                                                 international organizations to promote sound competition policy.
 ADVANCE PERFORMANCE
                                         Provide effective human resources management.
 Advance the FTC’s performance
 through organizational, individual, and
 management excellence.                  Provide effective infrastructure and security management.

 Goal 3’s costs are distributed to Goal 1 and
                                                   Provide effective information resources management.
 Goal 2 predominately by Goal 1’s and Goal
 2’s FTE usage, except for those non-pay costs
 that are clearly attributable to a specific goal. Provide effective financial and acquisition management.

Note: Net Costs represent the annual cost of agency operations. The gross cost less any offsetting revenue is used to determine the net cost.




PERFORMANCE MEASUREMENT                                                   Management Office also leads quarterly performance
                                                                          measure reviews that coincide with the budget
PROCESS                                                                   execution reviews. The CFO/PIO, the Executive
Bureau and Office representatives serve as the                            Director/Chief Operating Officer, and the Chief of
Performance Measure Reporting Officials (PMROs),                          Staff/Chairwoman are briefed on the results and any
who act as data stewards for each of the agency’s                         significant variances in planned versus actual results.
publicly-reported performance measures. The PMROs                         The PIO and Deputy PIO then coordinate with the
report to the Deputy Performance Improvement                              PMROs on any adjustments to strategies and tactics
Officer (PIO) on a monthly, quarterly, or annual basis                    based on the performance results.
via an internal data reporting tool. The Financial


                                   FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                               7
                                                           MANAGEMENT’S DISCUSSION AND ANALYSIS



    KEY PERFORMANCE MEASURES                                        are considered efficiency measures because either
                                                                    they are ratios of outcomes to inputs or they capture
    AND EFFICIENCY MEASURES                                         administrative timeliness. For each measure, the FTC
    OVERVIEW                                                        has established a performance target.
The FTC has established performance measures for                    The following table summarizes actual performance
assessing program performance against strategic                     during FY 2013 against established targets for all of the
goals and objectives. Of the 40 measures, 16 are                    FTC’s key performance and efficiency measures and
considered “key” measures because they best indicate                provides a synopsis of related highlights. The table also
whether agency activities are achieving the desired                 includes actual results from the past three fiscal years.
outcome associated with the related objective, and                  The FTC met or exceeded all of the 16 key measures
are indicated with a key graphic throughout this                    and 4 of the 4 efficiency measures.
report. Additionally, four performance measures


    LEGEND FOR UPCOMING TABLES
    4   Signifies that the target is met or exceeded

    6   Signifies that the target is not met

    STRATEGIC GOAL 1: PROTECT CONSUMERS
    Objective 1.1: Identify fraud, deception, and unfair practices that cause the greatest
    consumer injury.

           Key Measure 1.1.2 The percentage of the FTC’s consumer protection law enforcement actions that target
    the subject of consumer complaints to the FTC. (Output Measure)

                                                                Performance Highlights
                                                                In FY 2013, the FTC filed its first case against mobile
                            *Target            70.0% of actions cramming – the placement of unauthorized charges on
                                                                mobile phone bills. The FTC took legal action to shut down
                                                                Wise Media, an operation that allegedly signed consumers
         2013
                                                                up for so-called “premium services” that sent text messages
                                                    90.9%       with horoscopes and other information, and then placed
                             Actual
                                                     4          repeating charges of $9.99 per month on mobile phone bills,
                                                                all without consumers’ knowledge or permission.

                                                   90.6%        * Annual targets for FY12 - FY14 were increased based on
                             Actual
         2012                                        4          projected future performance as reported in the FTC’s FY 2012
                                                                Strategic Plan Addendum.


                                                   80.4%
                             Actual
         2011                                        4


8              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



Objective 1.2: Stop fraud, deception, unfairness, and other unlawful practices through law
enforcement.

        Key Measure 1.2.1 The percentage of all cases filed by the FTC that were successfully resolved through
litigation, a settlement, or issuance of a default judgment. (Outcome Measure)

                                                        Performance Highlights
                                                        Mortgage Investors Corporation, one of the nation’s leading
                                        80.0-90.0%
                       *Target                          refinancers of veterans’ home loans, agreed to pay a $7.5
                                         of cases
                                                        million civil penalty to resolve allegations that it called more
                                                        than 5.4 million U.S. service members and veterans whose
   **2013                                               phone numbers were on the Do Not Call Registry and
                                                        misrepresented the cost of and savings from refinancing
                                          98.6%
                       Actual                           mortgages. The settlement represents the largest fine the
                                            4           FTC has ever collected for allegedly violating Do Not Call
                                                        provisions of the agency’s Telemarketing Sales Rule (TSR).
                                                        This case also represents the first action brought by the FTC
                                                        to enforce the Mortgage Acts and Practices - Advertising
                                          100.0%        Rule (MAP Rule), which allows the FTC to collect civil
     2012              Actual
                                            4           penalties for deceptive mortgage ads.

                                                        * Annual targets for FY12 - FY14 were increased based on
                                                        projected future performance as reported in the FTC’s FY 2012
                                          100.0%        Strategic Plan Addendum.
     2011              Actual
                                            4
                                                        ** This measure will no longer be reported after FY 2013.

Efficiency Measure 1.2.3 The percentage of redress cases in which the FTC distributes redress dollars designated
for distribution to consumers within six months.
                                                        Performance Highlights
                                                        The agency returns funds to victims of deceptive practices
                       Target         90.0% of cases    following the successful prosecution of defendants that
                                                        result in judgments or settlements. For example, the FTC
   **2013                                               mailed 50,395 refund checks worth more than $1.1 million
                                                        to consumers who were allegedly victimized by Health
                       Actual             94.7%         Care One and three affiliated companies, a telemarketing
                                            4           operation charged with tricking consumers into buying
                                                        worthless medical discount plans. Pursuant to settlement
                                                        agreements in the case, the defendants were required
                                          95.0%         to surrender their assets so money could be returned to
     2012              Actual
                                            4           consumers. The orders also banned the defendants from
                                                        selling healthcare-related goods and services in the future,
                                                        among other things.
                                          100.0%
     2011              Actual
                                            4           ** This measure will no longer be reported after FY 2013.




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                 9
                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



     Objective 1.3: Prevent consumer injury through education.

           Key Measure 1.3.2 Customer satisfaction rate with an FTC consumer education website or microsite.
     (Outcome Measure)

                                                          Performance Highlights
                                                          The FTC used the American Customer Satisfaction Index
                           Target            73.0%        (ACSI) to measure how satisfied visitors to OnGuardOnline.
                                                          gov are. Over 100 federal agencies use this survey to
         2013                                             measure customer satisfaction. In FY 2013, OnGuardOnline.
                                                          gov maintained an overall customer satisfaction score of
                                             80.0%        80%, well above the benchmark score for government
                           Actual
                                               4          websites (73%). The survey also allows the FTC to measure
                                                          key website elements such as navigation, site information,
                                                          look and feel, site performance and functionality. The
                                             81.0%        OnGuardOnline.gov score for each of these elements was
         2012              Actual
                                               4          above the national benchmark for satisfaction. In addition,
                                                          71% of respondents said the site helped them do what they
                                                          wanted and 60% said they learned something on the site
                                                          that would change their online behavior in the future, a
                           Actual            81.0%
         2011                                  4
                                                          strong indication that the site is an effective and helpful tool
                                                          for consumers.


     Objective 1.4: Enhance consumer protection through research, reports, rulemaking, and
     advocacy.

           Key/Efficiency Measure 1.4.4 The percentage of proposed Administrative Procedure Act (APA) rulemakings,
     conducted solely by the FTC, completed within nine months of receipt of final comments in the Final Notice of
     Proposed Rulemaking.

                                                          Performance Highlights
                                             75.0% of     There is no data to consider under this measure, as the FTC
                           Target
                                           rulemakings    had no APA rulemakings to consider in FY 2013.
        **2013
                                                          ** This measure will no longer be reported after FY 2013.
                           Actual             N/A



         2012              Actual             N/A



                                             83.3%
         2011              Actual
                                               4


10             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



Objective 1.5: Protect American consumers in the global marketplace by providing sound
policy and technical input to foreign governments and international organizations to
promote sound consumer policy.

       Key Measure 1.5.1 Policy advice provided to foreign consumer protection and privacy agencies, directly
and through international organizations, through substantive consultations, written submissions, or comments.
(Output Measure)

                                                       Performance Highlights
                                                       In FY 2013, the FTC provided policy advice in 61 instances,
   **2013             *Target       60 policy inputs   through consultations, presentations, and written
                                                       comments. New and emerging Internet policy and
                                                       consumer privacy issues are being considered both by
                                                       foreign agencies and by a growing range of international
                                          61           organizations. This has sustained a strong demand for the
                      Actual                           FTC’s policy advice and technical input on consumer policy
                                          4
                                                       and related issues.

                                                       * Annual targets for FY12 - FY14 were increased based on
                                          65           projected future performance as reported in the FTC’s FY 2012
    2012              Actual
                                          4            Strategic Plan Addendum.

                                                       ** This measure will no longer be reported after FY 2013.

                                          52
    2011              Actual
                                          4




                           FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                              11
                                                              MANAGEMENT’S DISCUSSION AND ANALYSIS



     STRATEGIC GOAL 2: MAINTAIN COMPETITION
     Objective 2.1: Take action against anticompetitive mergers and practices that may cause
     significant consumer injury.

             Key Measure 2.1.1 Actions to maintain competition, including litigated victories, consent orders,
     abandoned transaction remedies, restructured transaction remedies, or fix-it-first transaction remedies in a
     significant percentage of substantial merger and nonmerger investigations. (Outcome Measure)

                                                                    Performance Highlights
                                                                    The FTC obtained a positive result in 27 of the 64 significant
                                                                    merger and nonmerger (anticompetitive practices)
                                                40.0-60.0% of
                                                                    investigations it concluded during FY 2013. Actions
                              Target              substantial
                                                                    pertaining to mergers included successful second request
                                                investigations
                                                                    or compulsory process investigations in a variety of matters
                                                                    across various industries: pharmaceuticals hospitals, high
                                                                    technology, manufacturing, and energy. Additionally, the
          2013                                                      FTC successfully concluded its litigation against the Polypore
                                                                    International/Daramic merger, securing divestiture of the
                                                                    acquired assets and a restoration of competition lost in the
                                                     42.2%          merger. After securing a significant victory in the Supreme
                              Actual                                Court on the parameters of the state action defense in
                                                       4
                                                                    antitrust cases, the FTC settled its litigation against the
                                                                    Phoebe Putney Health System.

                                                                    In regard to anticompetitive practices, the FTC took action
                                                                    to stop and prevent anticompetitive tactics that harm
                                                                    consumers by thwarting competition. For example, during
                                                                    FY 2013, the FTC issued a consent order prohibiting IDEXX
                                                     43.1%
          2012                Actual
                                                       4
                                                                    (the U.S.’s largest supplier of diagnostic testing products used
                                                                    by small animal veterinarians) from maintaining concurrent
                                                                    exclusive distribution agreements with all three top tier
                                                                    distributors for the next 10 years. In another conduct case,
                                                                    the FTC required Google to license on fair, reasonable, and
                                                                    non-discriminatory terms patents that it had acquired in
                                                                    its acquisition of Motorola Mobility. In ongoing litigation,
                                                                    the Supreme Court held in FTC v. Actavis that pay-for-delay
                                                    34.1% 1         agreements between brand and generic pharmaceutical
          2011                Actual
                                                       6            companies are subject to antitrust scrutiny, thus reversing a
                                                                    lower court’s dismissal of the FTC’s case. The matter can now
                                                                    proceed to trial.

 1
  This is a correction to results reported in the FY 2011 PAR. The results should have been based on 15 out of 44 cases, or 34%. The FY 2011
 PAR reports actuals on 14 of 44 cases, or 32%.




12              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



    Efficiency Measure 2.1.4 Consumer savings of at least thirteen times the amount of FTC resources allocated to the
    merger program.

                                                                    Performance Highlights
                                                                    During FY 2013, the agency saved consumers approximately
                            *Target                1,300.0%         13 times the amount of resources devoted to the merger
                                                                    program.
        2013
                                                                    * Annual targets for FY12 - FY14 were increased based on
                                                   1,382.2%         projected future performance as reported in the FTC’s FY 2012
                             Actual                                 Strategic Plan Addendum.
                                                      4


                                                   1,492.4%
        2012                 Actual
                                                      4


                             Actual               1,419.0%2
        2011                                          4

    Efficiency Measure 2.1.7 Consumer savings of at least twenty times the amount of FTC resources allocated to the
    nonmerger program.

                                                                    Performance Highlights
                                                                    During FY 2013, the agency saved consumers approximately
                            *Target                2,000.0%         23 times the amount of resources devoted to the nonmerger
                                                                    enforcement program. This is largely attributable to the
                                                                    consumer savings from one particular case from FY 2010
        2013
                                                                    involving Intel Corporation. The targets for FY 2012 through
                                                   2,296.0%         FY 2014 were modified in response to the agency greatly
                             Actual                                 exceeding the target due to this case.
                                                      4
                                                                    * Annual targets for FY12 - FY14 were increased based on
                                                                    projected future performance as reported in the FTC’s FY 2012
                             Actual                1,831.7%         Strategic Plan Addendum.
        2012
                                                      ✖


                             Actual                1,917.7%
        2011                                          4

2
 This is a correction to results reported in the FY 2011 PAR. The results should have been based on a savings of $532.2 (million), or 1,419%.
The FY 2011 PAR reports savings of $531.5 (million), or 1,417%.


                                   FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                               13
                                                    MANAGEMENT’S DISCUSSION AND ANALYSIS



     Objective 2.2: Prevent consumer injury through education.

          Key Measure 2.2.1 Competition resources accessed via the FTC’s website. (Output Measure)

                                                           Performance Highlights
                                                           The FTC is committed to developing readily-available
                                                           online competition content. Through its online presence,
                         *Target       24.0 million hits
                                                           the FTC strives to provide content to serve its stakeholders,
                                                           whether they are individual consumers, affected businesses,
                                                           researchers, or practitioners and policy makers. During FY
       **2013                                              2013, the FTC’s online competition resources registered over
                                                           44 million hits. These resources include pages that relate
                                             44.1          to individual investigations (such as complaints, orders,
                         Actual                            comments, and press releases), policy and research oriented
                                             4
                                                           content (such as reports, policy guides, and fact sheets,
                                                           workshop or conference webpages, the online competition
                                                           enforcement database, advocacy filings, and amicus briefs),
                                                           and business and consumer education material. The use by
                                             23.2          the FTC of social media, including Twitter and Facebook, has
        2012             Actual                            driven more traffic than expected to certain competition
                                              ✖            related pages, including the FTC’s early termination notices.
                                                           The agency did not account for the rapid growth in these
                                                           tools when it set the target for this measure.

                                                           * Annual targets for FY12 - FY14 were increased based on
                         Actual              22.6          projected future performance as reported in the FTC’s FY 2012
        2011                                 4             Strategic Plan Addendum.

                                                           ** This measure will no longer be reported after FY 2013.




14           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



Objective 2.3: Enhance consumer benefit through research, reports, and advocacy.

        Key Measure 2.3.1 Workshops, seminars, conferences, and hearings convened or cosponsored that involve
significant competition-related issues. (Output Measure)


                                    4 workshops,     Performance Highlights
                                      seminars,      The FTC devotes resources to the creation of workshops,
                      Target                         conferences, and hearings to foster an environment of
                                   conferences and
                                      hearings       discussion and analysis of competition-related issues. In FY
                                                     2013, the FTC held four major conferences.
    2013
                                           4         One event was the Pet Medications Workshop held in
                      Actual                         October 2012. The workshop examined competition and
                                          4
                                                     consumer protection issues in the pet medications industry.

                                                     The FTC’s Microeconomics Conference, held in November
                                           3         2012, focused on antitrust, consumer protection and policy
    2012              Actual                         issues that FTC economists encounter in their work. It
                                          ✖
                                                     also included discussions of structural models in applied
                                                     industrial organization and the economics of hospital
                                                     competition.

                                                     A joint conference was held in December 2012 with the
                                                     Department of Justice’s Antitrust Division. Participants
                                                     examined the impact of patent assertion entity activity on
                                           4         innovation and competition.
    2011              Actual
                                          4
                                                     Finally, the FTC hosted a forum on using enforceable industry
                                                     codes of conduct to protection consumers in cross-border
                                                     commerce, which included a discussion of the anti-trust
                                                     implications of such codes.




                          FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                             15
                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




           Key Measure 2.3.2 Reports and studies issued on key competition-related topics. (Output Measure)

                                                          Performance Highlights
                                          8 reports and   A key component to the FTC’s competition-related
                           Target                         strategy objective is studying and issuing working papers
                                              studies
                                                          on competition-related topics. During FY 2013, the
                                                          FTC published working papers on how mergers affect
         2013
                                                          competition in grocery retailing, the structural evolution of
                                               14         the dialysis industry with a focus on differences between
                           Actual                         for profit and nonprofit clinics, and the effect of entry on
                                               4
                                                          generic drug prices. The FTC also published an annual report
                                                          on concentration in the ethanol industry and the Hart-
                                                          Scott-Rodino Annual Report on the premerger notification
                                                9         program and merger enforcement.
         2012              Actual
                                               4


                                               11
         2011              Actual
                                               4


            Key Measure 2.3.3 Advocacy comments and amicus briefs on competition issues filed with entities
     including federal and state legislatures, agencies or courts. (Output Measure)

                                                          Performance Highlights
                                          10 comments     In FY 2013, the FTC filed advocacy comments and amicus
                           *Target                        briefs on competition issues such as pay-for-delay
                                            and briefs
                                                          pharmaceutical patent settlements, standard essential
                                                          patents, the regulation of certified registered nurse
        **2013
                                                          anesthetists and advanced practice registered nurses,
                                               19         taxicab licensing, and smartphone applications for arranging
                           Actual                         passenger motor vehicle transportation services.
                                               4
                                                          * Annual targets for FY12 - FY14 were increased based on
                                                          projected future performance as reported in the FTC’s FY 2012
                                               18         Strategic Plan Addendum.
         2012              Actual
                                               4
                                                          ** This measure will no longer be reported after FY 2013.



                                               16
         2011              Actual
                                               4



16             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



Objective 2.4: Protect American consumers in the global marketplace by providing sound
policy recommendations and technical advice to foreign governments and international
organizations to promote sound competition policy.

       Key Measure 2.4.1 Policy advice provided to foreign competition agencies, directly and through
international organizations, through substantive consultations, written submissions, or comments. (Output
Measure)

                                                       Performance Highlights
                                                       In FY 2013, the FTC provided policy advice to foreign
                      *Target       60 policy inputs   competition agencies in over 100 instances through
                                                       consultations, written submissions, or comments. The FTC’s
                                                       policy advice remains highly regarded and sought after by
   **2013
                                                       new and more experienced competition agencies and by
                                          100          participants in international competition organizations and
                      Actual                           conferences.
                                           4
                                                       * Annual targets for FY12 - FY14 were increased based on
                                                       projected future performance as reported in the FTC’s FY 2012
                                          146          Strategic Plan Addendum.
    2012              Actual
                                           4
                                                       ** This measure will no longer be reported after FY 2013.



                                          112
    2011              Actual
                                           4




                           FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                              17
                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS



     STRATEGIC GOAL 3: ADVANCE PERFORMANCE
     Objective 3.1: Provide effective human resources management.

           Key Measure 3.1.2 The extent employees think the organization has the talent necessary to achieve
     organizational goals. (Outcome Measure)

                                                          Performance Highlights
                                                          The Federal Human Capital Survey includes 98 questions
                           Target             56.0%
                                                          that measure how effectively agencies manage their
                                                          workforces. The FTC was at least five points higher than
         2013                                             the government-wide average on 63 of the 84 non-
                                              69.0%       demographic questions, and only one item fell more than
                           Actual                         five points below the government-wide average on any
                                               4
                                                          question. In Talent Management, the government-wide
                                                          results were 56.0% and the FTC received 69.0%, which is
                                                          second place compared to 37 other departments and
                                              70.0%
         2012              Actual
                                               4
                                                          agencies with more than 1,000 full-time employees.



                                              70.0%
         2011              Actual
                                               4


     Objective 3.2: Provide effective infrastructure and security management.

           Key Measure 3.2.1 A favorable Continuity of Operations (COOP) rating. (Output Measure)

                                                          Performance Highlights
                                                          The FTC participated in the government-wide Eagle Horizon
                           Target          75.0% rating
                                                          Exercise 2013 to test and verify the effectiveness of the FTC
                                                          COOP. The FTC’s overall score of 85.0% for the Eagle Horizon
         2013                                             2013 Exercise reflects the strong overall commitment
                                              85.0%       and continued support of the FTC COOP. This score was
                           Actual                         comparable to the 2012 score and demonstrates sustained
                                               4
                                                          high performance for the FTC’s participation in COOP testing
                                                          exercise conducted by the Federal Emergency Management
                                                          Agency (FEMA). Continued efforts to better define the FTC’s
                                              90.0%
         2012              Actual
                                               4
                                                          essential functions and ensure that effective procedures
                                                          are in place are reflected in the outstanding overall exercise
                                                          score.

                                              75.0%
         2011              Actual
                                               4



18             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS




      Key Measure 3.2.2 Availability of information technology systems. (Outcome Measure)

                                                      Performance Highlights
                                     99.50% system    In FY 2013, the information technology services pool
                       Target
                                       availability   averaged 100.0% availability, exceeding the target. These
                                                      services include mission critical systems, such as email,
    2013                                              phone and voicemail, and wireless services.
                                         100.0%
                       Actual
                                           4

                                         99.86%
    2012               Actual
                                           4

                                         99.82%
    2011               Actual
                                           4


Objective 3.3: Provide effective information resources management.

        Key Measure 3.3.1 The percentage of Commission-approved documents in the FTC’s ongoing and newly
initiated proceedings available via the Internet within 15 days of becoming part of the public record. (Output
Measure)
                                                      Performance Highlights
                                                      Making public documents available on the public FTC
                       Target            80.0%        website in a timely manner increases public awareness of
                                                      the FTC’s activities. Examples of public documents approved
                                                      by the FTC and placed on the website include (1) the
   **2013
                                                      FTC’s complaints, pleadings, opinions and orders filed in
                                         80.6%        adjudicative proceedings; (2) the Federal Register notices
                       Actual                         in rulemaking, guide issuance, regulatory review, consent
                                           4
                                                      agreement, and other proceedings in which the FTC solicits
                                                      public comments; (3) reports by the FTC and its staff; (4)
                                                      advocacy filings; (5) final consent orders and accompanying
                                         80.2%        complaints; and (6) the FTC’s complaints, briefs, and
    2012               Actual
                                           4          proposed orders filed in federal court litigation.

                                                      In FY 2013, the agency posted 80.6% of documents tracked
                                                      under this measure on the FTC’s public website within 15
                                         82.0%        days of becoming part of the public record.
    2011               Actual
                                           4
                                                      ** This measure will no longer be reported after FY 2013.




                           FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           19
                                                       MANAGEMENT’S DISCUSSION AND ANALYSIS



     Objective 3.4: Provide effective financial and acquisition management.

            Key Measure 3.4.2 The percentage of Bureaus/Offices that establish and maintain an effective, risk-based
     internal control environment. (Outcome Measure)
                                                            Performance Highlights
                                                            The Statements of Assurance submitted by the agency’s
                            Target            100.0%        major components provide the basis for measuring the
                                                            effectiveness of the agency’s risk-based internal control
                                                            environment. Based on these Statements of Assurance,
        **2013
                                                            100% of the major components establish and maintain an
                                              100.0%        effective, risk-based internal control environment.
                            Actual
                                                4
                                                            ** This measure will no longer be reported after FY 2013.



                                              100.0%
         2012               Actual
                                                4


                                              100.0%
         2011               Actual
                                                4




20              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



AGENCY MISSION CHALLENGES
The FTC stands prepared to face the challenges of          compliance in new media, protecting underserved
today’s marketplace as a champion for competition          Americans from fraud, protecting consumers in the
and consumers. As a small law enforcement agency           financial services marketplace, combating identity
with a broad mandate, many of the FTC’s challenges         theft, targeting deceptive advertising relating to
are defined by the conditions of the marketplace, and      consumers’ health, protecting children in the
thus are ever changing. For example, as consumers          marketplace, and evaluating environmental marketing
and businesses encounter difficulties with financial       claims.
scams, deceptive or fraudulent advertising, online
                                                           PROTECTING CONSUMER PRIVACY AND
privacy and data security, and anticompetitive
                                                           IMPROVING DATA SECURITY:
business practices in the technology, health care and
other industries, the FTC steps forward to promote         The FTC will continue to take a leading role in efforts
competition and protect consumers. Agency mission          to protect consumers from unfair, deceptive, or other
challenges are presented as they relate to the agency’s    illegal practices related to the privacy of their personal
strategic goals: Strategic Goal 1 (Protect Consumers)      information, while preserving the many benefits that
and Strategic Goal 2 (Maintain Competition). A             technological advances offer. The agency will stop
reference to the most applicable strategic objectives is   unfair and deceptive consumer privacy and data
also provided, so readers may refer to descriptions of     security practices through law enforcement. It will
related performance targets and actual results listed by   promote stronger privacy protections through policy
objective within the Performance Section.                  initiatives on a range of topics such as studying the
                                                           privacy practices of the data broker industry. The FTC
Management’s assessment was performed separately           will also participate in interagency groups, promote
from the Inspector General’s (IG) identified               self-regulatory efforts, provide technical assistance to
management and performance challenges (see Other           the Congress on draft legislation, and participate in
Accompanying Information Section). Management              international privacy initiatives. (Objectives 1.1, 1.2,
concurs with the IG identified challenges and his          1.3, and 1.4)
assessment of agency progress in addressing the
challenges.                                                STOPPING HARMFUL PRACTICES
                                                           THAT TAKE ADVANTAGE OF NEW
STRATEGIC GOAL 1: PROTECT                                  TECHNOLOGY:
CONSUMERS: PREVENT FRAUD,                                  Technology provides countless benefits to consumers,
DECEPTION, AND UNFAIR                                      including choice, convenience, and increased access
                                                           to goods, services, and information. It also enables,
BUSINESS PRACTICES IN THE
                                                           however, new vehicles for fraudulent, deceptive,
MARKETPLACE                                                and unfair practices in the marketplace. The FTC
Under the goal of protecting consumers, the FTC            will continue to examine consumer protection
will continue to give priority to addressing the           issues in the mobile marketplace. The FTC will take
following challenges: protecting consumer privacy and      enforcement actions against unfair and deceptive
improving data security, stopping harmful practices        practices, including mobile cramming, text message
that take advantage of new technology, promoting           spam, and misleading representations about apps.
                                                           Technological advances also have created law


                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                             21
                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS


 enforcement challenges such as making it difficult for      PROTECTING CONSUMERS IN THE
 consumers and law enforcers to identify the location        FINANCIAL SERVICES MARKETPLACE:
 of fraudsters pitching scams over the telephone             Even as the economy recovers, many consumers
 and to combat illegal robocalls. The FTC will               continue to face financial challenges. The FTC will
 continue to work with consumer groups, industry,            continue to closely coordinate with the Consumer
 technologists, policymakers, and other stakeholders         Financial Protection Bureau to ensure that consumers
 to develop solutions to halt illegal robocalls and other    are protected in the financial marketplace and to
 telemarketing calls that violate the National Do Not        avoid any duplicative efforts between the agencies. In
 Call Registry. (Objectives 1.1, 1.2, 1.3, and 1.4)          addition to the areas of financial fraud identified in
     PROMOTING COMPLIANCE IN NEW                             the previous section, the agency also will take action
     MEDIA:                                                  against deceptive practices related to motor vehicle
                                                             sales, leasing, and financing. (Objectives 1.1, 1.2, 1.3,
 As newer media such as text messaging and word-
                                                             and 1.4)
 of-mouth/viral marketing open new avenues for
 companies to communicate with consumers,                    COMBATING IDENTITY THEFT:
 businesses must ensure that their marketing and sales       Identity theft exacts a heavy financial and emotional
 practices in this new media comply with the law. The        toll from its victims, and the FTC will continue to
 FTC will promote compliance by conducting outreach          assist the millions of Americans who are victimized
 to businesses that engage in viral, mobile, and             each year. The FTC will continue to be the repository
 affiliate marketing, stressing that existing advertising    for identity theft complaints and make them available
 principles apply to new media and methods of                to federal criminal law enforcement agencies. Our
 marketing. The FTC will also monitor the marketplace        trained counselors will continue to advise identity
 and initiate investigations where appropriate.              theft victims who call our toll free number about
 (Objectives 1.1, 1.2, 1.3, and 1.4)                         rights and remedies available to them under federal
     PROTECTING UNDERSERVED                                  law. The agency also will publicize its victim
     AMERICANS FROM FRAUD:                                   assistance guide for pro-bono attorneys, train local
                                                             law enforcement to spot and prosecute identity theft,
 Frauds such as those offering purported government
                                                             and update educational materials to address new
 loans and grants, or income opportunities affect
                                                             and emerging issues, such as medical and children’s
 everyone but pose an even greater risk to those from
                                                             identity theft. (Objectives 1.1, 1.2, 1.3, and 1.4)
 low-income and underserved communities, and the
 FTC will continue its law enforcement efforts in this       TARGETING DECEPTIVE ADVERTISING
 area. The FTC also will continue to use the tools and       RELATING TO CONSUMERS’ HEALTH:
 authorities available to it to protect consumers by         Consumers can fall prey to fraudulent health
 taking enforcement actions to stop deceptive mortgage       advertising when they are in need of medical help.
 and other debt services, payday lending operations          The FTC, therefore, will continue to challenge
 engaging in deceptive practices, and abusive debt           deceptive advertising of health products, such as
 collection practices. These practices can have severe       dietary supplements. The agency will focus on disease
 consequences for consumers who can least afford it.         prevention and treatment claims; claims aimed at
 The FTC also will combat fraud targeting seniors, such      baby boomers, seniors, and the uninsured; and claims
 as prize promotion scams, and examine ways to better        exploiting emerging health threats. In addition, the
 assist older victims. (Objectives 1.1, 1.2, 1.3, and 1.4)   agency is coordinating in a wider government effort


22           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS


to prevent fraud related to the new health insurance       STRATEGIC GOAL 2: MAINTAIN
marketplaces. (Objectives 1.1, 1.2, 1.3, and 1.4)
                                                           COMPETITION: PREVENT
PROTECTING CHILDREN IN THE                                 ANTICOMPETITIVE MERGERS
MARKETPLACE:                                               AND OTHER ANTICOMPETITIVE
Children and teens are particularly vulnerable to          BUSINESS PRACTICES IN THE
deceptive, unfair, and age-inappropriate advertising.
                                                           MARKETPLACE
The agency will educate businesses about their
obligations pursuant to the recently revised Children’s    Under the Maintain Competition goal, the FTC
Online Privacy Protection Act (COPPA) Rule, and            will continue to give priority to the challenges
bring enforcement actions as appropriate against           of promoting competition and preventing
entities that violate the Rule. The FTC also plans to      anticompetitive activity particularly in the health
monitor alcohol advertising, promote self-regulation       care and pharmaceutical industries, technology
to reduce minors’ exposure to alcohol advertising, and     sectors, and energy industries. The agency will also
prepare a report to Congress evaluating compliance         work on promoting sound competition policy at the
by alcohol companies with self-regulatory guidelines.      international level and advocating for competition
Further, the agency will continue to monitor the           before federal courts, state legislatures, and other
marketing of violent entertainment to children and the     governmental agencies.
ability of teens under age 17 to purchase age-restricted
products containing violent content, and plans to
                                                           PROMOTING COMPETITION IN HEALTH
                                                           CARE AND PHARMACEUTICALS:
release the results of an online survey of children
regarding their access to and use of violent mobile        The rapidly rising cost of health care, which continues
game apps. (Objectives 1.1, 1.2, 1.3, and 1.4)             to account for an increasingly significant share of
                                                           the gross domestic product, is a matter of concern
EVALUATING ENVIRONMENTAL                                   for consumers, employers, insurers, and the nation
MARKETING CLAIMS:                                          as a whole. To ensure that consumers receive the
Many consumers are interested in purchasing                benefits of competition in health care, the FTC has
goods and services that have certain environmental         made antitrust enforcement in this area a priority.
attributes. Environmental marketing claims (such as        One particular area of FTC focus has been pay-
“made with recycled content” or “biodegradable”)           for-delay patent settlement agreements between
can be potentially useful to consumers. Consumers,         brand and generic drug manufacturers to delay
however, cannot judge the veracity of these types          generic competition. As the Supreme Court recently
of claims themselves, and the complexity of the            explained in FTC v. Actavis, “there is reason for
issues involved creates the potential for confusing or     concern that settlements taking this form tend to have
misleading claims. The FTC will educate businesses         significant adverse effects on competition.” These
about the FTC’s Guides for the Use of Environmental        agreements deprive consumers of access to lower cost
Marketing Claims (“Green Guides”), and will bring          generic drugs. According to FTC economists, these
enforcement actions to stop deceptive environmental        anticompetitive deals, unless stopped, could cost
marketing claims. (Objectives 1.1, 1.2, 1.3, and 1.4)      consumers up to $35 billion over ten years. The FTC
                                                           investigates and challenges patent settlements between
                                                           brand and generic companies, when appropriate,
                                                           and seeks relief for consumers when appropriate.


                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                          23
                                                   MANAGEMENT’S DISCUSSION AND ANALYSIS


 The agency also addresses rising prescription drug        might raise anticompetitive concerns. The FTC takes
 prices by investigating pharmaceutical and medical        action against those mergers that are likely to reduce
 device company mergers and acquisitions. In addition,     or eliminate competition. In addition, the FTC is
 the FTC stops anticompetitive agreements between          vigilant where a firm may be illegally using a dominant
 physicians and hospital service organizations and         market position to stifle competition and strengthen
 mergers and acquisitions involving hospitals and other    an existing monopoly in order to raise prices, reduce
 health care providers that may raise the cost of health   the quality or choice of goods and services, or reduce
 care. The agency has issued guidance about antitrust      innovation; or where groups of competitors take
 law to prevent groups of health care providers from       collective action that threatens to increase price or
 creating and exercising market power to the determent     stifle innovation. Furthermore, issues in antitrust and
 of consumers. The FTC focuses these efforts so            competition policy matters increasingly intersect with
 that misunderstandings about the law do not deter         intellectual property. Among other work, the FTC will
 potentially beneficial collaborations among health        work to advance a greater understanding of the impact
 care competitors. The Affordable Care Act of 2010         of patent assertion entities (also known as PAEs) on
 encourages healthcare providers to create integrated      competition and consumers and take enforcement
 health care delivery systems, called Accountable Care     activity where appropriate to curb anticompetitive and
 Organizations, to improve the quality of care and         deceptive conduct. (Objectives 2.1 and 2.3)
 lower health care costs. The FTC worked with the
                                                           PREVENTING ANTICOMPETITIVE
 other relevant U.S. agencies (the Antitrust Division
                                                           ACTIVITY IN ENERGY INDUSTRIES:
 of the Department of Justice and the Centers for
 Medicare and Medicaid Services) to develop a Joint        The price of gasoline and other energy sources
 Statement of Antitrust Enforcement Policy for             continues to be a great concern for consumers,
 Accountable Care Organizations, which makes clear         businesses, and governments. The agency meets this
 that the antitrust laws are not a barrier to bona fide    challenge by closely monitoring gasoline markets and
 collaboration to improve healthcare and reduce costs.     moving quickly to address any anticompetitive merger
 Upon request, FTC staff reviews certain proposed          or nonmerger activity. Through its review of HSR
 ACOs. The FTC retains the ability to challenge            merger filings and investigation of non-reportable
 collaborations that are anticompetitive. (Objectives      transactions, the FTC promotes competition and
 2.1, 2.2, and 2.3)                                        protects consumers in these markets. The FTC
                                                           also continuously examines price movements and
     CONTINUING EMPHASIS ON                                other activity through its Gasoline and Diesel Price
     TECHNOLOGY:                                           Monitoring Project to identify any conduct that may
 The continuing importance of technology and the           not reflect purely competitive decisions based on the
 fast pace at which these markets evolve is a crucial      forces of supply and demand. The FTC examines
 marketplace challenge. FTC antitrust investigations       energy markets for anticompetitive nonmerger activity
 increasingly involve high-technology sectors of the       as well, such as illegal agreements among competitors,
 economy, such as devices used in manufacturing,           agreements between manufacturers and product
 electronic components, and computer hardware and          dealers, monopolization, and other anticompetitive
 software. In enforcing the antitrust laws, the FTC        activities. The FTC continues to investigate whether
 analyzes mergers and acquisitions filed under the         certain oil producers, refiners, transporters, marketers,
 Hart-Scott-Rodino (HSR) Act, and also monitors            physical or financial traders, or others (1) have
 the marketplace for non-reportable transactions that      engaged in practices, including manipulation, that


24          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS


have lessened or may lessen competition in the             challenges, the FTC devotes considerable resources to
production, refining, transportation, distribution, or     monitoring and studying energy markets—often in
wholesale supply of crude oil or petroleum products;       response to congressionally mandated requirements—
or (2) have provided false or misleading information       thus developing the professional expertise and body of
related to the wholesale price of crude oil or petroleum   knowledge needed to address emerging concerns. The
products to a federal department or agency. Such           FTC has issued reports on the factors that influence
actions could violate Section 5 of the FTC Act,            the prices that American consumers pay for gas. These
the Commission’s Prohibition of Energy Market              reports, the most recent of which was released in 2011,
Manipulation Rule, or Section 811 or Section 812 of        show that the price of oil is still the most important
the Energy Independence and Security Act of 2007.          factor in gas prices. (Objectives 2.1 and 2.3)
To prepare and support agency staff in meeting these




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                          25
                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



 MANAGEMENT                                                  During FY 2013, the SAT updated guidance for
                                                             program managers to use in completing self-
 ASSURANCES                                                  assessments of the processes and controls within their
                                                             areas of responsibility. Senior managers throughout
     (ON INTERNAL CONTROLS,                                  the agency completed self-assessments that disclosed
     FINANCIAL SYSTEMS, AND                                  no significant control weaknesses. The SAT evaluated
                                                             the results of the managers’ assessments and concurred
     COMPLIANCE WITH LAWS AND                                that no material weaknesses or nonconformances were
     REGULATIONS)                                            identified. The results of these evaluations and other
                                                             information—such as independent audits or reviews
     IMPLEMENTATION OF THE FEDERAL                           performed by the Office of Inspector General (OIG)
     MANAGERS’ FINANCIAL INTEGRITY ACT                       and the Government Accountability Office (GAO)
     (FMFIA)                                                 (e.g., Federal Information Security Management Act
 The FTC considers internal controls to be an integral       review), independent audits of service providers’
 part of all systems and processes that the agency           operations and financial systems (e.g., reviews
 utilizes in managing its operations and carrying            conducted in accordance with Statement on Standards
 out activities toward achieving strategic goals             for Attestation Engagements (SSAE) No. 16), internal
 and objectives. The FTC holds agency managers               analyses, and other relevant evaluations and control
 accountable for efficiently and effectively performing      assessments—were considered by the SAT and the
 their duties in compliance with applicable laws and         agency head in determining whether there are any
 regulations and for maintaining the integrity of their      management control deficiencies or nonconformances
 activities through the use of controls.                     that must be disclosed in the annual assurance
                                                             statement.
 The FTC’s Senior Assessment Team (SAT) provides
 strategic direction and oversight over the agency’s         In FY 2013, the FTC continued to follow its Internal
 internal control program, to promote and facilitate         Control Review Plan. The objective of the reviews is to
 compliance with applicable guidance (e.g., Office of        assist management in identifying high-risk areas and
 Management and Budget [OMB] Circular A-123,                 implement appropriate risk management strategies
 “Management’s Responsibility for Internal Control”),        where necessary. Two additional reviews were initiated
 and communicates the results of reviews to senior           or underway this year. The Chairwoman’s assurance
 management and the head of the agency.                      statement that follows is supported by the processes
                                                             and reviews described above, which were carried out
 Some of the functions of the SAT are developing             in FY 2013. Management assurances tables appear in
 and documenting an internal control review plan,            the Other Accompanying Information Section.
 identifying key processes and related control activities,
 performing a preliminary risk assessment of such
 processes, reviewing and assessing the overall control
 environment, ensuring timely implementation of
 any corrective actions needed to address identified
 weaknesses, and establishing guidance for program
 managers in monitoring and assessing management
 controls within their areas of responsibility.




26           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS


CHAIRWOMAN’S FMFIA STATEMENT OF ASSURANCE




                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013   27
                                                    MANAGEMENT’S DISCUSSION AND ANALYSIS



     SUMMARY OF MATERIAL WEAKNESS AND                      PROMPT PAYMENT ACT
     NONCONFORMANCES                                       The Prompt Payment Act requires federal agencies
                                                           to make timely payments to vendors, including any
 As noted in the Chairwoman’s FMFIA Statement of
                                                           interest penalties for late invoice payments. In FY
 Assurance, the FTC has no material weaknesses or
                                                           2013, the FTC processed 9,200 invoices totaling $100
 nonconformances to report for FY 2013. No new
                                                           million that were subject to prompt payment. Of these
 material weaknesses or significant nonconformances
                                                           invoices, 99.1 percent were paid on time. During FY
 were identified for the past nine years, nor were
                                                           2013, the FTC paid a total of $312 in interest penalties,
 there any existing unresolved weaknesses requiring
                                                           or .0003 percent of the total dollar amount invoiced.
 corrective action.
                                                           AGENCY FINANCIAL MANAGEMENT
     FEDERAL INFORMATION SECURITY
                                                           SYSTEMS STRATEGY
     MANAGEMENT ACT (FISMA)
                                                           The FTC’s overall strategy for its financial
 As mandated by FISMA, the agency continues
                                                           management systems framework is driven by the
 to maintain an information security program to
                                                           objectives of operational effectiveness and efficiency,
 manage information technology in accordance with
                                                           reliability and timeliness of data, and support of
 National Institute of Standards and Technology
                                                           requirements of the agency’s strategic goals. The
 (NIST) requirements. During FY 2013, the FTC has
                                                           agency continues to work with its shared service
 performed five Assessment and Authorization (A&A)
                                                           provider in enhancing its Core Financial System
 efforts and currently has nineteen systems authorized
                                                           (CFS) and the related feeder systems and business
 to operate. The FTC leveraged two Federal Risk and
                                                           processes. The FTC also plans to fully integrate its
 Authorization Management Program (FedRAMP)
                                                           procurement system with its CFS. Such integration
 Joint Authorization Board (JAB) provisional
                                                           will strengthen internal controls, improve efficiency
 authorizations – one for the cloud hosting of our
                                                           of the procurement process, and provide agency staff
 public web sites and one for the Sentinel Network
                                                           with timely information regarding budget execution
 Services systems.
                                                           and the availability of funds.
     DEBT COLLECTION IMPROVEMENT ACT
 The Debt Collection Improvement Act of 1996
 prescribes standards for the administrative collection,
 compromise, suspension, and termination of federal
 agency collection actions and referrals to the proper
 agency for litigation. The FTC monitors, administers
 and collects on debts less than 180 days delinquent.
 The FTC also monitors, administers and collects on
 debts more than 180 days delinquent. All eligible,
 nonexempt debts more than 180 days old have been
 transferred to the U.S. Department of the Treasury
 for cross-servicing. In addition, recurring payments
 were processed by Electronic Funds Transfer (EFT)
 in accordance with the EFT provisions of the Debt
 Collection Improvement Act.




28           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



FINANCIAL HIGHLIGHTS                                        presented below have been prepared from the agency’s
                                                            accounting records in accordance with Generally
                                                            Accepted Accounting Principles (GAAP). GAAP
Introduction                                                for federal agencies are the standards prescribed by
                                                            the Federal Accounting Standards Advisory Board
The financial highlights presented below are an analysis    (FASAB). For the 17th straight year, the FTC is proud
of the information that appears in the FTC’s FY 2013        to have received an unqualified (clean) opinion on its
financial statements. The agency’s financial statements,    audited financial statements. The chart below presents
which appear in the Financial Section of this report, are   a snapshot of the changes in key financial statement
audited by an independent accounting firm. The FTC          line items that occurred during FY 2013 and is followed
management is responsible for the fair presentation         by an explanation of the more significant fluctuations
of information contained in the principal financial         in each of FTC’s financial statements.
statements. The financial statements and financial data

Differences between amounts presented in this section and the financial statements are due to rounding.

                                                                                                      Percentage
CONDENSED BALANCE SHEET (Dollars shown in thousands)                   FY 2013          FY 2012
                                                                                                         Change
Assets:
     Fund balance with Treasury                                   $	206,638        $	    192,786              7%
     Cash and other monetary assets                               	18,239          	28,360                   -36%
     Accounts receivable, net                                     	24,838          	31,986                   -22%
     General property & equipment, net                            	22,042          	18,385                   20%
Total Assets                                                      $	    271,757    $	    271,517              0%
Liabilities:
     Accrued consumer redress due to claimants                    $	     23,693    $	     27,219             -13%
     Consumer redress collections not yet disbursed               	65,848          	84,935                   -22%
     Accounts payable and other                                   	29,725          	30,609                    -3%
Total Liabilities                                                 $	    119,266    $	    142,763             -16%
Net Position:
     Cumulative results of operations                             	152,491         	128,754                  18%
Total Net Position                                                $	    152,491    $	    128,754             18%
Total Liabilities and Net Position                                $	    271,757    $	    271,517              0%


                                                                                                      Percentage
COST SUMMARY (Dollars shown in thousands)                              FY 2013          FY 2012
                                                                                                         Change
     Gross costs                                                  $	    287,941    $	    286,054              1%
     Less earned revenue                                          	(95,811)        	(101,619)                 -6%
Net Cost of Operations                                            $	    192,130    $	    184,435              4%




                                FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                      29
                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS



     FINANCIAL ANALYSIS                                          a judgment collected in FY 2012. Accounts receivable,
                                                                 net, decreased by $7 million, due to an increase in the
     ASSETS                                                      allowance for uncollectible accounts in the consumer
                                                                 redress program, and to an increase in collections of
 The FTC’s Balance Sheet shows total assets of $271.8
                                                                 civil penalties. General property & equipment, net,
 million at the end of FY 2013, an increase of $0.3 million
                                                                 increased by $4 million, due primarily to capital asset
 or 0.1 percent compared to total assets of $271.5 million
                                                                 additions during the year. The majority of additions
 in FY 2012. The small variance between the two years
                                                                 were leasehold improvements, arising from the pending
 is explained through the analysis of the individual asset
                                                                 move of offices from M Street, and 601 New Jersey
 categories.
                                                                 Avenue to the Constitution Center building on 400 7th
                                                                 Street.
 The increase of $14 million in the fund balance with
 Treasury is due primarily to an increase in unpaid
 obligations at the end of the period. Cash and other
 monetary assets decreased by $10 million, due primarily
 to a large consumer redress distribution in FY 2013 of




     ASSETS BY TYPE (Dollars shown in millions)


                                                  Accounts receivable, net, $25

                                             9%               Cash and other monetary assets, $18

                                                   7%
                                                                  General property and equipment, $22
                                                       8%



                                  76%

                                                                 Fund balance with Treasury, $207




30            FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



LIABILTIIES
The FTC’s total liabilities at the end of FY 2013 were         Consumer redress collections not yet disbursed is
$119 million, a decrease of $23 million or 16 percent,         the liability offset to amounts collected for consumer
from fiscal year 2012 total liabilities of $143 million.       redress and held temporarily in a Treasury deposit
The decrease is explained through the analysis of the          fund ($48 million) or as cash in a financial institution
individual liability categories.                               ($18 million). The decrease of $19 million is due to a
                                                               decrease in redress collections during fiscal year 2013.
Accrued consumer redress due to claimants is the               Accounts payable and other decreased by $1 million in
liability offset to consumer redress accounts receivable,      FY 2013, due to the decrease in the civil penalty accrual
net. The decrease of $4 million in this liability reflects a   (the offsetting liability corresponding to the accounts
similar decrease in the accounts receivable, net, related      receivable, net, for civil penalties).
to consumer redress.




LIABILITIES BY TYPE (Dollars shown in millions)



                    Redress collected not yet                             Accounts payable and
                    disbursed, $66                                        Other, $30

                                                               25%


                                              55%
                                                                20%



                                                                            Accrued redress receivables
                                                                            due to claimants, $24




                               FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                          31
                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



     NET POSITION                                            RESULTS OF OPERATIONS
 Net position represents the FTC’s cumulative results        The gross cost of FTC’s programs was $288 million for
 of operations. At the end of FY 2013, the FTC’s net         FY 2013, representing an increase of $2 million, or 1
 position is $153 million, increasing by $24 million or 18   percent over FY 2012. The primary factors contributing
 percent over the FY 2012 ending net position of $129        to this increase were an increase in personnel and
 million.                                                    related benefit costs of $5 million offset by a decrease in
                                                             losses on disposition of asset. Gross costs are inclusive
 Financing sources from appropriations used during           of all costs involved in FTC’s ongoing operations.
 the year were $207 million and imputed financing
 sources totaled $9 million for a total of $216 million.     Earned revenues offset FTC’s gross costs in determining
 The imputed financing sources consisted of $4 million       the net costs of operations. FTC’s earned revenues are
 in future retirement benefits and $5 million in future      derived primarily from fees collected for the National
 health and life insurance benefits accrued in FY 2013,      Do Not Call (DNC) Registry and for premerger
 which will be paid by entities other than the FTC.          filings under the Hart-Scott-Rodino Act. Total earned
                                                             revenues were $96 million in FY 2013, representing a
 The financing sources of $216 million exceed the net        decrease of $6 million from FY 2012. This decrease was
 cost of operations totaling $192 million (gross costs of    due primarily to a decrease in premerger filing fees in
 $288 million less revenues from fees of $96 million),       FY 2013.
 resulting in the $23 million increase in net position.
                                                             The increase in gross costs and the decrease in earned
                                                             revenues in FY 2013, contributed to the overall increase
                                                             of $8 million in net costs from FY 2012 to FY 2013.




 FY 2013 NET COSTS BY STRATEGIC GOAL
 (Dollars shown in thousands)
                                                        Strategic Goal 1    Strategic Goal 2
                                                     Protect Consumers Maintain Competition                      Total

        Gross Costs                                      $	165,566               $	122,375              $	287,941

        Less Earned Revenue                              	(14,118)               	(81,693)              	(95,811)

     Net Cost of Operations                              $	151,448               $	40,682               $	192,130




32             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
MANAGEMENT’S DISCUSSION AND ANALYSIS



BUDGETARY RESOURCES                                      or 5 percent from the $313 million received in FY
The Statement of Budgetary Resources (SBR) provides      2012. The decrease is due appropriated amounts
information on budgetary resources made available        rescinded and to a decrease in offsetting collections.
to the agency and the status of those resources at the   In FY 2013, general fund appropriations and offsetting
end of the fiscal year. New budgetary authority (total   collections comprised 70 and 30 percent of new budget
budgetary resources excluding unobligated balances       authority, respectively. This compares to general fund
brought forward and prior year recoveries) was $296      appropriation of $210 million and offsetting collections
million in FY 2013. The $296 million is comprised of     of $103 million, comprising 67 and 33 percent of new
$207 in general fund appropriations and $89 million      budget authority, respectively, in FY 2012.
in spending authority from offsetting collection.
Overall, this represents a decrease of $17 million




NEW BUDGET AUTHORITY FOR FY 2012 (Dollars shown in millions)




                                                                         Spending authority from
                                                                         offsetting collections, $89
                                                         30%


                                           70%



               General Fund
               Appropriations, $207




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                      33
                                                          MANAGEMENT’S DISCUSSION AND ANALYSIS



     LIMITATIONS OF FINANCIAL                                         are prepared from the same books and records. These
                                                                      statements should be read with the understanding
     STATEMENTS                                                       that they are for a component of the U.S. government,
 FTC management has prepared its FY 2013 financial                    a sovereign entity. One implication is that unfunded
 statements from the books and records of the agency                  liabilities cannot be liquidated without legislation that
 in accordance with the requirements of OMB Circular                  provides resources to do so.
 A-136, financial reporting requirements, as amended.
 The financial statements represent the financial                     FINANCIAL MANAGEMENT
 position and results of operations of the agency                     INDICATORS
 pursuant to the requirements of chapter 31 of the U.S.
 Code Section 3515(b). While these statements have                    The following table shows standard indicators
 been prepared from the agency’s books in accordance                  developed by the Chief Financial Officers Council
 with the formats prescribed by the OMB, the                          and used by the OMB to monitor agencies’ financial
 statements are in addition to the financial reports used             management practices.
 to monitor and control budgetary resources, which



     FINANCIAL MANAGEMENT INDICATORS FOR FY 2013
     DEBT MANAGEMENT


     Eligible Nonexempt Debt Transferred to Treasury                   100%


     FUNDS MANAGEMENT

     Fund Balance with Treasury (identifies the difference
     between the fund balance reported in Treasury reports
                                                                       100% reconciled
     and the agency fund balance with Treasury recorded in its
     general ledger on a net basis)

     PAYMENT MANAGEMENT


     Percentage Invoices Paid on Time (per Prompt Payment Act)         99.1%


     Percentage Interest Penalties Paid to Total Dollars Invoiced      0.0003%

     Percentage of total dollars outstanding in current status
                                                                       100%
     (good standing) for Individually Billed Travel Account holders
     Percentage of total dollars outstanding in current status
                                                                       100%
     (good standing) for Centrally Billed Travel Accounts
     Percentage of total dollars outstanding in current status
                                                                       100%
     (good standing) for Purchase Cards




34              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
PERFORMANCE
   SECTION
                                                              PERFORMANCE SECTION



 INTRODUCTION TO                                                          This will be the final year that the agency reports
                                                                          performance information under the FY 2009 to
 PERFORMANCE                                                              2014 Strategic Plan. As required under the GPRA
                                                                          Modernization Act of 2010 (GPRAMA), each
 The Performance Section presents, by goals and                           government agency is required to prepare an updated
 objectives, detailed information on the performance                      strategic plan every four years. In FY 2013, the agency
 results of the Federal Trade Commission’s (FTC)                          updated its strategic plan for fiscal years 2014 to 2018.
 programs. This section also includes a discussion                        The new strategic plan will take effect in FY 2014.
 of strategies and factors affecting performance, a
 summary of methods used to verify and validate                           RELATIONSHIP OF OUTPUTS TO
 performance data, trend data, performance targets,                       OUTCOMES
 and resource utilization data for Goal 1 and Goal 2.
                                                                          The FTC continuously reviews its performance
 Since Goal 3 applies to overall performance across
                                                                          framework and focuses on tracking and reporting the
 the agency, the resources utilized for Goal 3 are
                                                                          most appropriate and meaningful outcome measures
 distributed to Goal 1 and Goal 23. Generally, this
                                                                          to show effectiveness, efficiency, and results. For
 section would also contain the results of program
                                                                          example, outcome-based Performance Measures 2.1.2
 evaluations; however, the agency did not undergo
                                                                          and 2.1.5 estimate the millions of dollars in consumer
 any significant program evaluations in FY 2013. For
                                                                          savings that result from merger and nonmerger
 a summary of the agency’s mission and a description
                                                                          actions taken to maintain competition. The FTC,
 of the organizational structure, see the Management’s
                                                                          however, has not developed outcome measures in all
 Discussion and Analysis Section.
                                                                          cases, and uses input and output measures that either
 The goals, objectives, and performance measures                          support outcomes, lead to outcomes, or otherwise
 reported in this PAR are based on the agency’s FY                        provide valuable indicators of how the FTC is
 2009 to 2014 Strategic Plan, which became effective                      progressing toward achieving its strategic goals and
 in FY 2010. In FY 2012, the agency updated the                           objectives. Under the consumer protection goal, for
 strategic plan with an addendum, reflecting interim                      example, Performance Measure 1.1.1 counts consumer
 adjustments to several performance measures and                          complaints added to the FTC’s database, and
 targets. The performance tables that follow present                      Performance Measure 1.1.2 indicates the percentage
 up to seven fiscal years of performance results and                      of the agency’s consumer protection law enforcement
 targets, except for those performance measures                           actions that targeted the subject of consumer
 added in the addendum. These newest performance                          complaints. While these measures are not outcome-
 measures are presented starting in FY 2010. Measures                     oriented, they bring the FTC closer to determining
 or performance targets that changed as a result of the                   its impact in the ultimate desired outcome of a
 addendum are noted throughout the section where                          marketplace free of unfair practices that cause
 applicable. The addendum to the strategic plan is                        consumer injury and free of fraud and deception.
 available at www.ftc.gov/sites/default/files/documents/
 reports_annual/strategic-plan/spfy09fy14add.pdf.



 3
  Goal 3’s costs are distributed to Goal 1 and Goal 2 predominately by Goal 1’s and Goal 2’s FTE usage, except for those non-pay costs that
 are clearly attributable to a specific goal.



36             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                              PERFORMANCE SECTION



VERIFICATION AND VALIDATION OF                                    as well as periodic senior management and
                                                                  commission review throughout the fiscal year.
PERFORMANCE DATA                                                  This process includes substantiating that actual
The financial data and performance results described              results reported are indeed correct whenever
in this report enable the FTC to administer its                   those results reveal significant discrepancies or
programs, gauge programmatic success, and make                    variances from the target.
adjustments necessary to improve program quality
                                                           Agency program managers also monitor and maintain
for the public. The Message from the Chairwoman on
                                                           automated systems and databases that collect, track,
p. IV states that the FTC’s financial and performance
                                                           and store performance data, with support provided
data presented are complete and reliable. Appendix
                                                           by the FTC’s Office of the Chief Information Officer
A provides details on the data quality of each
                                                           (OCIO). In addition to the general controls the FTC
performance measure. For FY 2013, a new subsection
                                                           has in place, which ensure only authorized staff
has been added in Appendix A to explain how a
                                                           can access key systems, each application (system)
particular measure’s formula or calculation was
                                                           incorporates internal validation edits to ensure the
computed. Additionally, the following steps outline
                                                           accuracy of data contained therein. These application
how the agency ensures the performance information
                                                           edits include checks for reasonableness, consistency,
it reports is complete, reliable and accurate:
                                                           and accuracy. Crosschecks between other internal
  •	   The FTC has adopted a central internal              automated systems also provide assurances of data
       repository for performance data entry,              accuracy and consistency. In addition to internal
       reporting and review. The electronic data tool      monitoring of each system, experts outside of the
       reduces human error, increases transparency,        business units (e.g., the Bureaus of Consumer
       and facilitates senior management review of the     Protection (BCP) and Competition (BC)) routinely
       agency’s performance information.                   monitor the data collection. For example, senior
  •	   The agency maintains written procedures             economists from the Bureau of Economics review
       used to ensure timely reporting of complete,        statistical data used by the Bureau of Competition to
       accurate, and reliable actual results relative to   calculate performance results.
       the key performance measures.
                                                           The Financial Management Office (FMO) is
  •	   The agency holds program managers
                                                           responsible for providing direction and support on
       accountable to set meaningful and realistic
                                                           data collection methodology and analysis, ensuring
       targets that also challenge the agency to
                                                           that data quality checks are in place, and accurately
       leverage its resources. This includes ensuring
                                                           reporting performance management data.
       ongoing monitoring of performance targets
       so they are updated to reflect changes in key       STRATEGIC HUMAN CAPITAL
       factors that impact the agency’s ability to
       achieve such results. Further, when appropriate,
                                                           MANAGEMENT
       program managers are required to explain how        The FTC’s strategic human capital management en-
       they will improve performance when targets are      sures that the agency has the diverse, skilled workforce
       not met.                                            needed to advance its mission, achieve its strategic
  •	   The agency conducts quarterly performance           goals and objectives, and meet performance measure
       measurement reviews with management                 targets. The agency conducts human capital planning



                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           37
                                                        PERFORMANCE SECTION


 in concert with long-term strategic planning and an-        performance culture, talent management, and job
 nual performance planning to keep human capital             satisfaction, which are evaluated annually by the
 goals, policies, programs, and initiatives aligned with     U.S. Office of Personnel Management’s Employee
 the strategic and performance plans.                        Viewpoint Survey. More detailed information on
                                                             human capital performance goals and results are
 Human capital planning encompasses leadership
                                                             provided on page 96.
 and knowledge management, a results-oriented




     LEGEND FOR UPCOMING TABLES
     4   Signifies that the target is met or exceeded

     6   Signifies that the target is not met




     PERFORMANCE MEASURE                                     measure has been tracked by the agency. This length
                                                             of time is linked to the FTC’s strategic plan revision
     SUMMARY TABLES                                          process, which involves an agency-wide review of the
 As noted in the Management’s Discussion and                 existing set of measures and decisions made by senior
 Analysis Section of this report, 16 of the FTC’s            management regarding what measures will change
 performance measures are considered “key” measures          under the new strategic plan framework.
 because they best indicate whether agency activities
                                                             Of the 40 total performance measures, 34 were met or
 are achieving the desired outcome associated with the
                                                             exceeded, five were not met, and data was not available
 related objective, and are indicated with a key graphic
                                                             for one measure in FY 2013. As context, in FY 2012,
 throughout this report. Additionally, four performance
                                                             the agency met or exceeded 29 measures, did not meet
 measures are considered efficiency measures because
                                                             nine measures, and data was not available for two
 either they are ratios of outcomes to inputs or they
                                                             measures. In FY 2011, the agency met or exceeded 36
 capture administrative timeliness.
                                                             measures, did not meet three measures and data was
 The tables that follow show FY 2013 performance             not available for one measure. In FY 2013, based on
 targets and units of measure compared to actual             these results, the FTC continues to make significant
 results. In the tables that show historical performance,    progress toward reaching its objectives, as fully
 data is presented for as many years as the performance      described in this section.




38              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                PERFORMANCE SECTION



STRATEGIC GOAL 1: PROTECT CONSUMERS
Objective 1.1: Identify fraud, deception, and unfair practices that cause the greatest
consumer injury.

                                                                Target                    3.0 million complaints
Performance Measure 1.1.1 Complaints collected and
entered into the Consumer Sentinel Network database.
                                                                                          5.7 million complaints
                                                                Actual
                                                                                                    4


                                                                Target                       70.0% of actions
         Key Measure 1.1.2 The percentage of the
FTC’s consumer protection law enforcement actions
that target the subject of consumer complaints to the
FTC.                                                                                         90.9% of actions
                                                                Actual
                                                                                                    4


                                                                Target                    See (A) and (B) below

Performance Measure 1.1.3 The rate of customer
satisfaction with the FTC’s Consumer Response Center.                                            (A) 76.0%
                                                                Actual
                                                                                                    4
                                                                                                 (B) 80.0%
                                                                                                    4
Target: (A) For the website, exceed average citizen satisfaction rate as published in the E-Government Satisfaction Index,
which was 74%.
(B) For the call center, meet or exceed standards for call centers developed by the Citizen Service Levels Interagency
Committee, which was 74%.




                               FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                39
                                                           PERFORMANCE SECTION



     Objective 1.2: Stop fraud, deception, unfairness, and other unlawful practices through law
     enforcement.

                                                                  Target                80.0-90.0% of cases
               Key Measure 1.2.1 The percentage of all
     cases filed by the FTC that were successfully resolved
     through litigation, a settlement, or issuance of a default
     judgment.                                                                             98.6% of cases
                                                                  Actual
                                                                                                 4

                                                                              Statistically significant decrease in the
                                                                  Target
                                                                                    prevalence of the practices
     Performance Measure 1.2.2 The FTC’s effectiveness
     in stopping prohibited business practices in three high
     priority areas over fiscal years 2009-2013.                           Statistically significant decrease in one of the
                                                                  Actual               three high priority areas
                                                                                                 ✖

                                                                  Target                   90.0% of cases
     Performance Measure 1.2.3 The percentage of
     redress cases in which the FTC distributes redress
     dollars designated for distribution to consumers within
     six months. (Efficiency Measure)                                                      94.7% of cases
                                                                  Actual
                                                                                                 4


     Performance Measure 1.2.4 Investigations or cases            Target             30 investigations or cases
     in which the FTC obtains foreign-based evidence or
     engages in mutual assistance that contributes to FTC
     law enforcement actions, or in which we cooperate
                                                                                     61 investigations or cases
     with foreign agencies and/or multilateral organizations.     Actual
                                                                                                 4




40               FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                            PERFORMANCE SECTION



Objective 1.3: Prevent consumer injury through education.

                                                            Target    50.0 million messages
Performance Measure 1.3.1 Consumer protection
messages accessed online or in print.
                                                                      43.6 million messages
                                                            Actual
                                                                               ✖


                                                            Target           73.0%

        Key Measure 1.3.2 Customer satisfaction rate with
an FTC consumer education website or microsite.
                                                                             80.0%
                                                            Actual             4


                                                            Target    12,300 organizations
Performance Measure 1.3.3 Organizations requesting
consumer education publications.
                                                                      11,236 organizations
                                                            Actual
                                                                               ✖




                           FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                     41
                                                            PERFORMANCE SECTION



     Objective 1.4: Enhance consumer protection through research, reports, rulemaking, and
     advocacy.

                                                                       Target        8 workshops and conferences
     Performance Measure 1.4.1 Workshops and conferences
     convened or cosponsored that address consumer protection
     problems.
                                                                                    12 workshops and conferences
                                                                       Actual
                                                                                                 4


                                                                       Target           6 comments and briefs
     Performance Measure 1.4.2 Advocacy comments and
     amicus briefs on consumer protection issues filed with
     entities including federal and state legislatures, agencies, or
     courts.                                                                           12 comments and briefs
                                                                       Actual
                                                                                                 4


                                                                       Target            75.0% of respondents
     Performance Measure 1.4.3 The percentage of
     respondents finding the FTC’s advocacy comments and
     amicus briefs “useful.”
                                                                                        100.0% of respondents
                                                                       Actual
                                                                                                 4

              Key Measure 1.4.4 The percentage of proposed             Target            75.0% of rulemakings
     Administrative Procedure Act (APA) rulemakings, conducted
     solely by the FTC, completed within nine months of
                                                                                No APA rulemakings were proposed in FY
     receipt of final comments in the Final Notice of Proposed         Actual
                                                                                                2013
     Rulemaking. (Efficiency Measure)




42               FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                             PERFORMANCE SECTION



Objective 1.5: Protect American consumers in the global marketplace by providing sound
policy and technical input to foreign governments and international organizations to
promote sound consumer policy.


          Key Measure 1.5.1 Policy advice provided          Target            60 policy inputs
to foreign consumer protection and privacy agencies,
directly and through international organizations, through
substantive consultations, written submissions, or                            61 policy inputs
comments.                                                   Actual
                                                                                     4

                                                                     8 technical assistance missions or
                                                            Target
                                                                        international Fellows hosted
Performance Measure 1.5.2 Technical assistance to foreign
consumer protection and privacy authorities.
                                                                     13 technical assistance missions or
                                                            Actual      international Fellows hosted
                                                                                     4




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                 43
                                                           PERFORMANCE SECTION



     STRATEGIC GOAL 2: MAINTAIN COMPETITION
     Objective 2.1: Take action against anticompetitive mergers and practices that may cause
     significant consumer injury.

                 Key Measure 2.1.1 Actions to maintain competition,     Target   40.0-60.0% of substantial investigations
     including litigated victories, consent orders, abandoned
     transaction remedies, restructured transaction remedies, or
     fix-it-first transaction remedies in a significant percentage of               42.2% substantial investigations
                                                                        Actual
     substantial merger and nonmerger investigations.                                              4

     Performance Measure 2.1.2 Consumer savings of at                   Target               $500.0 million
     least $500 million through merger actions to maintain
     competition.                                                                            $564.2 million
                                                                        Actual
                                                                                                   4

     Performance Measure 2.1.3 Actions against mergers likely           Target                $25.0 billion
     to harm competition in markets with a total of at least $25
     billion in sales.                                                                        $21.0 billion
                                                                        Actual
                                                                                                   ✖

     Performance Measure 2.1.4 Consumer savings of at least             Target                  1,300.0%
     thirteen times the amount of FTC resources allocated to the
     merger program. (Efficiency Measure)                                                       1,382.2%
                                                                        Actual
                                                                                                   4

     Performance Measure 2.1.5 Consumer savings of at least             Target               $450.0 million
     $450 million through nonmerger actions taken to maintain
     competition.                                                                            $449.8 million
                                                                        Actual
                                                                                                   ✖

     Performance Measure 2.1.6 Actions against                          Target                $12.0 billion
     anticompetitive conduct in markets with a total of at least
     $12 billion in annual sales.                                                             $13.1 billion
                                                                        Actual
                                                                                                   4

     Performance Measure 2.1.7 Consumer savings of at least             Target                  2,000.0%
     twenty times the amount of FTC resources allocated to the
     nonmerger program. (Efficiency Measure)                                                    2,296.0%
                                                                        Actual
                                                                                                   4
     Performance Measure 2.1.8 The percentage of cases in
     which the FTC had at least one substantive contact with a          Target               90.0% of cases
     foreign antitrust authority in which the agencies followed
     consistent analytical approaches and reached compatible                                 100.0% of cases
                                                                        Actual
     outcomes.                                                                                     4


44               FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                               PERFORMANCE SECTION



Objective 2.2: Prevent consumer injury through education.

                                                                Target              24.0 million hits
        Key Measure 2.2.1 Competition resources
accessed via the FTC’s website.
                                                                                    44.1 million hits
                                                                Actual
                                                                                           4

Objective 2.3: Enhance consumer benefit through research, reports, and advocacy.
                                                                         4 workshops, seminars, conferences, and
                                                                Target
                                                                                        hearings
         Key Measure 2.3.1 Workshops, seminars,
conferences, and hearings convened or cosponsored that
                                                                         4 workshops, seminars, conferences, and
involve significant competition-related issues.
                                                                Actual                  hearings
                                                                                           4

                                                                Target            8 reports and studies

       Key Measure 2.3.2 Reports and studies issued on
key competition-related topics.
                                                                                 14 reports and studies
                                                                Actual
                                                                                           4

                                                                Target          10 comments and briefs
         Key Measure 2.3.3 Advocacy comments and
amicus briefs on competition issues filed with entities
including federal and state legislatures, agencies or courts.                   19 comments and briefs
                                                                Actual
                                                                                           4

                                                                Target            75.0% of respondents
Performance Measure 2.3.4 The percentage of
respondents finding the FTC’s advocacy comments and
amicus briefs “useful.”                                                          100.0% of respondents
                                                                Actual
                                                                                           4

                                                                Target               1.7 million hits
Performance Measure 2.3.5 The volume of traffic on
www.ftc.gov relating to competition research, reports, and
advocacy.                                                                            3.9 million hits
                                                                Actual
                                                                                           4



                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                       45
                                                        PERFORMANCE SECTION



     Objective 2.4: Protect American consumers in the global marketplace by providing sound
     policy recommendations and technical advice to foreign governments and international
     organizations to promote sound competition policy.

                                                                 Target            60 policy inputs
              Key Measure 2.4.1 Policy advice provided
     to foreign competition agencies, directly and through
     international organizations, through substantive
     consultations, written submissions, or comments.                             100 policy inputs
                                                                 Actual
                                                                                          4

                                                                          10 technical assistance missions or
                                                                 Target
                                                                             international Fellows hosted
     Performance Measure 2.4.2 Technical assistance provided
     to foreign competition authorities.
                                                                          34 technical assistance missions or
                                                                 Actual      international Fellows hosted
                                                                                          4



     STRATEGIC GOAL 3: ADVANCE PERFORMANCE
     Objective 3.1: Provide effective human resources management.

                                                                 Target                 51.0%
     Performance Measure 3.1.1 The extent employees
     believe their organizational culture promotes improvement
     in processes, products and services, and organizational
     outcomes.                                                                          64.0%
                                                                 Actual
                                                                                          4


                                                                 Target                 56.0%
             Key Measure 3.1.2 The extent employees think
     the organization has the talent necessary to achieve
     organizational goals.                                                              69.0%
                                                                 Actual
                                                                                          4




46              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                              PERFORMANCE SECTION



Objective 3.2: Provide effective infrastructure and security management.

                                                               Target               75.0% rating
        Key Measure 3.2.1 A favorable Continuity of
Operations (COOP) rating.                                                           85.0% rating
                                                               Actual
                                                                                         4

                                                               Target        99.50% system availability

        Key Measure 3.2.2 Availability of information
technology systems.                                                          100.0% system availability
                                                               Actual
                                                                                         4

Objective 3.3: Provide effective information resources management.

                                                               Target           80.0% of documents
          Key Measure 3.3.1 The percentage of Commission-
approved documents in the FTC’s ongoing and newly
initiated proceedings available via the Internet within 15
                                                                                80.6% of documents
days of becoming part of the public record.                    Actual
                                                                                         4

Objective 3.4: Provide effective financial and acquisition management.
                                                                        Unqualified opinion on the financial
                                                               Target
                                                                                    statements
Performance Measure 3.4.1 Independent auditor’s
financial statement audit results.                                      Unqualified opinion on this financial
                                                               Actual               statements
                                                                                         4

                                                               Target        100.0% of Bureaus/Offices
          Key Measure 3.4.2 The percentage of Bureaus/
Offices that establish and maintain an effective, risk-based
internal control environment.                                                100.0% of Bureaus/Offices
                                                               Actual
                                                                                         4

                                                                        23.0% of total small business eligible
                                                               Target
Performance Measure 3.4.3 Performance against the Small                                 dollars
Business Administration’s government-wide small business
procurement goals.                                                      49.5% of total small business eligible
                                                               Actual                   dollars
                                                                                         4


                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                     47
                                                   PERFORMANCE SECTION



 STRATEGIC GOAL 1:                                         OBJECTIVE 1.4: ENHANCE CONSUMER
                                                           PROTECTION THROUGH RESEARCH,
 PROTECT CONSUMERS                                         REPORTS, RULEMAKING, AND
                                                           ADVOCACY.
 Prevent fraud, deception, and unfair business practices   The FTC complements its law enforcement and
 in the marketplace.                                       education efforts by gathering, analyzing, and making
                                                           public certain information concerning the nature of
     I. STRATEGIC VIEW                                     business practices in the marketplace.
 As the nation’s premier consumer protection agency,       OBJECTIVE 1.5: PROTECT AMERICAN
 the FTC strives to protect consumers by preventing        CONSUMERS IN THE GLOBAL
 fraud, deception, and unfair business practices in the    MARKETPLACE BY PROVIDING SOUND
 marketplace. The agency implements five objectives to     POLICY AND TECHNICAL INPUT
 achieve this goal.                                        TO FOREIGN GOVERNMENTS AND
                                                           INTERNATIONAL ORGANIZATIONS TO
     OBJECTIVE 1.1: IDENTIFY FRAUD,
                                                           PROMOTE SOUND CONSUMER POLICY.
     DECEPTION, AND UNFAIR PRACTICES
     THAT CAUSE THE GREATEST CONSUMER                      The FTC works around the globe to address new and
     INJURY.                                               emerging consumer protection and privacy challenges
                                                           and concerns with a broad-based international
 The FTC identifies practices that cause consumer
                                                           program that strives to develop a safe and thriving
 injury by analyzing consumer complaint data it
                                                           global marketplace that encourages growth and
 collects and maintains in its Consumer Sentinel
                                                           innovation and fosters consumer trust.
 Network database, holding public discussions, and
 monitoring the marketplace.
                                                           II. STRATEGIC ANALYSIS
     OBJECTIVE 1.2: STOP FRAUD,                            OBJECTIVE 1.1: IDENTIFY FRAUD,
     DECEPTION, UNFAIRNESS, AND OTHER                      DECEPTION, AND UNFAIR PRACTICES
     UNLAWFUL PRACTICES THROUGH LAW                        THAT CAUSE THE GREATEST CONSUMER
     ENFORCEMENT.                                          INJURY.
 The FTC uses information gathered under Objective
                                                           Identifying the practices that cause the greatest
 1.1 to target its law enforcement efforts. Its law
                                                           consumer injury is the first step in preventing fraud,
 enforcement program aims to stop and deter fraud
                                                           deception, and unfair business practices in the
 and deception, protect consumers’ privacy, increase
                                                           marketplace.
 compliance with its consumer protection statutes and
 rules, and return funds to harmed consumers.              OUR STRATEGY
     OBJECTIVE 1.3: PREVENT CONSUMER                       To better protect consumers, the FTC must identify
     INJURY THROUGH EDUCATION.                             problems confronting consumers and trends in the
 The FTC targets its education efforts to give             fast-changing, increasingly global marketplace. The
 consumers the information they need to protect            agency strives to understand the issues affecting
 themselves from injury and to explain to businesses       consumers, including any newly emerging methods of
 how to comply with applicable laws.                       fraud or deceit, so that it can target its enforcement,
                                                           education, and advocacy to those areas where


48          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                               PERFORMANCE SECTION


consumers suffer the most harm. The FTC reports              23 million consumer fraud, identity theft, financial,
this information to other law enforcement authorities        and Do Not Call (DNC) complaints. FTC staff and
and encourages those authorities to assist in its efforts,   law enforcement partners also have the ability to
either independently or jointly. In this way, the FTC        search more than 284 million spam records collected
leverages its resources by ensuring there are multiple       by the FTC via spam@uce.gov. The agency augments
“cops on the beat.”                                          identification of targets from its databases with other
                                                             strategies for generating enforcement leads, such as
To fulfill this objective, the FTC is using new
                                                             ad monitoring, internet surfs (monitoring the internet
technologies creatively and building on its broad base
                                                             for potentially false or deceptive advertising for a
of private and public sector partners. The agency
                                                             targeted product or service), and direct referrals from
continues to collect consumer complaint information
                                                             government and private sector partners.
directly through four principal sources: (1) a toll-
free helpline (1-877-FTC-HELP); (2) an identity              PERFORMANCE RESULTS
theft hotline (1-877-ID-THEFT); (3) the National
Do Not Call Registry (1-888-382-1222); and (4) the           Performance Measure 1.1.1 ensures that the agency
online consumer complaint forms that support each            assimilates a large number of consumer complaints,
of these efforts, as well an online form dedicated           including complaints about DNC violations. The
to cross-border fraud complaints. In addition,               agency receives these complaints from a variety of
the FTC continues to gather consumer complaint               sources, including direct consumer complaints to the
information from other sources, including other law          FTC and complaints received by the FTC’s partners.
enforcement agencies, the Better Business Bureaus,           In this manner, the FTC collects robust information
and private entities. The agency makes this and other        to inform its law enforcement efforts. Key Measure
information accessible through the secure website            1.1.2 ensures that FTC law enforcement actions target
of the Consumer Sentinel Network (CSN), a unique             the subject of concerns identified by consumers.
investigative database of consumer complaints that           Performance Measure 1.1.3 helps the agency’s
is accessible to over 2,000 law enforcement partner          consumer response center ensure it is providing
agencies worldwide. The CSN encompasses more than            satisfactory service responding to consumers.




                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           49
                                                       PERFORMANCE SECTION




                                                    TOP CONSUMER COMPLAINTS IN
                                                    CALENDAR YEAR 2012
                                                    The list of top consumer complaints received by the FTC in 2012
                                                    (excluding Do Not Call complaints, which are reported separately)
                                                    showed that for the 13th year in a row, identity theft was the number
                                                    one consumer complaint category. Of 2,061,495 complaints received,
                                                    369,132 – or 18 percent – were related to identity theft. Debt
                                                    collection complaints were in second place, with 199,721 complaints.
                                                    The report is available on the FTC’s website at www.ftc.gov/sentinel/
     reports/sentinel-annual-reports/sentinel-cy2012.pdf.


                                                                Number of
         Rank                      Category                                         Percentage      Compared to 2011
                                                                Complaints

          1                     Identity Theft                    369,132               18%              from 15%


          2                    Debt Collection                    199,721               10%                 


          3                   Banks and Lenders                   132,340               6%                from 5%


          4           Shop-at-Home and Catalog Sales              115,184               6%                from 5%


          5           Prizes, Sweepstakes and Lotteries            98,479               5%                from 6%


          6                    Impostor Scams                      82,896               4%                 


          7                    Internet Services                   81,438               4%                from 5%


          8               Auto Related Complaints                  78,062               4%                 


          9            Telephone and Mobile Services               76,783               4%                  


         10                      Credit Cards                      51,550               3%                from 2%




50              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                  PERFORMANCE SECTION



PERFORMANCE MEASURE 1.1.1
COMPLAINTS COLLECTED AND ENTERED INTO THE CONSUMER SENTINEL NETWORK
DATABASE. (INPUT MEASURE – NUMBERS SHOWN IN MILLIONS)
             *Target         3.0
  **2013
              Actual         5.7      TARGET MET/EXCEEDED. In FY 2013, the FTC added 5.7
                                      million entries into its database, exceeding the target of 3.0
             *Target         3.0
                                      million.
   2012
              Actual         5.8
                                      The increased number of complaints in FY 2013 and FY
              Target         2.6      2012 was driven by a continuing increase in the number
   2011                               of external data contributors and consumers continuing to
              Actual         4.0
                                      contact the FTC in ever increasing numbers.
              Target         2.5
   2010                               * Targets for FY12 - FY14 were increased based on projected
              Actual         3.1      future performance as reported in the FTC’s FY 2012 Strategic
                                      Plan Addendum.
              Target         1.8
   2009
              Actual         3.3      ** This measure will no longer be reported after FY 2013.

              Target         1.8
   2008
              Actual         3.1

              Target         1.0
   2007
              Actual         1.1

              Target         1.0
   2006
              Actual         1.0




                 FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                        51
                                          PERFORMANCE SECTION



          KEY MEASURE 1.1.2
     THE PERCENTAGE OF THE FTC’S CONSUMER PROTECTION LAW ENFORCEMENT
     ACTIONS THAT TARGET THE SUBJECT OF CONSUMER COMPLAINTS TO THE FTC.
     (OUTPUT MEASURE)

        2015         Target       80.0%
                                            TARGET MET/EXCEEDED. In FY 2013, 90.9%, or 60 of 66, of
        2014        *Target       80.0%
                                            BCP’s actions targeted the subject of consumer complaints
                                            to the FTC.
                    *Target       70.0%
        2013                                Because BCP augments identification of targets from its
                    Actual        90.9%     databases with other strategies for generating enforcement
                                            leads—such as ad monitoring, Internet surfs, mobile app
                    *Target       70.0%     surveys, and direct referrals from government and private
        2012                                sector partners—the results vary from year to year.
                    Actual        90.6%
                                            * Targets for FY12 - FY14 were increased based on projected
                    Target        65.0%     future performance as reported in the FTC’s FY 2012 Strategic
        2011                                Plan Addendum.
                    Actual        80.4%

                    Target        65.0%
        2010
                    Actual        95.9%

                    Target        65.0%
        2009
                    Actual        79.0%

                    Target        65.0%
        2008
                    Actual        71.0%

                    Target        50.0%
        2007
                    Actual        76.0%

                    Target         N/A
        2006
                    Actual         N/A




52          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                   PERFORMANCE SECTION



PERFORMANCE MEASURE 1.1.3
THE RATE OF CUSTOMER SATISFACTION WITH THE FTC’S CONSUMER RESPONSE
CENTER. (OUTCOME MEASURE)

      2015                  Target             See (A) and (B)
                                                                   TARGET MET/EXCEEDED. In FY 2013, the average citizen
      2014                  Target             See (A) and (B)     satisfaction score for participating federal government
                                                                   websites was 74%, and the score for the FTC’s website was
                                                (A) 74% and        76%. The standard for call centers was 74%, and the FTC’s
                            Target
                                                  (B) 74%          score was 80%.
      2013
                                                (A) 76% and
                            Actual
                                                  (B) 80%
                                                (A) 74% and
                            Target
                                                  (B) 74%
      2012
                                                (A) 75% and
                            Actual
                                                  (B) 78%
                                                (A) 74% and
                            Target
                                                  (B) 74%
      2011
                                                (A) 75% and
                            Actual
                                                  (B) 77%
                                                (A) 74% and
                            Target
                                                  (B) 76%
      2010
                                                (A) 75% and
                            Actual
                                                  (B) 76%
Target: (A) For the website, exceed average citizen satisfaction rate as published in the ACSI’s E-Government Satisfaction Index.
(B) For the call center, meet or exceed standards for call centers developed by the Citizen Service Levels Interagency Committee.




                                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                    53
                                                    PERFORMANCE SECTION



     OBJECTIVE 1.2: STOP FRAUD,                                PERFORMANCE RESULTS
     DECEPTION, UNFAIRNESS, AND OTHER
     UNLAWFUL PRACTICES THROUGH LAW                            Key Measure 1.2.1 ensures that the FTC successfully
     ENFORCEMENT.                                              resolves cases, though it aims to file large, precedent
 Once fraud, deception, and unfair business practices          setting cases when appropriate, including cases that
 are identified in the marketplace, the FTC focuses its        raise challenging legal and factual issues. Performance
 law enforcement efforts on areas where it can have the        Measure 1.2.2 ensures the agency’s success in
 greatest impact for consumers.                                changing business practices within priority areas and
                                                               demonstrates the change through research methods.
     OUR STRATEGY                                              Performance Measure 1.2.3 ensures that the FTC
                                                               returns redress dollars to consumers as quickly as
 The FTC protects consumers by enforcing Section 5 of          possible. Dollars are considered “designated for
 the FTC Act, which prohibits unfair or deceptive acts         distribution” when the FTC is in receipt of all funds,
 or practices in or affecting commerce, as well as by          legal issues are resolved, and a usable claimant list is
 enforcing a number of statutes and rules proscribing          ready. Performance Measure 1.2.4 helps gauge law
 specific unlawful practices. The agency initiates civil       enforcement efforts from an international perspective,
 cases, primarily by filing actions in federal court,          including continuing to use and further develop
 which allege that defendants have violated these laws         powers authorized under the Undertaking Spam,
 and rules and seek injunctions and other relief. The          Spyware, And Fraud Enforcement With Enforcers
 FTC also conducts administrative proceedings.                 beyond Borders Act of 2006 (US SAFE WEB Act) to
                                                               achieve the objective.


          KEY MEASURE 1.2.1
     THE PERCENTAGE OF ALL CASES FILED BY THE FTC THAT WERE SUCCESSFULLY
     RESOLVED THROUGH LITIGATION, A SETTLEMENT, OR ISSUANCE OF A DEFAULT
     JUDGMENT. (OUTCOME MEASURE)

                        *Target          80.0-90.0%
       **2013                                              TARGET MET/EXCEEDED. Of the 144 cases resolved in FY
                         Actual             98.6%
                                                           2013, 142 were successfully resolved through litigation, a
                                                           settlement, or issuance of a default judgment. At the end
                        *Target          80.0-90.0%
                                                           of FY 2013, an additional 89 cases are unresolved, and
        2012                                               remained in litigation.
                         Actual            100.0%
                                                           * Targets for FY12 - FY14 were increased based on projected
                         Target          75.0-85.0%        future performance as reported in the FTC’s FY 2012 Strategic
        2011                                               Plan Addendum.
                         Actual            100.0%
                                                           ** This measure will no longer be reported after FY 2013.
                         Target          75.0-85.0%
        2010
                         Actual             99.2%



54           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                        PERFORMANCE SECTION



PERFORMANCE MEASURE 1.2.2
THE FTC’S EFFECTIVENESS IN STOPPING PROHIBITED BUSINESS PRACTICES IN THREE
HIGH PRIORITY AREAS OVER FISCAL YEARS 2009-2013. (OUTCOME MEASURE)
                    Statistically     TARGET NOT MET. The FTC’s progress on this target is described below.
                    significant
         Target   decrease in the     The three high priority areas fall under the realm of deceptive “green” marketing claims.
                   prevalence of      They are stopping false and misleading claims for: bamboo textiles, energy-efficient
                   the practices      windows, and “zero-VOC” paint. The FTC is currently conducting studies to examine the
**2013                                agency’s effectiveness in stopping such misleading advertising claims.
                     Statistically
                      significant     The first study involves websites marketing textiles as being made from bamboo, when
         Actual   decrease in one     they actually were made from rayon. The FTC reviewed websites to establish a baseline
                  of the three high   of those marketing “bamboo” textiles, charged four sellers with making false claims about
                    priority areas    their products, and then sent 78 warning letters to companies that continued making
                                      these claims. In FY 2013, the FTC filed four additional cases against national retailers,
                    Statistically     who paid a total of $1.26 million to resolve allegations they falsely advertised textiles as
         Target     significant       made from bamboo. The FTC captured another sample of websites and is in the process
                     decrease         of analyzing them to determine whether there has been a decrease in the number of
                                      misleading claims. The FTC anticipates concluding the study in FY 2014.
 2012
                     Statistically    The FTC’s second study was completed during FY 2012 and involved energy efficiency
                      significant     and cost savings claims for replacement windows. FTC staff created a baseline by
         Actual   decrease in one     identifying 29 websites that made deceptive energy and cost savings claims for
                  of the three high   replacement windows. The FTC issued complaints and entered consent orders against
                    priority areas    five of the largest firms that allegedly made these claims. FTC staff then reviewed the
                                      websites, finding 15 sellers were still making deceptive claims. The FTC issued warning
                    Statistically     letters to those marketers and FTC staff followed those letters with telephone calls. FTC
         Target     significant       staff surveyed the websites again and found that not only has there been a statistically
                     decrease         significant decrease in the prohibited practices, but the project has put an end to inflated
                                      energy and cost savings claims for replacement windows on the Internet.
 2011
                                      The FTC’s third study examines the agency’s effectiveness in stopping misleading “zero-
                      Data not        VOC” or “low-VOC” claims for paint. The FTC created a baseline by attempting to identify
         Actual                       all paint manufacturers (by searching online and reviewing industry information), and
                      available
                                      evaluating the VOC claims that were made. In FY 2013, the FTC filed lawsuits against
                                      two of the nation’s leading paint companies, alleging they made misleading zero-VOC
                                      claims. Although the claim may be true for the uncolored “base” paints, it is not true
                    Statistically     for tinted paint, which typically has much higher levels of the compounds, and which
         Target     significant       consumers usually buy. Based on these cases, the FTC issued a new enforcement policy
                     decrease         statement regarding VOC-free claims for paint. The statement provides clarification on
                                      how companies can determine if their VOC-free claims are truthful. The FTC is in the
 2010                                 process of collecting information about current VOC-free claims to evaluate the agency’s
                                      effectiveness in the marketplace, and the FTC expects to conclude the study in FY 2014.
                      Data not
         Actual                       ** This measure will no longer be reported after FY 2013.
                      available




                       FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                                55
                                                         PERFORMANCE SECTION



     PERFORMANCE MEASURE 1.2.3
     THE PERCENTAGE OF REDRESS CASES IN WHICH THE FTC DISTRIBUTES REDRESS
     DOLLARS DESIGNATED FOR DISTRIBUTION TO CONSUMERS WITHIN SIX MONTHS.
     (EFFICIENCY MEASURE)

                             Target              90.0%
        **2013                                                 TARGET MET/EXCEEDED. In FY 2013, in 18 of 19 cases, or
                             Actual              94.7%         94.7%, the FTC distributed redress dollars designated for
                                                               distribution to consumers within six months.
                             Target              90.0%
          2012                                                 ** This measure will no longer be reported after FY 2013.
                             Actual              95.0%

                             Target              90.0%
          2011
                             Actual             100.0%

                             Target              90.0%
          2010
                             Actual              96.0%




                                      FTC COLLECTS A RECORD FINE FROM A THIRD-
                                      PARTY DEBT COLLECTOR
                                      In July 2013, the world’s largest debt collection operation, Expert Global Solutions
                                      and its subsidiaries, agreed to stop harassing consumers with allegedly illegal debt
                                      collection calls and to pay a $3.2 million civil penalty – the largest ever obtained
                                      by the FTC against a third-party debt collector. The FTC alleged that the companies
                                      violated the Fair Debt Collection Practices Act and the FTC Act by using tactics such
                                      as calling consumers multiple times per day, calling even after being asked to stop,
                                      calling early in the morning or late at night, calling consumers’ workplaces despite
                                      knowing that the employers prohibited such calls, and leaving phone messages that
                                      disclosed the debtor’s name, and the existence of the debt, to third parties. Under
                                      the order, whenever a consumer disputes the validity or the amount of the debt,
                                      the defendants must either close the account and end collection efforts, or suspend
      collection until they have conducted a reasonable investigation and verified that their information about the debt is
      accurate and complete. The order also restricts situations in which the defendants can leave voicemails that disclose
      the alleged debtor’s name and the fact that he or she may owe a debt. For more information, visit: www.ftc.gov/
      opa/2013/07/nco.shtm.




56              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                  PERFORMANCE SECTION



PERFORMANCE MEASURE 1.2.4
INVESTIGATIONS OR CASES IN WHICH THE FTC OBTAINS FOREIGN-BASED
EVIDENCE OR ENGAGES IN MUTUAL ASSISTANCE THAT CONTRIBUTES TO FTC LAW
ENFORCEMENT ACTIONS OR IN WHICH WE COOPERATE WITH FOREIGN AGENCIES
AND/OR MULTILATERAL ORGANIZATIONS. (OUTPUT MEASURE)

   2015       Target         40
                                      TARGET MET/EXCEEDED. In FY 2013, the FTC cooperated
   2014       Target         40       with its foreign counterparts on consumer protection and
                                      privacy matters to obtain evidence and other assistance
                                      for the FTC’s investigations and litigation with numerous
              Target         30
                                      jurisdictions including Australia, Canada, Colombia, Chile,
   2013                               Dominican Republic, El Salvador, Israel, Italy, Jamaica,
              Actual         61       Netherlands, New Zealand, Nigeria, Philippines, Slovakia,
                                      Spain, the United Kingdom and the European Union. Foreign
              Target         30       agencies assisted the FTC in activities such as locating
                                      investigative targets and defendants, obtaining corporate
   2012                               records, obtaining witness statements, and providing
              Actual         56       investigative information. The FTC also provided assistance
                                      to numerous foreign entities. In several instances, the
              Target         30       information the FTC provided to the foreign entity resulted in
                                      a parallel proceeding or reciprocal assistance to the FTC. The
   2011
                                      FTC also engaged in mutual assistance with international
              Actual         53
                                      enforcement organizations such as the International
                                      Consumer Protection Enforcement Network, the Global
              Target         30       Privacy Enforcement Network, the London Action Plan anti-
   2010                               spam network, and the International Mass Marketing Fraud
                                      Network.
              Actual         39




                 FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                        57
                                                         PERFORMANCE SECTION



     OBJECTIVE 1.3: PREVENT CONSUMER                                FTC. The FTC will continue to publicize its consumer
     INJURY THROUGH EDUCATION.                                      complaint and identity theft website addresses and
 An educated consumer and business community is a                   toll-free numbers in an ongoing effort to increase
 first line of defense against fraud and deception.                 public awareness of its activities and inform the public
                                                                    of the ways to contact the FTC to obtain information
     OUR STRATEGY                                                   or file a complaint.

 The first line of defense against fraud, deception, and            PERFORMANCE RESULTS
 unfair practices is education. Most of the FTC’s law
 enforcement initiatives include a consumer and/or                  Consumer and business education is crucial to prevent
 business education component aimed at preventing                   and reduce consumer harm. Performance Measure
 consumer injury and unlawful business practices,                   1.3.1 ensures that the FTC continue to promote
 and mitigating financial losses. Throughout the year,              educational activity and that the educational materials
 the FTC launches various consumer and business                     are aimed at new trends and at particularly vulnerable
 education campaigns to raise awareness of new or                   populations. Key Measure 1.3.2 ensures that the
 emerging marketplace issues that have the potential                agency’s consumer education websites are effective
 to cause harm. The agency creatively uses new                      and helpful for consumers. Performance Measure 1.3.3
 technologies and private and public partnerships to                ensures that the FTC is publicizing its activities in the
 reach new and under-served audiences, particularly                 best way possible and that the agency has a wide array
 those who may not seek information directly from the               of partners to leverage resources.




                                              NATIONAL DO NOT CALL REGISTRY
                                              This year marked the 10th anniversary of the FTC’s National Do Not
                                              Call Registry, which allows consumers to opt-out of receiving certain
                                              telemarketing calls. The Registry currently includes over 223 million
                                              telephone numbers. It is fast and free to register a number and registrations
                                              never expire. Consumers can register online at www.donotcall.gov, or by
                                              calling toll-free at 888-382-1222 (TTY 866-290-4236) from the number they
                                              wish to register.

      The Do Not Call Registry remains one of the government’s most popular programs. Consumers are, however,
      understandably frustrated with the increasing number of robocalls made by scam artists. The FTC has escalated
      its campaign against these illegal robocalls on a number of fronts. The FTC led joint federal-state law enforcement
      efforts, including prosecuting operations allegedly responsible for millions of robocalls – often from “Rachel from
      Cardholder Services” – pitching phony credit card interest rate reductions and other bogus services. The FTC also
      hosted a Robocall Summit that brought together stakeholders to discuss ways to effectively trace illegal calls,
      combat caller ID spoofing, and ultimately stop the calls. In addition, the FTC challenged the public to create an
      innovative technological solution to block illegal robocalls. Out of the nearly 800 eligible submissions to the FTC’s
      Robocall Challenge, two winners tied for the $50,000 prize. Both winning proposals use technology to intercept and
      filter out “blacklisted” robocall numbers and accept “whitelisted” numbers from other callers. For more information,
      visit: www.ftc.gov/opa/2012/11/robocalls.shtm, ftc.gov/bcp/workshops/robocalls/, and www.ftc.gov/opa/2013/04/
      robocall.shtm.



58              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                  PERFORMANCE SECTION



PERFORMANCE MEASURE 1.3.1
CONSUMER PROTECTION MESSAGES ACCESSED ONLINE OR IN PRINT. (OUTPUT
MEASURE – NUMBERS SHOWN IN MILLIONS)
              Target         50.0
  **2013                              TARGET NOT MET. In FY 2013, the FTC accomplished over
              Actual         43.6     87% of its target of 50 million messages. Of the over 43.6
                                      million consumer protection messages accessed, more than
              Target         50.0
                                      30.5 million were accessed online, more than 1.3 million
   2012
              Actual         39.4     were accessed via video, and over 11.8 million were print
                                      publications distributed by the FTC. This figure does not
              Target         50.0     take into account the number of national and international
   2011                               media outlets (print, video and online that picked up and
              Actual         41.4
                                      reprinted the agency’s messages for their audiences (e.g.,
              Target         50.0     the New York Times, Yahoo.com, the Wall Street Journal, etc.).
   2010                               Of the messages accessed, free credit report information
              Actual         43.9     is the most popular. Identity theft materials continue to be
                                      popular printed titles, followed by credit and online safety
              Target         55.0
                                      and security publications.
   2009
              Actual         43.1
                                      The Division of Consumer and Business Education (DCBE)
              Target         50.0     continues to leverage its limited resources by successfully
   2008                               and effectively marketing its materials through partnerships,
              Actual         49.2
                                      and has simultaneously reduced storage and distribution
              Target         45.0     costs through trimming the catalog of titles available in print
   2007                               by over 20% in FY 2013 (49 titles withdrawn). The agency
              Actual         47.0     currently has no way to measure distribution through
                                      partners or their sites.
              Target         25.0
   2006
              Actual         53.0     ** This measure will no longer be reported after FY 2013.




                 FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                         59
                                                PERFORMANCE SECTION



          KEY MEASURE 1.3.2
     CUSTOMER SATISFACTION RATE WITH AN FTC CONSUMER EDUCATION WEBSITE OR
     MICROSITE. (OUTCOME MEASURE)
                             Exceed average citizen satisfaction
       2015        Target         rate as published in the
                              E-Government Satisfaction Index TARGET MET/EXCEEDED. In FY 2013, the FTC
                                                                 continued to evaluate www.OnGuardOnline.
                             Exceed average citizen satisfaction
                                                                 gov, a joint effort of the federal government and
       2014        Target         rate as published in the
                                                                 the technology industry, created, maintained,
                              E-Government Satisfaction Index
                                                                 and marketed by the FTC to help computer
                                                                 users guard against Internet fraud, secure
                   Target                  73.0%                 their computers, and protect their personal
                                                                 information. The average citizen satisfaction score
       2013                                                      for participating federal government websites
                                                                 was 73%, and the score for www.OnGuardOnline.
                   Actual                  80.0%
                                                                 gov was 80%. The continued measurement of the
                                                                 website over time has allowed the FTC to assess
                                                                 the effect of website improvements on customer
                   Target                  74.0%                 satisfaction.

       2012
                   Actual                 81.0%



                   Target                 74.0%

       2011
                   Actual                 81.0%



                   Target                 74.0%

       2010
                   Actual                 77.0%




60            FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                              PERFORMANCE SECTION



PERFORMANCE MEASURE 1.3.3
ORGANIZATIONS REQUESTING CONSUMER EDUCATION PUBLICATIONS. (OUTPUT
MEASURE)

                        *Target              12,300        TARGET NOT MET. In FY 2013, the FTC accomplished
   **2013                                                  approximately 91.3% of its target of 12,300 organizations. A
                        Actual               11,236        total of 14,221 customers requested consumer publications,
                                                           including 11,236 unique organizations. DCBE stopped
                                                           producing Net Cetera, which likely reduced the number
                        *Target              12,000
                                                           of customers and orders. Nonetheless, in FY 2013 the
    2012                                                   agency did see increased interest in its new publication
                        Actual               11,298        “Safeguarding Your Child’s Future,” a publication about
                                                           child identity theft. Released late in FY 2012, the FTC has
                        Target               11,300        distributed over a quarter million copies in FY 2013.
    2011                                                   * Targets for FY12 - FY14 were increased based on projected
                        Actual               14,818        future performance as reported in the FTC’s FY 2012 Strategic
                                                           Plan Addendum.
                        Target               11,000
                                                           ** This measure will no longer be reported after FY 2013.
    2010
                        Actual               15,372




                                  PROTECTING MOBILE SOFTWARE SECURITY
                                  Mobile device manufacturer HTC America agreed to settle FTC charges that the
                                  company failed to take reasonable steps to secure the software it developed for
                                  its smartphones and tablet computers, introducing security flaws that placed
                                  sensitive information about millions of consumers at risk. The FTC charged that
                                  HTC America failed to employ reasonable and appropriate security practices in
                                  the design and customization of the software on its mobile devices. Among other
                                  things, the FTC alleged that HTC America failed to provide its engineering staff
                                  with adequate security training, failed to review or test the software on its mobile
                                  devices for potential security vulnerabilities, failed to follow well-known and
                                  commonly accepted secure coding practices, and failed to establish a process for
receiving and addressing vulnerability reports from third parties. The settlement requires HTC America to develop
and release software patches to fix vulnerabilities found in millions of HTC devices. In addition, the settlement
requires HTC America to establish a comprehensive security program designed to address security risks during the
development of HTC devices and to undergo independent security assessments every other year for the next 20
years. For more information, visit: www.ftc.gov/opa/2013/02/htc.shtm.




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                61
                                                         PERFORMANCE SECTION



     OBJECTIVE 1.4: ENHANCE CONSUMER                                also files amicus briefs to aid courts’ considerations of
     PROTECTION THROUGH RESEARCH,                                   consumer protection issues.
     REPORTS, RULEMAKING, AND
     ADVOCACY.                                                      PERFORMANCE RESULTS
 Research, reports, rulemaking and advocacy                         Public policy that enhances consumer protection
 complement law enforcement and education to                        is based on a thorough understanding of complex
 enhance the welfare of consumers.                                  issues, which is obtained through dialogue, study, and
                                                                    empirical research. Such policy also recognizes that
     OUR STRATEGY                                                   stakeholders other than government, such as industry
 The FTC uses a variety of strategies in addition to                associations or private standard-setting organizations,
 law enforcement and education to enhance consumer                  are at times better positioned to address certain
 protection. The agency convenes and co-sponsors                    consumer protection issues. Performance Measures
 conferences and workshops through which experts                    1.4.1 through 1.4.3, and Key Measure 1.4.4, allow
 and other experienced and knowledgeable parties                    the agency to gauge the success of this objective and
 identify novel or challenging consumer protection                  help ensure that the agency augments its enforcement
 issues and discuss ways to address those issues.                   and education efforts. These efforts are furthered by
 The FTC also issues reports that analyze consumer                  encouraging discussions among all interested parties,
 protection problems and provide recommendations                    through careful study of and empirical research on
 to address them. Further, the FTC files comments                   novel or challenging consumer protection problems,
 with federal and state government bodies advocating                by urging adoption of policies and legal principles
 policies that promote the interests of consumers and               that promote consumers’ interest, and by conducting
 highlight the role of consumers and empirical research             rulemaking as appropriate. These activities help guide
 in their decision making. The agency testifies before              the FTC’s consumer protection policy decisions, as
 the Congress on consumer protection issues. The FTC                well as those of other state, federal, and international
                                                                    policymakers.
 .
                                       FTC FILES ITS FIRST MOBILE PHONE
                                       “CRAMMING” CASE
                                         The FTC took legal action to shut down an operation that allegedly took in millions
                                         of dollars by placing unauthorized or “crammed” charges on consumers’ mobile
                                         phone bills. The April 2013 complaint against Wise Media, LLC and its owners is the
                                         first FTC case against mobile cramming and part of the agency’s focus on consumer
                                         protection issues that may arise from the explosive growth of mobile technology.
                                         The FTC’s complaint alleged that the defendants signed consumers up for so-called
                                         “premium services” that sent text messages with horoscopes and other information,
                                         and then placed repeating charges of $9.99 per month on mobile phone bills, without
                                         consumers’ knowledge or permission. To resolve these charges, the defendants
                                         agreed to a settlement order that permanently bans them from placing any charges
                                         on consumers’ telephone bills or assisting anyone else in doing so. The settlements
      include a $10.9 million judgment, which is partially suspended due to the defendants’ inability to pay the full amount.
      For more information, visit: http://www.ftc.gov/news-events/press-releases/2013/11/mobile-crammers-settle-ftc-
      charges-unauthorized-billing.


62              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                  PERFORMANCE SECTION



PERFORMANCE MEASURE 1.4.1
WORKSHOPS AND CONFERENCES CONVENED OR COSPONSORED THAT ADDRESS
CONSUMER PROTECTION PROBLEMS. (OUTPUT MEASURE)

   2015      Target          12

   2014      *Target         12       TARGET MET/EXCEEDED. In FY 2013, the FTC exceeded
                                      its target and convened or cosponsored 12 workshops and
             *Target          8
                                      conferences that addressed consumer protection problems.
   2013
             Actual          12       These events brought together approximately 3,417
                                      participants.
             *Target          8
   2012                               * The target change from “6 workshops and conferences” to “8
             Actual          14
                                      workshops and conferences” took effect for FY 2011 reporting.
             *Target          8       The target will increase to “12 workshops and conferences”
   2011                               beginning in FY 2014.
             Actual          14

             Target           6
   2010
             Actual          11

             Target           6
   2009
             Actual           9

             Target           6
   2008
             Actual          16

             Target           6
   2007
             Actual          10

             Target          N/A
   2006
             Actual          N/A




                 FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                       63
                                         PERFORMANCE SECTION



     PERFORMANCE MEASURE 1.4.2
     ADVOCACY COMMENTS AND AMICUS BRIEFS ON CONSUMER PROTECTION ISSUES
     FILED WITH ENTITIES INCLUDING FEDERAL AND STATE LEGISLATURES, AGENCIES, OR
     COURTS. (OUTPUT MEASURE)

                    Target          6       TARGET MET/EXCEEDED. In FY 2013, the FTC filed advocacy
       **2013                               comments on consumer protection issues such as: identity
                    Actual          12      theft, product certification seals, effective approaches to
                                            financial education, attorney advertising, electric utilities,
                                            and smartphone applications for arranging passenger motor
                    Target          6       vehicle transportation services.
        2012
                    Actual          8       The agency exceeded the target for filing consumer
                                            protection-related briefs and comments in FY 2013 and
                                            FY 2012. By contrast, in FY 2011 the agency filed three
                    Target          6       consumer protection-related briefs and comments, and did
        2011                                not meet the target. These performance results illustrate
                    Actual          3       the unpredictability of the types and number of issues that
                                            might arise before state and federal government bodies and
                                            therefore the types of comments and briefs that the agency
                    Target          6
                                            might file in response.
        2010
                    Actual          6       ** This measure will no longer be reported after FY 2013.




64          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
PERFORMANCE SECTION




                         FTC HALTS TRAVEL AND
                         TIMESHARE RESALE SCAMS IN
                         MULTINATIONAL EFFORT
                         Although the economy is improving, many consumers
                         are still in tough financial straits and are desperate
                         to sell their timeshares. Con artists take advantage
                         of consumers’ situations by falsely claiming that they
                         have someone ready to buy the property and then
                         persuading consumers to pay up-front fees. The FTC
                         worked with its law enforcement partners at the federal,
                         state, local, and international level to bring 191 actions
                         to stop these scams. This concerted effort included 3
                         FTC cases, 83 civil actions brought by 28 states, and
                         25 actions brought by law enforcement agencies in
                         10 other countries. More than 184 individuals face
                         criminal prosecution by U.S. Attorneys and local law
                         enforcement. In the three FTC cases, federal courts
                         halted three operations, Resort Solution Trust, Resort
                         Property Depot, and Vacations Communications Group,
                         that took more than $18 million from consumers
                         throughout the country who were trying to sell their
                         timeshare properties. Although the defendants allegedly
                         claimed they had buyers for the properties or that the
                         timeshares would be sold in a specified time period, at
                         most, the defendants provided agreements to “advertise”
                         consumers’ timeshare units. For more information, visit:
                         www.ftc.gov/opa/2013/06/timesharerelease.shtm.




FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                        65
                                           PERFORMANCE SECTION



     PERFORMANCE MEASURE 1.4.3
     THE PERCENTAGE OF RESPONDENTS FINDING THE FTC’S ADVOCACY COMMENTS
     AND AMICUS BRIEFS “USEFUL.” (OUTCOME MEASURE)

                    *Target       75.0%
       **2013                                TARGET MET/EXCEEDED. The FTC mails advocacy
                    Actual        100.0%
                                             recipients a survey designed to gauge the usefulness of
                                             agency advocacy comments and amicus briefs. “Usefulness”
                    *Target       75.0%
                                             is assessed by the recipient. The target percentage
        2012                                 recognizes that comments critiquing a recipient’s proposed
                    Actual         N/A       action may not be assessed positively. In FY 2013, 2 of 2
                                             survey responses classified the FTC’s consumer protection
                    Target        50.0%      submissions as useful.
        2011
                    Actual        100.0%     * Targets for FY12 - FY13 were increased based on projected
                                             future performance as reported in the FTC’s FY 2012 Strategic
                    Target        50.0%      Plan Addendum.
        2010
                    Actual        100.0%     ** This measure will no longer be reported after FY 2013.




          KEY MEASURE 1.4.4
     THE PERCENTAGE OF PROPOSED ADMINISTRATIVE PROCEDURE ACT (APA)
     RULEMAKINGS, CONDUCTED SOLELY BY THE FTC, COMPLETED WITHIN NINE
     MONTHS OF RECEIPT OF FINAL COMMENTS IN THE FINAL NOTICE OF PROPOSED
     RULEMAKING. (EFFICIENCY MEASURE)
                    Target        75.0%
       **2013
                    Actual         N/A       There is no data to consider under this measure, as the FTC
                                             had no APA rulemakings to consider in FY 2013.
                    Target        75.0%
        2012
                    Actual         N/A       ** This measure will no longer be reported after FY 2013.

                    Target        75.0%
        2011
                    Actual        83.3%

                    Target        75.0%
        2010
                    Actual        100.0%




66          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                             PERFORMANCE SECTION



OBJECTIVE 1.5: PROTECT AMERICAN                           The agency also focuses on understanding cut-
CONSUMERS IN THE GLOBAL                                   ting-edge issues in technology and globalization that
MARKETPLACE BY PROVIDING SOUND                            present challenges to American consumer interests.
POLICY AND TECHNICAL INPUT                                The agency influences policy development and im-
TO FOREIGN GOVERNMENTS AND                                plementation by advising multilateral organizations,
INTERNATIONAL ORGANIZATIONS TO                            regional entities, and foreign government agencies
PROMOTE SOUND CONSUMER POLICY.                            through substantive consultations and written com-
A myriad of issues—spam, phishing, spyware,               ments. Finally, the FTC provides technical assistance
telemarketing fraud, identity theft, data security,       to newer consumer protection agencies to enhance
and privacy—cross national borders. The resulting         their ability to apply sound consumer protection pol-
challenges require the FTC to cooperate with              icies.
counterparts in foreign agencies and international
organizations.                                            PERFORMANCE RESULTS
                                                          The FTC uses two measures to assess the performance
OUR STRATEGY                                              of this objective. Key Measure 1.5.1 and Performance
To achieve this objective, the FTC pursues the            Measure 1.5.2 address the scope of agency contact
development of an international consumer protection       with international counterparts and help determine if
model that focuses on protecting consumers while          agency efforts are sufficiently broad-based.
maximizing economic benefit and consumer choice.


        KEY MEASURE 1.5.1
POLICY ADVICE PROVIDED TO FOREIGN CONSUMER PROTECTION AND PRIVACY
AGENCIES, DIRECTLY AND THROUGH INTERNATIONAL ORGANIZATIONS, THROUGH
SUBSTANTIVE CONSULTATIONS, WRITTEN SUBMISSIONS, OR COMMENTS. (OUTPUT
MEASURE)

                       *Target              60
    **2013                                            TARGET MET/EXCEEDED. In FY 2013, the FTC provided
                        Actual              61        policy advice in 61 instances, through consultations,
                                                      presentations, and written comments. New and emerging
                       *Target              60        Internet policy and consumer privacy issues are being
     2012                                             considered both by foreign agencies and by a growing
                        Actual              65        range of international organizations. This has sustained a
                                                      strong demand for the FTC’s policy advice and technical
                        Target              40        input on consumer policy and related issues.
     2011
                        Actual              52        * Targets for FY12 - FY14 were increased based on projected
                                                      future performance as reported in the FTC’s FY 2012 Strategic
                                                      Plan Addendum.
                        Target              40
     2010                                             ** This measure will no longer be reported after FY 2013.
                        Actual              64



                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                            67
                                                     PERFORMANCE SECTION



     PERFORMANCE MEASURE 1.5.2
     TECHNICAL ASSISTANCE TO FOREIGN CONSUMER PROTECTION AND PRIVACY
     AUTHORITIES. (OUTPUT MEASURE)

                             Target           8
        **2013                                             TARGET MET/EXCEEDED. In FY 2013, the FTC conducted 11
                             Actual           13
                                                           technical assistance missions and hosted two international
                                                           Fellows supporting the consumer protection mission. Three
                             Target           8
                                                           of the technical assistance missions were funded by the U.S.
          2012                                             Agency for International Development (USAID), and the
                             Actual           18           international Fellows were funded from their home agencies.

                             Target           8            ** This measure will no longer be reported after FY 2013.
          2011
                             Actual           15

                             Target           8
          2010
                             Actual           23




     RESOURCES UTILIZED—STRATEGIC GOAL 1
     (DOLLARS SHOWN IN MILLIONS.)
                                       2007         2008         2009         2010          2011         2012          2013

     Full-Time Equivalents            	570         	591       	597         	621          	633         	625         	638

     Obligations                      $	126        $	140      $	152        $	168         $	166        $	161        $	173

     Net Cost                         $	105        $	124      $	131        $	144         $	155        $	151        $	151




68              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                              PERFORMANCE SECTION



STRATEGIC GOAL 2:                                               to stop business practices that diminish competition,
                                                                such as agreements among competitors about prices or
MAINTAIN COMPETITION                                            other aspects of competition (referred to as nonmerger
                                                                enforcement). The agency applies four related
Prevent anticompetitive mergers and other                       objectives to achieve this broad-reaching goal.
anticompetitive business practices in the marketplace.
                                                                OBJECTIVE 2.1: TAKE ACTION AGAINST
                                                                ANTICOMPETITIVE MERGERS
I. STRATEGIC VIEW
                                                                AND PRACTICES THAT MAY CAUSE
A key function of the FTC is to protect and strengthen          SIGNIFICANT CONSUMER INJURY.
the free and open markets that are the cornerstone of           The FTC takes action against mergers and business
a vibrant economy. Aggressive competition among                 practices that have resulted in, or are likely to result
sellers in an open marketplace gives consumers the              in, anticompetitive effects. Agency staff conducts
benefit of lower prices, higher quality products and            thorough factual investigations and applies legal and
services, maximum choice, and innovation leading                economic analysis to distinguish between actions
to beneficial new products and services. The FTC                that threaten the operation of free markets and those
seeks to promote vigorous competition by using the              actions that are benign or procompetitive.
antitrust laws to prevent anticompetitive mergers and




                                                    PROTECTING COMPETITION IN
                                                    PHARMACEUTICAL AND LABORATORY
                                                    EQUIPMENT MERGERS
                                                    The FTC protects competition in health care-related industries
                                                    through its merger reviews which result in law enforcement
                                                    action when needed to keep prices down and quality of
                                                    choice of products and services high. For example, this year
                                                    the FTC successfully challenged the acquisition by Watson
                                                    Pharmaceuticals of Actavis and required the companies to divest
 the rights and assets pertaining to 18 drugs, and relinquish the manufacturing and marketing rights to three others.
 The divestiture protects competition in the markets for these 21 current and future generic drugs, used to treat a
 wide range of conditions, including hypertension, diabetes, attention deficit hyperactivity disorder, and certain
 heart rhythm disorders. For more information, visit: www.ftc.gov/opa/2012/10/watson.shtm.

 In a second case, the FTC required Corning, Inc. to provide assets and assistance to another life sciences company so
 that it could manufacture tissue culture treated dishes, multi-well plates, and flasks, which are used by researchers at
 pharmaceutical and biotechnology companies and universities in their cell culture research. The settlement ensures
 that competition otherwise lost through Corning’s acquisition of Becton, Dickinson and its Discovery Labware
 Division is maintained. For more information, visit: www.ftc.gov/opa/2012/10/corning.shtm.




                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                69
                                                      PERFORMANCE SECTION



     OBJECTIVE 2.2: PREVENT CONSUMER                       II. STRATEGIC ANALYSIS
     INJURY THROUGH EDUCATION.
                                                           OBJECTIVE 2.1: TAKE ACTION AGAINST
 The FTC seeks to prevent anticompetitive activity
                                                           ANTICOMPETITIVE MERGERS
 by educating businesses and consumers about
                                                           AND PRACTICES THAT MAY CAUSE
 the antitrust laws and the FTC’s efforts to ensure
                                                           SIGNIFICANT CONSUMER INJURY.
 competitive markets.
                                                           Taking action against anticompetitive mergers and
     OBJECTIVE 2.3: ENHANCE CONSUMER                       anticompetitive business conduct is the first step in
     BENEFIT THROUGH RESEARCH,                             effective antitrust enforcement.
     REPORTS, AND ADVOCACY.
 The FTC seeks to advance its mission to maintain          OUR STRATEGY
 competition and enhance consumer welfare by               The FTC seeks to identify and take action against
 gathering, analyzing, and making public certain           anticompetitive mergers and practices with as much
 information concerning the nature of competition as it    accuracy as possible. While certain business conduct
 affects U.S. commerce.                                    (such as price fixing among competitors) is clearly
     OBJECTIVE 2.4: PROTECT AMERICAN                       anticompetitive, mergers and many other forms
     CONSUMERS IN THE GLOBAL                               of business conduct can benefit, harm, or have no
     MARKETPLACE BY PROVIDING SOUND                        effect on consumers. Consequently, both under- and
     POLICY RECOMMENDATIONS AND                            over enforcement can harm consumers’ interests.
     TECHNICAL ADVICE TO FOREIGN                           The agency seeks to take enforcement action against
     GOVERNMENTS AND INTERNATIONAL                         transactions or practices that harm, or are likely to
     ORGANIZATIONS TO PROMOTE SOUND                        harm, consumers. At the same time, the agency seeks
     COMPETITION POLICY.                                   to avoid taking actions that prevent businesses from
 The FTC continues to build cooperative relationships      completing transactions or engaging in practices
 with foreign antitrust agencies to ensure close           that fundamentally benefit consumers or have no
 collaboration on cross-border cases and convergence       competitive effect. The FTC also tries to identify
 toward sound competition policies.                        enforcement targets as efficiently as possible so that
                                                           it can devote the bulk of its resources to further
                                                           investigation of, and possible challenge to, the
                                                           most problematic mergers and practices. A related
                                                           consideration is the need to conduct each inquiry in
                                                           a way that minimizes the cost or inconvenience to
                                                           businesses, while still enabling the agency to gather
                                                           sufficient information to support each enforcement
                                                           decision. In order to leverage its resources, the
                                                           FTC directs much of its attention and resources to
                                                           certain segments of the economy that are particularly
                                                           important to consumers and in which it has particular
                                                           expertise. These include health care, pharmaceuticals,
                                                           technology, energy, and real estate.




70          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                              PERFORMANCE SECTION


MERGER ACTIVITIES                                              be made about whether the merger has the potential
                                                               to be anticompetitive based on the materials filed with
The premerger notification requirements of the
                                                               the HSR Act notification. In other cases, a formal re-
Hart-Scott-Rodino (HSR) Act provide the FTC with
                                                               quest for additional information may be issued by the
an effective starting point for identifying potentially
                                                               FTC. This is referred to as a “second request.” Because
anticompetitive mergers, acquisitions, and joint ven-
                                                               the parties may consummate a transaction after sub-
tures (collectively referred to as mergers) before they
                                                               stantially complying with the second request and wait-
are consummated. The HSR Act requires companies
                                                               ing for a short time period (usually 30 days), a second
to report certain proposed mergers to the FTC and the
                                                               request investigation typically requires a significant
Department of Justice, which jointly enforce the HSR
                                                               investment of resources by the FTC. The agency must
Act, and wait for a specified period (usually 30 days)
                                                               act quickly to gather and review information to make
to allow for antitrust review. FTC staff examines each
                                                               a decision on whether to pursue enforcement action
transaction to determine whether it poses a threat to
                                                               to block a merger within the timeframe set out by the
competition. In most cases, a reasonable judgment can
                                                               HSR Act and rules.



                                                 ANOTHER VICTORY FOR THE FTC AND
                                                 CONSUMERS ON THE STATE ACTION
                                                 DOCTRINE
                                                 In May 2013, the United States Court of Appeals for the Fourth
                                                 Circuit upheld the FTC’s determination that The North Carolina
                                                 State Board of Dental Examiners (“Dental Board”) unlawfully
                                                 prohibited non-dentists from providing teeth whitening services
                                                 and was not immune from antitrust liability under the state
                                                 action doctrine.

 In 2010, the FTC issued an administrative complaint, alleging that the North Carolina Dental Board had violated
 antitrust laws by engaging in activities to prevent non-dentists from providing teeth whitening services in the
 state, including issuing “cease and desist” letters to non-dentists engaged in the practice, and discouraging some
 shopping centers from leasing space to non-dentists providing teeth-whitening services.

 After an administrative trial, the FTC ruled that the Dental Board’s conduct illegally thwarted lower-priced
 competition. The Board had claimed that it was exempt from the federal antitrust laws under the state action
 doctrine. The FTC disagreed, reasoning that because the Dental Board was controlled by practicing dentists
 and was not actively supervised by the state, the antitrust laws apply to the Dental Board’s conduct. The Fourth
 Circuit upheld that conclusion.

 FTC Chairwoman Edith Ramirez noted that the Court’s ruling was a victory for consumers, stating: “We are
 pleased that the Fourth Circuit agreed that a state regulatory board dominated by self-interested private
 actors cannot shield its anticompetitive conduct from antitrust review using the state action doctrine. This
 decision, as did the Supreme Court’s unanimous decision in FTC v. Phoebe Putney earlier this year, recognizes
 that exemptions to the antitrust laws are to be applied narrowly and that consumers are best off when there is
 vigorous competition.” For more information, visit: www.ftc.gov/opa/2013/06/ncdental.shtm.



                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                              71
                                                     PERFORMANCE SECTION


 To stop potentially anticompetitive mergers and             NONMERGER ACTIVITIES
 practices through law enforcement, the FTC seeks
                                                             In the nonmerger area, agency staff reviews complaints
 legal remedies under the antitrust laws through
                                                             received from consumers, businesses, Congressional
 federal court action, administrative proceedings,
                                                             offices, and elsewhere to identify potentially
 or negotiated settlements. For mergers, the most
                                                             anticompetitive nonmerger business practices. In
 effective and cost efficient strategy has been to prevent
                                                             addition, the FTC has pursued a “positive agenda”
 anticompetitive mergers before they occur. The agency
                                                             of planned initiatives; that is, the agency has taken a
 has implemented this strategy primarily through its
                                                             systematic and proactive approach to identify specific
 authority to seek federal court injunctions preventing
                                                             conduct likely to pose the greatest threat to consumer
 these transactions. In many cases, the merging parties
                                                             welfare. The focus continues to be on the types of
 elect not to defend a court challenge and instead
                                                             practices, such as agreements among competitors,
 agree to resolve competitive concerns through a
                                                             which are most likely to harm consumers.
 consent agreement. This approach is suitable when
 the competitive problem relates to only a portion of        In deploying its enforcement resources, the agency
 the transaction, such that a divestiture of assets will     focuses on sectors of the economy, such as health
 be sufficient to preserve or restore competition while      care, energy, real estate, or high technology, that have
 allowing other competitively neutral or beneficial          a significant impact on consumers’ daily lives. Also,
 aspects of the merger to go forward. In other instances,    the agency considers the deterrent effects of antitrust
 the parties may abandon a transaction after assessing       enforcement on businesses and whether the FTC has
 the likely outcome of an FTC court challenge.               enforcement experience in an area that will enable
                                                             the agency to make an impact quickly and efficiently.
 When a merger already has been consummated, the
                                                             Finally, consideration is given to whether the matter
 FTC generally relies on administrative litigation to
                                                             presents an opportunity to contribute positively to the
 restore competition lost as a result of the merger.
                                                             development of antitrust law.
 While the major HSR Act amendments in 2001
 reduced the number of mergers subject to the                In nonmerger matters, the FTC seeks to take action
 advance reporting requirement, they did not change          against ongoing activity that harms competition. The
 the standard of legality for mergers. Whereas the           FTC may initiate administrative proceedings before
 vast majority of potentially problematic mergers            an Administrative Law Judge to adjudicate the issues
 continue to be subject to the revised HSR filing            and establish a basis for an order that the parties “cease
 requirements, smaller merger transactions may still be      and desist” from anticompetitive conduct. The FTC
 anticompetitive. Consequently, the FTC continues to         also has the authority to seek relief in federal courts,
 devote attention to the identification of unreported,       although it historically has used this option sparingly
 usually consummated, mergers that could harm                in nonmerger matters. Again, the agency is often able
 consumers. This effort involves monitoring trade            to negotiate a consent agreement with the parties that
 press, industry sources, and the internet to stay           remedies the problem without need for litigation.
 informed of industry developments; following up on
 case leads from Congressional offices, other Executive      In both merger and nonmerger matters, thorough
 Branch agencies, and state and local governments; and       investigation and sophisticated legal and economic
 encouraging consumers, businesses, and attorneys to         analysis are of critical importance to ensure accurate
 notify the FTC of possible anticompetitive mergers.         assessment of the potential for competitive harm




72           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                               PERFORMANCE SECTION


resulting from the transaction or conduct in question        a positive result. Indeed, the existence of a minimum
and, if necessary, demonstrate the likelihood of             and maximum value recognizes the possibility that
harm before an adjudicative body. When the FTC               the FTC may find itself under- or over-enforcing
concludes that the likelihood of such harm indicates a       the competition laws, while the magnitude of the
law violation, and no settlement is possible, the FTC        spread between these two values serves to identify a
authorizes its staff to litigate the matter. The frequency   band within which the agency’s performance can be
with which the agency prevails in litigation or secures      reasonably expected to vary. From this perspective,
a consent order to restore competition is an important       setting the range at too high a level could be
indicator of its success in producing tangible benefits      detrimental if the effect were to deter the agency from
for consumers.                                               bringing important, but risky, cases, while setting the
                                                             range at too low a level could be detrimental as well,
PERFORMANCE RESULTS                                          if the effect were to incentivize the agency to bring
                                                             marginal cases.
The key performance measure under this objective
relates to actions taken in a significant percentage         Of the remaining measures under this objective, six
of substantial merger and nonmerger investigations.          relate directly to Performance Measure 2.1.1 in that
This translates into obtaining a positive result (i.e.,      they measure the impact of the agency’s actions, in
litigated victories, consent orders, or abandoned            terms of the magnitude of the affected markets and the
transactions (the latter for mergers only)) in 40 to         associated consumer benefits, as well as the efficiency
60 percent of investigations that involved a second          with which these same actions were undertaken.
request or compulsory process, in the case of merger         Whereas the consumer savings measures are designed
investigations, or which involved at least 150 hours         to assess the ultimate outcome, or impact, of the
of investigative effort, in the case of nonmerger            FTC’s actions in protecting consumers and promoting
investigations.                                              vigorous competition, by quantifying the impact of the
                                                             FTC’s enforcement actions on consumer welfare, the
Success on this key outcome measure indicates that
                                                             volume of commerce measures are intended to give an
the FTC is effectively screening HSR reported mergers
                                                             indication of the economic significance of the relevant
and nonmerger investigations to identify those that
                                                             product markets.
raise significant antitrust issues and warrant further
investigation and possible enforcement action, while         For both merger and nonmerger actions, the FTC
at the same time permitting deals or conduct that            measures the volume of commerce and estimates
are neutral or beneficial to consumers to proceed            consumer savings in markets in which it obtains a
unimpeded. This measure evaluates appropriate                positive result as an indicator of the scope of the FTC’s
investigation, case selection, and resolution, as well as    antitrust enforcement activities. External factors, such
the crafting of sufficient and effective remedies.           as level of merger activity, and internal ones, such as
                                                             the duration of nonmerger investigations, may cause
The target range of 40 to 60 percent set for key
                                                             these results to fluctuate significantly from year to
Performance Measure 2.1.1 reflects the reality that
                                                             year. Consequently, the two volume-of-commerce
the FTC conducts substantial merger and nonmerger
                                                             targets (Performance Measures 2.1.3 and 2.1.6) and the
investigations when it believes that a merger or
                                                             two consumer savings targets (Performance Measures
conduct may be anticompetitive, but that not all such
                                                             2.1.2 and 2.1.5) are assessed each year by calculating
investigations should lead to an enforcement action or




                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           73
                                                         PERFORMANCE SECTION


 the average of current year plus the previous four                The final measure under this objective addresses
 years. In addition to measuring consumer savings in               the international dimension of the agency’s law
 absolute terms, the agency uses efficiency measures               enforcement efforts by tracking the percentage of cases
 that state the FTC will try to save consumers more                in which the FTC had at least one substantive contact
 than the amount of agency resources allocated to                  with a foreign antitrust authority in which the agencies
 the merger and nonmerger programs (Performance                    followed consistent analytical approaches and reached
 Measures 2.1.4 and 2.1.7).                                        compatible outcomes.




                                      THE FTC CHALLENGES ANTICOMPETITIVE
                                      HOSPITAL MERGERS
                                      The FTC has redoubled its efforts to prevent hospital mergers that may leave
                                      insufficient local options for inpatient hospital services, leading to higher prices
                                      for health care. For example, in late 2012, the FTC challenged Reading Health
                                      System’s proposed acquisition of Surgical Institute of Reading, L.P., alleging that
                                      the combination of the two health care providers would substantially reduce
                                      competition in the Reading, Pennsylvania area and lead to reduced quality and
                                      higher health care costs for the area’s employers and residents. Shortly after the
                                      FTC filed its administrative complaint, the parties abandoned the transaction.
                                      For more information, visit: www.ftc.gov/opa/2012/11/reading.shtm.

                                        In February 2013, the United States Supreme Court unanimously ruled for the
                                        FTC in FTC v. Phoebe Putney, reviving the FTC’s administrative challenge to a
     hospital merger resulting in a monopoly for general acute-care inpatient services in the Albany, Georgia area. The
     Court held that the Georgia legislature did not articulate a clear policy that hospital authorities could eliminate
     competition through a hospital merger merely by conferring general corporate powers on the local hospital
     authority (www.ftc.gov/opa/2013/02/phoebe.shtm). The ruling has broad implications for antitrust enforcement
     because it clarifies and tightens the test for determining when state action immunity applies to anticompetitive
     actions by non-sovereign state actors.

     In August 2013, the case was settled. The proposed consent agreement includes provisions to aid competition
     in the local markets, requiring the defendants to notify the FTC of any future acquisition and prohibiting the
     defendants from opposing competing hospitals’ request for state certification to enter the local markets.
     Although divestiture is the FTC’s preferred remedy to restore competition lost due to an unlawful merger,
     divestiture was impossible in this consummated merger due to Georgia’s Certificate of Need laws. The proposed
     consent thus uses the most effective means available to address the FTC’s competitive concerns, given the
     unique circumstances presented by Georgia’s laws and regulations. For more information, visit: www.ftc.gov/
     opa/2013/06/phoebe.shtm.




74             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                   PERFORMANCE SECTION



           KEY MEASURE 2.1.1
ACTIONS TO MAINTAIN COMPETITION, INCLUDING LITIGATED VICTORIES, CONSENT
ORDERS, ABANDONED TRANSACTION REMEDIES, RESTRUCTURED TRANSACTION
REMEDIES, OR FIX-IT-FIRST TRANSACTION REMEDIES IN A SIGNIFICANT PERCENTAGE
OF SUBSTANTIAL MERGER AND NONMERGER INVESTIGATIONS. (OUTCOME MEASURE)
                                     TARGET MET/EXCEEDED. The agency took action successfully in 27 of the 64 substantial
    2015      Target      40.0–60.0% merger and nonmerger investigations that were closed in FY 2013. These 27 actions consist
                                     of 20 consent orders, 2 merger transactions that were withdrawn or restructured as a
                                     consequence of the antitrust concerns raised during the investigation, 2 cases in which the
                                     agency filed complaints and ultimately accepted consent orders to resolve the litigation, 2
    2014      Target      40.0–60.0% cases in which the agency filed complaints and the parties abandoned the transaction, and
                                     1 matter won on appeal.

                                         The 23 successful merger actions include successful second request or compulsory process
              Target     40.0–60.0%
                                         investigations in matters involving, for example, pharmaceuticals and laboratory equipment
                                         (Watson/Actavis, Actavis/Warner Chilcott, Mylan/Agila and Corning/Becton, Dickinson),
    2013
                                         hospitals and other healthcare facilities (Phoebe Putney/Palmyra, Reading Hospital/Surgical
              Actual         42.2%       Institute of Reading, Universal Health Services/Ascend Health, and Capella Healthcare/St.
                                         Joseph’s Mercy Health System), high technology (Integrated Device/PLX and Honeywell/
                                         Intermec), manufacturing (Polypore/Daramic, Magnesium Elektron/Revere Graphics, and
                                         Robert Bosch/SPX) and energy (Tesoro/Chevron Northwest Products Pipeline) mergers.
              Target     40.0–60.0%
                                    On the nonmerger side, the FTC took successfully took four actions against anticompetitive
    2012                            tactics that the FTC had reason to believe harmed consumers. In FY 2013, the FTC issued a
                                    settlement order prohibiting IDEXX (the U.S.’s largest supplier of diagnostic testing products
              Actual        43.1%
                                    used by small animal veterinarians) from maintaining concurrent exclusive distribution
                                    agreements with all three top tier distributors for the next 10 years. The FTC settled charges
                                    against eight independent nephrologists in Puerto Rico that the doctors illegally collectively
              Target     40.0–60.0% bargained with insurers and refused to treat health plan patients when the doctors’ price
                                    demands were rebuffed. In another conduct case, the FTC required Google to license on fair,
    2011                            reasonable, and non-discriminatory terms patents that it had acquired in its acquisition of
                                    Motorola Mobility. Also, in FY 2013 the FTC settled its charges that Bosley, Inc., the nation’s
              Actual       34.1%4   largest manufacturer of medical/surgical hair restoration procedures, had illegally exchanged
                                    competitively sensitive, nonpublic information about its business practices with one of
                                    its competitors, Hair Club. In ongoing litigation, the Supreme Court held in FTC v. Actavis
                                    that pay-for-delay agreements between brand and generic pharmaceutical companies are
              Target     40.0–60.0%
                                    subject to antitrust scrutiny, thus reversing a lower court’s dismissal of the FTC’s case. The
                                    matter can now proceed to trial.
    2010
              Actual        40.0%5       Of the 37 substantial investigations that were closed without an action, 24 involved a
                                         nonmerger matter and 13 a merger matter.

4
 This is a correction to results reported in the FY 2011 PAR. The results should have been based on 15 out of 44 cases, or 34%. The FY 2011
PAR reports actuals on 14 of 44 cases, or 32%.
5
 This is a correction to results reported in the FY 2010 PAR. The results should have been based on 23 out of 58 cases, or 40%. The FY 2010
PAR reports actuals on 22 of 57 cases, or 39%.


                                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                              75
                                                              PERFORMANCE SECTION



     PERFORMANCE MEASURE 2.1.2
     CONSUMER SAVINGS OF AT LEAST $500 MILLION THROUGH MERGER ACTIONS TO
     MAINTAIN COMPETITION. (OUTCOME MEASURE – NUMBERS SHOWN IN MILLIONS)

        2015                  Target                 $500.0

        2014                  Target                 $500.0          TARGET MET/EXCEEDED. In FY 2013, the FTC has saved
                                                                     consumers an estimated $564.2 million through its merger
                              Target                 $500.0
                                                                     actions to maintain competition.
        2013
                              Actual                 $564.2

                              Target                 $500.0
        2012
                              Actual                 $504.9

                              Target                 $500.0
        2011
                              Actual                $532.26

                              Target                 $500.0
        2010
                              Actual                 $586.0

                              Target                 $500.0
        2009
                              Actual                 $791.0

                              Target                 $500.0
        2008
                              Actual                 $360.0

                              Target                 $500.0
        2007
                              Actual                 $805.0

                              Target                  N/A
        2006
                              Actual                  N/A
 6
  This is a correction to results reported in the FY 2011 PAR. The results should have been based on a savings of $532.2 (million). The FY
 2011 PAR reports savings of $531.5 (million).




76             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                   PERFORMANCE SECTION



PERFORMANCE MEASURE 2.1.3
ACTIONS AGAINST MERGERS LIKELY TO HARM COMPETITION IN MARKETS WITH A
TOTAL OF AT LEAST $25 BILLION IN SALES. (OUTCOME MEASURE – NUMBERS SHOWN
IN BILLIONS)
               Target        $25.0     TARGET NOT MET. The FTC’s positive merger results affected
  **2013                               markets in which the total estimated volume of commerce
               Actual        $21.0     was approximately $21.0 billion, or 84% of the annual
                                       target. During FY 2013, the FTC obtained litigated victories,
               Target        $25.0
                                       consent orders, or the parties abandoned the transactions
   2012
               Actual        $20.2     in 14 merger matters. Specifically, one matter was won on
                                       appeal, 10 consent agreements were put in place, and three
               Target        $25.0     transactions were either abandoned or restructured based
   2011                                on the antitrust concerns raised by staff during the course
               Actual        $22.7
                                       of the investigation. In the case of consent agreements,
               Target        $25.0     the actions taken by the FTC consist primarily of structural
   2010                                remedies, accompanied in some cases by conditions
               Actual        $22.5     restricting the future conduct of the merged entity.
               Target        $25.0
                                       The agency did not meet the target in FY 2013 because
   2009
               Actual        $22.3     several significant matters are still pending before a judge,
                                       so they are excluded from this measure even though they
               Target        $25.0     represent a significant investment of agency resources.
   2008                                Specifically, the Commission issued one administrative
               Actual        $14.9
                                       complaint and filed one complaint in federal court
               Target        $25.0     challenging acquisitions that it had reason to believe were
   2007                                anticompetitive. Also, one merger case filed in a previous
               Actual        $42.6     year remains in litigation.
               Target        $40.0
   2006                                ** This measure will no longer be reported after FY 2013.
               Actual        $13.4




                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                       77
                                                               PERFORMANCE SECTION



     PERFORMANCE MEASURE 2.1.4
     CONSUMER SAVINGS OF AT LEAST 13 TIMES THE AMOUNT OF FTC RESOURCES
     ALLOCATED TO THE MERGER PROGRAM. (EFFICIENCY MEASURE)

        2015                  Target                1,300.0%

        2014                  *Target               1,300.0%         TARGET MET/EXCEEDED. During FY 2013, the agency saved
                                                                     consumers over 13 times the amount of resources devoted
                              *Target               1,300.0%         to the merger program. This result is in large part determined
        2013                                                         by the presence of several enforcement actions over the last
                              Actual                1,382.2%
                                                                     four years in the pharmaceutical industry, which involved
                              *Target               1,300.0%         significantly sized relevant product markets.
        2012
                              Actual                1,492.4%         * Targets for FY12 - FY14 were increased based on projected
                                                                     future performance as reported in the FTC’s FY 2012 Strategic
                              Target                 600.0%          Plan Addendum.
        2011
                              Actual               1,419.0%7

                              Target                 600.0%
        2010
                              Actual                1,670.0%

                              Target                 600.0%
        2009
                              Actual                2,132.0%

                              Target                 600.0%
        2008
                              Actual                1,121.0%

                              Target                 600.0%
        2007
                              Actual                2,500.0%

                              Target                   N/A
        2006
                              Actual                   N/A

   This is a correction to results reported in the FY 2011 PAR. The results should have been based on a savings of $532.2 (million), or 1,419%.
 7

 The FY 2011 PAR reports savings of $531.5 (million), or 1,417%.




78             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                   PERFORMANCE SECTION



PERFORMANCE MEASURE 2.1.5
CONSUMER SAVINGS OF AT LEAST $450 MILLION THROUGH NONMERGER ACTIONS
TAKEN TO MAINTAIN COMPETITION. (OUTCOME MEASURE – NUMBERS SHOWN IN
MILLIONS)

   2015       Target         $80.0

   2014       *Target        $440.0    TARGET NOT MET. In FY 2013, the FTC obtained estimated
                                       savings to consumers of approximately $449.8 million
              *Target        $450.0
                                       through nonmerger actions taken to maintain competition.
   2013
              Actual         $449.8
                                       In FY 2011 and FY 2010, the agency exceeded the target on
              *Target        $450.0    this measure by more than 455%, and 533% respectively. The
   2012                                reason that the agency exceeded the target by such a large
              Actual         $439.8
                                       margin is attributable to one particular case, which involved
              Target         $80.0     Intel Corporation, the world’s leading computer chip maker,
   2011                                which was charged with illegally using its dominant market
              Actual         $444.9    position for a decade to stifle competition and strengthen
                                       its monopoly. The targets for FY 2012 through FY 2014 were
              Target         $80.0
                                       modified in response to the agency greatly exceeding the
   2010
              Actual         $508.0    target due to this case. Targets for future years have been
                                       adjusted based on prior year results and expected future
              Target         $80.0     performance. The effect attributable to the Intel case in FY
   2009                                2010 will expire by FY 2015.
              Actual         $188.0

              Target         $80.0     Additionally, nonmerger/conduct cases historically take a
   2008                                longer time than merger cases to investigate and bring to
              Actual         $28.0     a final enforcement action. For example, we are currently in
                                       the midst of litigation in four nonmerger cases which did not
              Target         $80.0
   2007                                conclude in FY 2013.
              Actual         $75.0
                                       * Targets for FY12 - FY14 were increased based on projected
              Target          N/A      future performance as reported in the FTC’s FY 2012 Strategic
   2006                                Plan Addendum.
              Actual          N/A




                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                       79
                                           PERFORMANCE SECTION



     PERFORMANCE MEASURE 2.1.6
     ACTIONS AGAINST ANTICOMPETITIVE CONDUCT IN MARKETS WITH A TOTAL OF AT
     LEAST $12 BILLION IN ANNUAL SALES. (OUTCOME MEASURE – NUMBERS SHOWN IN
     BILLIONS)
                    *Target        $12.0
       **2013
                    Actual         $13.1     TARGET MET/EXCEEDED. The FTC’s positive nonmerger
                                             results affected markets in which the total estimated volume
                    *Target        $12.0
                                             of commerce was approximately $13 billion. During FY 2013,
        2012
                    Actual         $11.7     the FTC obtained litigated victories or consent orders in four
                                             nonmerger matters.
                    Target         $8.0
        2011                                 In FY 2011 and FY 2010, the agency exceeded the target on
                    Actual         $11.6
                                             this measure by more than 45% each year. As mentioned
                    Target         $8.0      under Performance Measure 2.1.5, the reason the agency
        2010                                 had exceeded the target by so wide a margin is in large
                    Actual         $11.7     part attributable to one particular case, which involved Intel
                                             Corporation. The targets for FY 2012 through FY 2014 were
                    Target         $8.0
                                             modified in response to the agency greatly exceeding the
        2009
                    Actual         $14.6     target due to this case.

                    Target         $8.0      * Targets for FY12 - FY14 were increased based on projected
        2008                                 future performance as reported in the FTC’s FY 2012 Strategic
                    Actual         $0.4
                                             Plan Addendum.
                    Target         $8.0
        2007                                 ** This measure will no longer be reported after FY 2013.
                    Actual         $2.6

                    Target         $20.0
        2006
                    Actual         $1.4




80          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                              PERFORMANCE SECTION



PERFORMANCE MEASURE 2.1.7
CONSUMER SAVINGS OF AT LEAST 20 TIMES THE AMOUNT OF FTC RESOURCES
ALLOCATED TO THE NONMERGER PROGRAM. (EFFICIENCY MEASURE)
     2015                Target             400.0%         TARGET MET/EXCEEDED. During FY 2013, the agency saved
                                                           consumers approximately 23 times the amount of resources
     2014               *Target             1,850.0%       it devoted to the nonmerger enforcement program. As
                        *Target            2,000.0%        mentioned under Performance Measure 2.1.5, the reason
     2013                                                  the agency had previously exceeded the target in FY 2011
                        Actual             2,296.0%        and FY 2010 by so wide a margin is in large part attributable
                        *Target            2,000.0%        to one particular case, which involved Intel Corporation.
     2012                                                  The targets for FY 2012 through FY 2014 were modified in
                        Actual             1,831.7%        response to the agency greatly exceeding the target due to
                        Target              400.0%         this case.
     2011
                        Actual             1,917.7%        Additionally, as mentioned in Measure 2.1.5, nonmerger/
                        Target              400.0%         conduct cases historically take a longer period of time then
     2010                                                  merger cases to investigate and bring to a final enforcement
                        Actual             2,418.0%
                                                           action. For example, we are currently in the midst of
                        Target              400.0%         litigation in four nonmerger cases which did not conclude in
     2009                                                  FY 2013.
                        Actual             1,035.0%
                        Target              400.0%         Targets for future years have been adjusted based on prior
     2008                                                  year results and expected future performance. The effect
                        Actual              164.0%
                                                           attributable to the Intel case in FY 2010 will expire by FY
                        Target              400.0%         2015.
     2007
                        Actual              424.0%
                                                           * Targets for FY12 - FY14 were increased based on projected
                        Target                N/A          future performance as reported in the FTC’s FY 2012 Strategic
     2006                                                  Plan Addendum.
                        Actual                N/A




                                                          SCRUTINIZING ENERGY MERGERS
                                                         The FTC is committed to promoting competition in the
                                                         energy sector. In June 2013, the FTC issued a consent
                                                         order resolving charges that Tesoro Corporation’s $335
                                                         million acquisition of Chevron Corporation’s Northwest
                                                         Products Pipeline system and associated terminals would
                                                         be anticompetitive, harming competition in the market for
                                                         refined light petroleum products terminaling services in the
                                                         Boise, Idaho area. Refined light petroleum products include
                                                         gasoline, diesel fuel, and jet fuel. The order required Tesoro
                                                         to sell a refined light petroleum products terminal in Boise
 to preserve competition. For more information, visit: www.ftc.gov/opa/2013/06/tesoro.shtm.



                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                81
                                           PERFORMANCE SECTION



     PERFORMANCE MEASURE 2.1.8
     THE PERCENTAGE OF CASES IN WHICH THE FTC HAD AT LEAST ONE SUBSTANTIVE
     CONTACT WITH A FOREIGN ANTITRUST AUTHORITY IN WHICH THE AGENCIES
     FOLLOWED CONSISTENT ANALYTICAL APPROACHES AND REACHED COMPATIBLE
     OUTCOMES. (OUTPUT MEASURE)

        2015         Target       95.0%
                                             TARGET MET/EXCEEDED. In FY 2013, the FTC had 24
        2014         Target       95.0%
                                             substantive contacts in 17 enforcement matters with the
                                             following counterpart agencies around the world: Australia,
                    Target        90.0%
                                             Brazil, Canada, the European Union, Germany, Mexico and
        2013                                 Russia. Those agencies reached compatible outcomes in
                    Actual        100.0%     the 9 cases that were completed within the fiscal year. While
                                             the FTC will continue to strive for 100% success, the target
                    Target        90.0%      reflects the possibility of inconsistent outcomes, particularly
        2012                                 as new antitrust agencies begin to assert their jurisdiction.
                    Actual        100%

                    Target        90.0%
        2011
                    Actual        100.0%

                    Target        90.0%
        2010
                    Actual        100.0%




82          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                             PERFORMANCE SECTION



OBJECTIVE 2.2: PREVENT CONSUMER                           As a complement to the FTC enforcement activity,
INJURY THROUGH EDUCATION.                                 the agency also advises, when asked, other federal and
In addition to its law enforcement activity, the FTC      state government officials about the possible effects
provides substantial information to the business          that various regulatory and legislative proposals
community and consumers about the role of the             may have in creating, maintaining, or forestalling
antitrust laws and businesses’ obligations under those    competitive markets. The FTC has a long and
laws.                                                     distinguished history in this area. The FTC advocates
                                                          market-based solutions through the publication of
OUR STRATEGY                                              studies and reports, and participation in state and
                                                          federal legislative and regulatory fora.
The FTC uses education and outreach to increase
business compliance, which helps prevent consumer         The agency also participates as an amicus curiae
injury, and augment its law enforcement efforts. The      (friend of the court) in judicial proceedings when
agency pursues this strategy through guidance to the      substantial questions of antitrust law or competition
business community; outreach efforts to federal, state,   policy are involved, especially when the FTC may add
and local agencies, and consumers; development and        a different perspective to the deliberations because of
publication of antitrust guidelines, policy statements,   its specialized knowledge or experience.
and reports; and speeches and testimony. By using
                                                          Finally, in an effort to continue educating consumers
these mechanisms to signal its enforcement policies
                                                          and businesses on the important role of competition in
and priorities, the FTC seeks to deter would-be
                                                          providing the most valuable and efficient mix of price,
violators of the antitrust laws. In its complaints,
                                                          choice, and innovation, the FTC continues to publish
“analyses to aid public comment,” and press releases,
                                                          reference and case-related documents. Another way
the agency explains the relevant facts and issues of
                                                          the FTC achieves this goal is to improve how topical
cases in which it files complaints or obtains consent
                                                          information, case materials, and reference documents
orders, so the nature of the competitive problems is
                                                          are organized on its web site in an effort to aid visitors
clear.
                                                          in searching for and finding relevant information and
Each successful enforcement action not only promotes      to continuously update the growing body of reference
competition in one or more relevant markets, but          material.
also serves to communicate to the business and
legal communities that the FTC can and will take          PERFORMANCE RESULTS
action to challenge similar transactions or conduct       The FTC uses one measure to assess its performance
in the future. This information facilitates antitrust     in preventing consumer injury through education.
lawyers’ counseling of their clients and prevents many    The key measure (Performance Measure 2.2.1) tracks
anticompetitive mergers from being proposed or            the volume of traffic on the FTC website on antitrust-
anticompetitive practices from being implemented.         related pages that are relevant to policymakers, the
In addition, the FTC educates the public through          business and legal communities, and the public at
guidelines, Congressional or other types of testimony,    large. This performance measure is an indicator of the
conferences, speeches, hearings, and workshops (such      flow of information provided to the public. Successful
as the workshop on patent assertion entity activities);   outreach and education efforts, as reflected by this
advisory opinions; and reports (such as the reports on    measure, will help consumers, because increased
the ethanol market).                                      knowledge and understanding of the antitrust laws


                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                            83
                                                   PERFORMANCE SECTION


 will help businesses stay in compliance. This measure       The results of this measure would seem to indicate a
 also will help ensure that the agency engages in            significant continued public interest in the FTC and
 consumer, business, and international education that        its Maintain Competition strategic goal. In addition,
 advances the culture of competition, which enhances         the broad and increasing distribution of educational
 consumer welfare.                                           and policy materials through electronic channels
                                                             represents important leveraging of the agency’s
                                                             resources.


          KEY MEASURE 2.2.1
     COMPETITION RESOURCES ACCESSED VIA THE FTC’S WEBSITE. (OUTPUT MEASURE –
     NUMBERS SHOWN IN MILLIONS)
                        *Target             24.0
       **2013
                        Actual              44.1         TARGET MET/EXCEEDED. During FY 2013, the FTC’s online
                                                         competition resources registered over 44.1 million hits.
                        *Target             24.0
                                                         These resources include pages that relate to individual
        2012
                        Actual              23.2         investigations (such as complaints, orders, comments, and
                                                         press releases), policy and research oriented content (such
                        Target              10.0         as reports, policy guides, and fact sheets, workshop or
        2011                                             conference webpages, the online competition enforcement
                        Actual              22.6
                                                         database, advocacy filings, and amicus briefs), and business
                        Target              10.0         and consumer education material. The use by the FTC of
        2010                                             social media, including Twitter and Facebook, has driven
                        Actual              21.5         more traffic than expected to certain competition related
                                                         pages, including the FTC’s early termination notices. The
                        Target              15.0
                                                         agency did not account for the rapid growth in these tools
        2009
                        Actual              11.9         when it set the target for this measure. 

                        Target              15.0         * Targets for FY12 - FY14 were increased based on projected
        2008                                             future performance as reported in the FTC’s FY 2012 Strategic
                        Actual              12.5
                                                         Plan Addendum.
                        Target              15.0
        2007                                             ** This measure will no longer be reported after FY 2013.
                        Actual              15.7

                        Target              10.0
        2006
                        Actual              10.6




84          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                             PERFORMANCE SECTION



OBJECTIVE 2.3: ENHANCE                                   expertise on competition issues, also contributes
                                                         to a better understanding of business practices and
CONSUMER BENEFIT THROUGH                                 their competitive and economic implications by
RESEARCH, REPORTS, AND                                   various entities, including the business sector, the
ADVOCACY.                                                legal community, other enforcement authorities,
                                                         the judiciary, foreign competition agencies, and
As a complement to its activities aimed at preventing
                                                         governmental decision makers and policymakers at
consumer injury through education, the FTC provides
                                                         the federal, state, and local levels. And finally, the FTC
substantial information to the business community,
                                                         files comments with federal and state government
policymakers, and consumers about the role of the
                                                         bodies advocating policies that promote the interests
antitrust laws and businesses’ obligations under those
                                                         of consumers and highlight the role of consumer and
laws.
                                                         empirical research in their decision making. The FTC
OUR STRATEGY                                             also files amicus briefs to aid courts’ considerations of
                                                         consumer protection issues.
The FTC has unique jurisdiction to gather, analyze,
and make public certain information concerning the       PERFORMANCE RESULTS
nature of competition as it affects U.S. commerce.
                                                         The key measures used to gauge the FTC’s
The FTC uses that authority to hold public hearings,
                                                         success under this objective are the ones relating
convene conferences and workshops, conduct
                                                         to conducting public hearings, conferences, and
economic studies on competition issues of significant
                                                         workshops (Performance Measure 2.3.1), issuing
public importance, and issue reports of its findings.
                                                         reports and studies on competition related issues
This authority advances the competition goal in
                                                         (Performance Measure 2.3.2), and making advocacy
numerous ways and is a fundamental component in
                                                         filings (Performance Measure 2.3.3). These measures,
the FTC’s strategy to enhance consumer welfare. The
                                                         in conjunction with Performance Measures 2.3.4,
agency uses the information it develops internally
                                                         and 2.3.5, help to ensure that the agency is engaging
to refine the theoretical framework for analyzing
                                                         in appropriate types and sufficient levels of research,
competition issues and the empirical understanding
                                                         reports, and advocacy and that they are relevant to
of industry practices, which contributes substantially
                                                         consumers, policymakers, businesses, and the legal
to an effective response to changing marketplace
                                                         community. The target for these measures sets a
conditions. The information gained through this
                                                         minimum level of activity that the agency is expected
authority, combined with the agency’s professional
                                                         to achieve.




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                            85
                                         PERFORMANCE SECTION



          KEY MEASURE 2.3.1
     WORKSHOPS, SEMINARS, CONFERENCES, AND HEARINGS CONVENED OR
     COSPONSORED THAT INVOLVE SIGNIFICANT COMPETITION-RELATED ISSUES.
     (OUTPUT MEASURE)

        2015         Target         4       TARGET MET/EXCEEDED. During FY 2013, the FTC held
                                            four competition and economics-related conferences.
        2014         Target         4       One event was the Pet Medications Workshop held in
                                            October 2012. The workshop examined competition and
                    Target          4
                                            consumer protection issues in the pet medications industry.
        2013
                    Actual          4       Workshop participants, including veterinarians, pharmacists,
                                            economists, lawyers, and others, discussed how current
                    Target          4       industry distribution and other business practices affect
        2012                                consumer choice and price competition for pet medications.
                    Actual          3

                    Target          4       Another event was a joint conference with the Department
        2011                                of Justice’s Antitrust Division held in December 2012
                    Actual          4       examining the impact of patent assertion entity activity on
                                            innovation and competition.
                    Target          4
        2010
                    Actual          6       The FTC’s Microeconomics Conference, held annually in
                                            November, brings together scholars and leaders from
                    Target          4       universities throughout the world, other government
        2009                                agencies, and other organizations to discuss antirust,
                    Actual          8
                                            consumer protection, and policy issues which FTC
                    Target          4       economists encounter in their work. The Conference
        2008                                included discussions of structural models in applied
                    Actual          5       industrial organization and the economics of hospital
                                            competition.
                    Target          4
        2007
                    Actual          7       Finally, the FTC hosted a forum on using enforceable industry
                                            codes of conduct to protect consumers in cross-border
                    Target         N/A      commerce, which included a discussion of the antitrust
        2006                                implications of such codes.
                    Actual         N/A




86          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                   PERFORMANCE SECTION



     KEY MEASURE 2.3.2
REPORTS AND STUDIES ISSUED ON KEY COMPETITION-RELATED TOPICS. (OUTPUT
MEASURE)

   2015        Target          8

   2014        Target          8       TARGET MET/EXCEEDED. During FY 2013, the FTC
                                       published working papers on how mergers affect
               Target          8
                                       competition in grocery retailing; the structural evolution of
   2013
               Actual         14       the dialysis industry with a focus on differences between
                                       for profit and nonprofit clinics; and the effect of entry on
               Target          8       generic drug prices. The FTC also published an annual report
   2012                                on concentration in the ethanol industry and the Hart-
               Actual          9
                                       Scott-Rodino Annual Report on the premerger notification
               Target          8       program and merger enforcement.
   2011
               Actual         11

               Target          8
   2010
               Actual          9

               Target          8
   2009
               Actual         20

               Target          8
   2008
               Actual          7

               Target          8
   2007
               Actual         18

               Target         N/A
   2006
               Actual         N/A




                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                       87
                                         PERFORMANCE SECTION



          KEY MEASURE 2.3.3
     ADVOCACY COMMENTS AND AMICUS BRIEFS ON COMPETITION ISSUES FILED WITH
     ENTITIES INCLUDING FEDERAL AND STATE LEGISLATURES, AGENCIES OR COURTS.
     (OUTPUT MEASURE)

                    *Target         10
                                            TARGET MET/EXCEEDED. In FY 2013, the FTC filed advocacy
       **2013                               comments and amicus briefs on competition issues such as:
                    Actual          19      pay-for-delay pharmaceutical patent settlements; standard
                                            essential patents; the regulation of certified registered
                                            nurse anesthetists and advanced practice registered nurses;
                    *Target         10      taxicab licensing; and smartphone applications for arranging
                                            passenger motor vehicle transportation services.
        2012
                    Actual          18      The target for filing competition-related briefs and
                                            comments was increased to ten in FY 2012. The agency
                                            exceeded the FY 2012 and FY 2013 targets as well. These
                                            performance results illustrate the unpredictability of the
                    Target          6
                                            types of and number of competition issues that might arise
        2011                                before federal and state government bodies and therefore
                                            the types of comments and briefs that the agency might file
                    Actual          16
                                            in response.

                                            * Targets for FY12 - FY13were increased based on projected
                    Target          6       future performance as reported in the FTC’s FY 2012 Strategic
        2010                                Plan Addendum.

                    Actual          17      ** This measure will no longer be reported after FY 2013.




88          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                              PERFORMANCE SECTION



PERFORMANCE MEASURE 2.3.4
THE PERCENTAGE OF RESPONDENTS FINDING THE FTC’S ADVOCACY COMMENTS
AND AMICUS BRIEFS “USEFUL.” (OUTCOME MEASURE)

                       *Target              75.0%
                                                          TARGET MET/EXCEEDED. The FTC mails advocacy recipients
   **2013                                                 a survey designed to gauge the usefulness of agency
                        Actual             100.0%
                                                          advocacy comments and amicus briefs. “Usefulness” is
                                                          assessed by the recipient. The target percentage recognizes
                       *Target              75.0%
                                                          that comments critiquing a recipient’s proposed action
     2012                                                 may not be assessed positively. In FY 2013, 2 of 2 survey
                        Actual              83.3%
                                                          responses classified the FTC’s competition submissions as
                                                          useful.
                        Target              50.0%
     2011                                                 * Targets for FY12 - FY13 were increased based on projected
                        Actual             100.0%         future performance as reported in the FTC’s FY 2012 Strategic
                                                          Plan Addendum.
                        Target              50.0%
     2010                                                 ** This measure will no longer be reported after FY 2013.
                        Actual             100.0%



                                                 PROMOTING COMPETITION IN
                                                 TECHNOLOGY SECTORS
                                                The FTC aims to promote competition and prevent
                                                anticompetitive business practices and mergers in technology
                                                sectors. For example, in December 2012, the FTC issued an
                                                administrative complaint seeking to stop Integrated Device
                                                Technology’s proposed acquisition of PLX Technology. The FTC
                                                alleged that the merger would have given the combined firm a
 near-monopoly in a market for integrated computer circuit switch technology, leading to higher switch prices, less
 innovation, and reduced customer service. Integrated Device Technology and PLX abandoned the transaction in
 light of the FTC’s challenge.

 In January 2013, the FTC took action to stop Google’s alleged misuse of standard essential patents (“SEPs”).
 Specifically, the FTC alleged that Google violated commitments made to certain standard setting organizations to
 license patents essential to implementing several technology standards on fair, reasonable, and non-discriminatory
 (“FRAND”) terms to any interested manufacturer. The “SEPs” at issue were held initially by Motorola Mobility and
 covered technologies essential to interoperability standards used in a variety of popular mobile devices, including
 smartphones and tablets. The FTC alleged that Motorola Mobility and then Google (after it acquired Motorola
 Mobility and its patent portfolio) refused to license the SEPs on FRAND terms after manufacturers had developed
 standard compliant products in reliance on those commitments. To settle the charges, Google agreed to offer a
 FRAND license to any company that would like to license Google’s SEPs in the future and to follow the procedures
 outlined in the FTC’s consent order to resolve any FRAND-related licensing disputes. For more information, visit:
 www.ftc.gov/opa/2013/01/google.shtm.



                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                               89
                                         PERFORMANCE SECTION



     PERFORMANCE MEASURE 2.3.5
     THE VOLUME OF TRAFFIC ON WWW.FTC.GOV RELATING TO COMPETITION
     RESEARCH, REPORTS, AND ADVOCACY. (OUTPUT MEASURE – NUMBERS SHOWN IN
     MILLIONS)
                    Target         1.7
       **2013
                    Actual         3.9      TARGET MET/EXCEEDED. This performance measure relates
                                            to the volume of traffic on the FTC’s web pages that relate
                    Target         1.7
                                            to competition research, reports, and advocacy. In FY 2013,
        2012
                    Actual         3.4      approximately 3.9 million hits met the criteria set by this
                                            measure.
                    Target         1.7
        2011                                ** This measure will no longer be reported after FY 2013.
                    Actual         1.8

                    Target         1.7
        2010
                    Actual         2.2

                    Target         1.1
        2009
                    Actual         1.6

                    Target         1.1
        2008
                    Actual         1.2

                    Target         1.1
        2007
                    Actual         1.1

                    Target         N/A
        2006
                    Actual         N/A




90          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                            PERFORMANCE SECTION



OBJECTIVE 2.4: PROTECT AMERICAN                              and policy initiatives. The FTC also pursues the
CONSUMERS IN THE GLOBAL                                      development of an international market-based
MARKETPLACE BY PROVIDING SOUND                               competition model that focuses on the maximization
POLICY RECOMMENDATIONS AND                                   of consumer benefit. The agency influences policy
TECHNICAL ADVICE TO FOREIGN                                  development and implementation by advising
GOVERNMENTS AND INTERNATIONAL                                multilateral organizations, regional entities, and
ORGANIZATIONS TO PROMOTE SOUND                               foreign government agencies through substantive
COMPETITION POLICY.                                          consultations and written comments. And finally,
The FTC seeks more effective, coordinated reviews of         the FTC provides technical assistance to newer
multijurisdictional mergers, and is working towards          competition agencies to enhance their ability to apply
achieving consistent outcomes in cases of potential          sound competition policies.
unilateral anticompetitive conduct.
                                                             PERFORMANCE RESULTS
OUR STRATEGY                                                 The FTC uses two performance measures to assess
To achieve this objective, the agency participates in        performance for this objective. Key Measure 2.4.1
multilateral competition organizations, which provides       and Performance Measure 2.4.2 address the scope of
valuable opportunities to promote international              our contact with international counterparts and help
cooperation and convergence and for competition              determine if our efforts are sufficiently broad-based.
officials to share insights on law enforcement




        KEY MEASURE 2.4.1
POLICY ADVICE PROVIDED TO FOREIGN COMPETITION AGENCIES, DIRECTLY
AND THROUGH INTERNATIONAL ORGANIZATIONS, THROUGH SUBSTANTIVE
CONSULTATIONS, WRITTEN SUBMISSIONS, OR COMMENTS. (OUTPUT MEASURE)
                       *Target             60            TARGET MET/EXCEEDED. In FY 2013, the FTC provided
    **2013                                               policy advice to foreign competition agencies in over 100
                       Actual              100           instances through consultations, written submissions, or
                                                         comments. The FTC’s policy advice remains highly regarded
                       *Target             60
                                                         and sought after by new and more experienced competition
     2012
                       Actual              146           agencies and by participants in international competition
                                                         organizations and conferences.
                       Target              40
     2011                                                * Targets for FY12 - FY14 were increased based on projected
                       Actual              112
                                                         future performance as reported in the FTC’s FY 2012 Strategic
                       Target              40            Plan Addendum.
     2010
                       Actual              76            ** This measure will no longer be reported after FY 2013.




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                               91
                                                          PERFORMANCE SECTION




                                                       PATENT ASSERTION ENTITIES
                                                        The FTC is playing a role in advancing greater understanding of the
                                                        impact of patent assertion entity (“PAE”) activity on innovation and
                                                        competition. PAE activity focuses primarily on purchasing patents
                                                        from existing owners and making money by licensing the intellectual
                                                        property to – or litigating against – manufacturers and users who
                                                        are already using the patented technology. Supporters of the PAE
                                                        business model assert that it facilitates the transfer of patent rights,
                                                        rewards inventors, and funds ongoing research and development
     efforts. Critics, however, describe adverse effects on competition and innovation, including increased costs and a lack
     of technology transfer, ultimately taxing consumers and industry.

     In December 2012, the FTC and the Antitrust Division of the United States Department of Justice held a joint
     workshop and invited written comments from the public on PAE activity. The joint PAE workshop provided a forum
     for industry participants, academics, economists, lawyers, and other interested parties to discuss the evolution of
     economic and legal analyses of PAE behavior, including patent acquisitions and licensing activity. While workshop
     panelists and commenters provided anecdotal evidence of potential harms and efficiencies of PAE activity, many
     stressed the lack of more comprehensive empirical evidence. In an attempt to collect such data, in September 2013
     the Commission invited public comment on a proposed study using its authority under Section 6(b) of the Federal
     Trade Commission Act, 15 U.S.C. § 46(b), to gather qualitative and quantitative information on PAE acquisition,
     litigation, and licensing practices. The Commission hopes to develop a fuller and more accurate picture of PAE
     activity, which it can then share with Congress, other government agencies, academics, and industry.

     A transcript of the workshop and all comments are available on the FTC website: www.ftc.gov/opp/
     workshops/pae. More information about the study is available at www.ftc.gov/opa/2013/09/paestudy.shtm.




92             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                            PERFORMANCE SECTION



PERFORMANCE MEASURE 2.4.2
TECHNICAL ASSISTANCE PROVIDED TO FOREIGN COMPETITION AUTHORITIES.
(OUTPUT MEASURE)
                        Target            10
   **2013
                        Actual            34           TARGET MET/EXCEEDED. In FY 2013, the FTC conducted 26
                                                       technical assistance missions and hosted eight international
                        Target            10           Fellows. Thirteen of the technical assistance missions
     2012                                              and two international Fellows were funded through
                        Actual            27
                                                       outside sources such as the U.S. Agency for International
                        Target            10           Development and the U.S. Trade and Development Agency.
     2011
                        Actual            27           ** This measure will no longer be reported after FY 2013.

                        Target            10
     2010
                        Actual            60




RESOURCES UTILIZED—STRATEGIC GOAL 2
(DOLLARS SHOWN IN MILLIONS.)
                                   2007         2008         2009         2010          2011         2012          2013

Full-Time Equivalents            	489          	502       	509         	512          	522         	506         	505

Obligations                      $	94          $	103      $	113        $	123         $	123        $	119        $	127

Net Cost                         $	(47)        $	2        $	68         $	43          $	43         $	33         $	41




                           FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                 93
                                                          PERFORMANCE SECTION




                                                    KEY RULING IN A “PAY-FOR-
                                                    DELAY” PHARMACEUTICAL PATENT
                                                    SETTLEMENTS CASE
                                                   One of the FTC’s top priorities is restricting anticompetitive “pay-for-
                                                   delay” patent settlements, as these agreements between branded
                                                   manufacturers and generic competitors delay the availability
                                                   of lower-cost generic drugs. In June 2013, the FTC achieved a
                                                   significant victory in the pay-for-delay battle when the United
                                                   States Supreme Court ruled in FTC v. Actavis that pay-for-delay
     settlements can violate the antitrust laws and should be subject to antitrust review. Because of the Court’s
     Actavis decision, the FTC is in a much stronger position to protect consumers from anticompetitive drug-patent
     settlements that result in higher drug costs.

     The FTC initiated the Actavis litigation in 2009, when it challenged a settlement agreement between Solvay
     Pharmaceuticals and three competing drug manufacturers seeking to offer a generic alternative. Pursuant to the
     settlement, Solvay had agreed to drop its patent infringement actions, and its would-be competitors agreed not
     to market a generic version of the drug until 2015 – 65 months after Solvay’s drug patent expired. Expressing
     concern that consumers would ultimately bear the costs of delayed generic entry, the FTC urged that the
     settlement was an unlawful restraint of trade. Both the district court and the Eleventh Circuit disagreed, but the
     Supreme Court overturned the so-called “scope of the patent” test, which some courts had adopted, and which
     had virtually immunized pay-for-delay settlements from antitrust review.

     As FTC Chairwoman Edith Ramirez said following the Court’s ruling: “The Supreme Court’s decision is a significant
     victory for American consumers, American taxpayers, and free markets. . . . With this ruling, the Court has taken a
     big step toward addressing a problem that has cost Americans $3.5 billion a year in higher drug prices.” For more
     information, visit: www.ftc.gov/opa/2013/06/actavis.shtm.




94              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                             PERFORMANCE SECTION



STRATEGIC GOAL 3:                                         OBJECTIVE 3.2: PROVIDE EFFECTIVE
                                                          INFRASTRUCTURE AND SECURITY
ADVANCE PERFORMANCE                                       MANAGEMENT.
                                                          Building, modernizing, and maintaining physical and
Advance the FTC’s Performance Through                     information technology infrastructure ensures a safe
Organizational, Individual, and Management                and secure workplace to achieve mission goals, and to
Excellence.                                               respond to and anticipate both routine and emergency
                                                          agency requirements.
I. STRATEGIC VIEW
                                                          OBJECTIVE 3.3: PROVIDE EFFECTIVE
The FTC recognizes that a strong foundation of            INFORMATION RESOURCES
organizational, individual, and management excellence     MANAGEMENT.
is a driver of mission success. The agency applies four
                                                          The FTC recognizes that sound management of
objectives to achieve this goal. The objectives align
                                                          information resources is essential to meeting its
with four key functional areas: human resources,
                                                          strategic goals.
infrastructure and security, information resources, and
finance and acquisition.                                  OBJECTIVE 3.4: PROVIDE EFFECTIVE
                                                          FINANCIAL AND ACQUISITION
OBJECTIVE 3.1: PROVIDE EFFECTIVE
                                                          MANAGEMENT.
HUMAN RESOURCES MANAGEMENT.
                                                          Effective financial and acquisition management allows
The FTC uses an integrated approach that ensures
                                                          the FTC to protect American consumers and maintain
human capital programs and policies are linked to
                                                          competition in an accountable, transparent, and
our mission, goals, and strategies, while providing
                                                          fiscally responsible manner.
for continuous improvement in efficiency and
effectiveness.                                            II. STRATEGIC ANALYSIS
                                                          OBJECTIVE 3.1: PROVIDE EFFECTIVE
                                                          HUMAN RESOURCES MANAGEMENT.
                                                          This objective aligns with the agency’s Human Capi-
                                                          tal Plan that encompasses leadership and knowledge
                                                          management, a results-oriented performance culture,
                                                          talent management, and job satisfaction.




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                       95
                                                       PERFORMANCE SECTION



     OUR STRATEGY                                              PERFORMANCE RESULTS
 The FTC recognizes that its employees are its                 Two performance measures, Performance Measure
 greatest asset and places great emphasis on the               3.1.1 and Performance Measure 3.1.2, are used to
 importance of human resources management to                   gauge achievement of this objective. These measures
 the successful accomplishment of its mission. One             are based on results from the Federal Employee
 of the key strategies used to achieve this objective          Viewpoint Survey administered by the U.S. Office of
 entails implementing programs and processes that              Personnel Management. The survey focuses on federal
 will enable the agency to recruit quickly, develop,           employees’ perceptions of critical areas of their work
 and retain a qualified, diverse workforce through             life and workforce management, and measures factors
 an integrated workforce plan. The FTC also uses               that influence whether employees want to join, stay,
 the integrated workforce plan to identify and fulfill         and help their agency meet its mission.
 current and future human resources needs to carry out
                                                               In FY 2013, the FTC had a survey response rate of
 its mission and creates an agency-wide performance
                                                               55 percent (565 of 1,022 employees responded) and,
 culture focused on individual and organizational
                                                               compared to 37 other federal agencies with over 1,000
 accountability toward the achievement of the FTC’s
                                                               employees, received first place in Results-Oriented
 programmatic goals and priorities. Finally, the agency
                                                               Performance Culture, second place in Talent Man-
 achieves this objective by providing human resources
                                                               agement, third place in Leadership and Knowledge
 management training and outreach to staff.
                                                               Management, and fourth place in Job Satisfaction. Of
 The agency continues to enhance its performance               the 84 non-demographic items on the survey, the FTC
 culture focused on accountability toward achieving the        had 52 items with high positive ratings that are con-
 FTC’s programmatic goals and priorities. In FY 2013,          sidered strengths; and two items with a negative rating
 the agency continued its efforts to help employees            that would be considered a challenge. Additionally, 63
 better understand how their work contributes to the           items were five percentage points or more above the
 organization’s ability to achieve its goals and fulfill its   government-wide average, and only one item was five
 mission through continued communication efforts               percentage points or more below the government-wide
 with both supervisors and employees. In this way, the         average.
 FTC continues to focus on functions that contribute
 toward accomplishing organizational goals and
 objectives.




96           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                    PERFORMANCE SECTION



PERFORMANCE MEASURE 3.1.1
THE EXTENT EMPLOYEES BELIEVE THEIR ORGANIZATIONAL CULTURE PROMOTES
IMPROVEMENT IN PROCESSES, PRODUCTS AND SERVICES, AND ORGANIZATIONAL
OUTCOMES. (OUTCOME MEASURE)
               Target            51.0%
  **2013                                       TARGET MET/EXCEEDED. The government-wide results
               Actual            64.0%
                                               were 51.0% and the FTC received 64.0%.
               Target            52.0%
   2012                                        Compared to 37 other departments and agencies with more
               Actual            66.0%
                                               than 1,000 full-time employees, the FTC took third place in
               Target            54.0%         Leadership and Knowledge Management and first place in
   2011
               Actual            66.0%         Results-Oriented Performance Culture.
               Target            53.0%
   2010                                        ** This measure will no longer be reported after FY 2013.
               Actual            68.0%



     KEY MEASURE 3.1.2
THE EXTENT EMPLOYEES THINK THE ORGANIZATION HAS THE TALENT NECESSARY
TO ACHIEVE ORGANIZATIONAL GOALS. (OUTCOME MEASURE)
                         Exceed the government-wide
                         results on the Federal Human
  2015     Target
                             Capital Survey’s Talent       TARGET MET/EXCEEDED. The government-
                              Management Index             wide results were 56.0% and the FTC received
                         Exceed the government-wide        69.0%.
                         results on the Federal Human
  2014     Target
                             Capital Survey’s Talent       Compared to 37 other departments and
                              Management Index             agencies with more than 1,000 full-time
                                                           employees, the FTC took second place in Talent
           Target                  56.0%                   Management.
  2013
           Actual                  69.0%

           Target                  59.0%
  2012
           Actual                  70.0%

           Target                  60.0%
  2011
           Actual                  70.0%

           Target                  60.0%
  2010
           Actual                  72.0%



                    FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           97
                                                     PERFORMANCE SECTION



     OBJECTIVE 3.2: PROVIDE EFFECTIVE                       Measuring and improving service delivery to bring
     INFRASTRUCTURE AND SECURITY                            positive business experiences and outcomes for the
     MANAGEMENT.                                            FTC is imperative. With ever-changing technology,
 Building, modernizing, and maintaining physical and        including the potential for use of cloud computing,
 information technology infrastructure ensures a safe       this must be accomplished in a growing, complex,
 and secure workplace.                                      and dynamic IT infrastructure and application
                                                            environment.
     OUR STRATEGY
                                                            PERFORMANCE RESULTS
 The FTC ensures a safe and secure workplace by
 promoting staff awareness, regularly participating         Two performance measures are used to gauge
 in Continuity of Operations Plan (COOP) testing,           achievement of this objective. First, the FTC utilizes a
 and incorporating best practices from Federal              comprehensive program comprised of tests, training,
 Emergency Management Agency (FEMA) staff.                  and exercises to validate our COOP capabilities. The
 The COOP exercises have established a viable,              annual government-wide Eagle Horizon exercise
 tested infrastructure that can provide continuation        serves to assess and validate all the components of
 of the FTC’s mission along with a safe and secure          continuity plans, policies, procedures, systems, and
 environment for all staff in the event of an emergency.    facilities used to respond to and recover from an
                                                            emergency situation and identify issues for subsequent
 Ensuring that the FTC has optimal information              improvement. An analysis of the plan and exercise is
 technology (IT) infrastructure operations and              conducted with a combination of FEMA, self and peer
 performance is key to meeting the agency’s business        review. An overall score is derived for the exercise
 goals. The ability of the agency’s Office of the Chief     using the average numeric rating for each element
 Information Officer (OCIO) to deliver value to the         of the review. The FTC’s target is based on prior
 agency is dependent upon its ability to identify and       performance and the target of 75 percent represents
 provide a host of critical services of improved quality,   management’s commitment to reaching a realistic yet
 at lower business risk, and with increased agility. To     ambitious milestone.
 this end, OCIO is working to deploy a sophisticated
 suite of infrastructure operations performance             A second Performance Measure, Key Measure 3.2.2,
 monitoring tools, technology, and processes that will      assesses performance of this objective by collecting
 help achieve the agency goals.                             and tracking the availability of key information
                                                            technology applications, systems, and components.
                                                            By tracking unplanned outage periods, the agency
                                                            monitors the reliability and availability of 31 critical
                                                            information technology services.




98           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                   PERFORMANCE SECTION



     KEY MEASURE 3.2.1
A FAVORABLE CONTINUITY OF OPERATIONS (COOP) RATING. (OUTPUT MEASURE)

   2015        Target        75.0%

   2014        Target        75.0%     TARGET MET/EXCEEDED. The FTC’s overall score of 85.0%
                                       for the Eagle Horizon 2013 Exercise reflects the strong overall
               Target        75.0%
                                       commitment and continued support of the FTC COOP.
   2013
               Actual        85.0%     Continued efforts to better define FTC’s essential functions
                                       and ensure that effective procedures are in place are
               Target        75.0%     reflected in the outstanding overall exercise score.
   2012
               Actual        90.0%

               Target        75.0%
   2011
               Actual        75.0%

               Target        75.0%
   2010
               Actual        85.0%




     KEY MEASURE 3.2.2
AVAILABILITY OF INFORMATION TECHNOLOGY SYSTEMS. (OUTCOME MEASURE)

   2015        Target        99.50%
                                       TARGET MET/EXCEEDED. The FTC’s information technology
   2014        Target        99.50%    services pool averaged 100.0% availability, exceeding the
                                       target of 99.50%. During FY 2013, the FTC completed an
               Target       99.50%     upgrade of our network storage system and other network
   2013                                hardware components. Completing these initiatives
               Actual       100.0%
                                       helped to facilitate expanding storage for the FTC’s critical
               Target       99.00%     applications and increased the level of redundancy in the
   2012                                network. To maintain this level of support, the OCIO will
               Actual       99.86%     continue to evaluate lifecycle replacement of outdated
                                       hardware and software with new components that provide
               Target       98.50%     greater availability and quicker recovery.
   2011
               Actual       99.82%
                                       Note: Results for this performance measure are presented
               Target       98.00%     to two decimals because rounding the number materially
   2010                                changes the result.
               Actual       99.77%




                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                         99
                                                       PERFORMANCE SECTION



      OBJECTIVE 3.3: PROVIDE EFFECTIVE                      website at the same time as the news releases
      INFORMATION RESOURCES                                 describing them.
      MANAGEMENT.
                                                            The FTC is in the middle of undergoing a multiyear
  The agency manages information to enable staff to         transition to managing information resources in
  make thoughtful decisions and perform their work,         electronic format as one of the best means of meeting
  to facilitate appropriate public access, and to protect   this objective. As part of this transition, the FTC
  sensitive information from inappropriate access and       conducted an agency-wide inventory of records,
  release.                                                  including major electronic systems. Based on the
                                                            inventory, the agency then developed, finalized and
      OUR STRATEGY                                          submitted to the National Archives and Records
  The FTC provides through its public website – as          Administration (NARA) a comprehensive retention
  prescribed by Section 207 of the E-Government Act         schedule that NARA approved in FY 2012. The
  and Presidential Executive Orders – public access to      schedule authorizes the FTC to create, maintain and
  electronic copies of virtually all public documents       dispose of agency records electronically. It will enable
  generated in public Commission proceedings since          the FTC to concentrate on managing information
  1996, including: administrative and federal court         rather than records schedules.
  law enforcement proceedings; rulemaking and guide
                                                            As another step in the transition, the FTC has
  development proceedings; and hearings, workshops
                                                            developed an electronic recordkeeping certification
  and conferences. These documents include all
                                                            review (ERCR) process that is being used to review
  public documents approved or authorized by the
                                                            the ability of the FTC’s information systems to house
  Commission, including: Commission Administrative
                                                            agency records with authenticity, reliability, and
  Complaints and Consent Orders; Federal Court
                                                            integrity for the mandated retention period. During
  Complaints, Consent Decrees, and other Commission
                                                            FY 2013, staff completed its review of and certified the
  filings; Congressional Testimony; Federal Register
                                                            FTC’s Sentinel Network Services, a collection of online
  Notices; Commission and Staff Reports; Competition
                                                            consumer protection services.
  Advocacy filings; and Consumer Education materials.
  These documents are typically placed on the FTC’s




100           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                            PERFORMANCE SECTION



PERFORMANCE RESULTS                                      in timely fashion facilitates public awareness of and
                                                         participation in Commission activities. Examples of
One performance measure, Performance Measure             documents approved by the Commission are Federal
3.3.1, is used to gauge success of this objective.       Register notices in rulemakings and other proceedings
This key performance measure is the percentage           that seek public comments, consent agreements,
of Commission-approved documents in the FTC’s            complaints and orders in administrative litigation, and
ongoing and newly initiated proceedings available        complaints and proposed orders in litigation in the
on www.ftc.gov within 15 days of becoming part of        federal courts.
the public record. The FTC selected this measure
because making documents available to the public




        KEY MEASURE 3.3.1
THE PERCENTAGE OF COMMISSION-APPROVED DOCUMENTS IN THE FTC’S ONGOING
AND NEWLY INITIATED PROCEEDINGS AVAILABLE VIA THE INTERNET WITHIN 15 DAYS
OF BECOMING PART OF THE PUBLIC RECORD. (OUTPUT MEASURE)
                       Target             80.0%
    **2013
                       Actual             80.6%      TARGET MET/EXCEEDED. In FY 2013, the target for this
                                                     performance measure increased to 80.0%; during that
                       Target             80.0%
                                                     period, 80.6% of documents tracked under this measure
     2012
                       Actual             80.2%      were posted to the Internet within 15 days of becoming part
                                                     of the public record. The actual performance for FY 2013 is
                       Target             75.0%      based on comprehensive counts, as it was in FY 2012.
     2011
                       Actual             82.0%
                                                     ** This measure will no longer be reported after FY 2013.
                       Target             75.0%
     2010
                       Actual             93.8%




                           FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                          101
                                                     PERFORMANCE SECTION



      OBJECTIVE 3.4: PROVIDE EFFECTIVE                       separate internal control review, and completed one
      FINANCIAL AND ACQUISITION                              prior year review. These reviews were conducted as
      MANAGEMENT.                                            part of our Internal Control Review Plan established
  Resource stewardship and financial oversight are           in FY 2010. The objective of the reviews is to assist
  fundamental to establishing the accountability and         management in identifying high-risk areas and
  transparency, which fosters organizational, individual,    implement appropriate risk management strategies
  and management excellence.                                 where necessary.

      OUR STRATEGY                                           PERFORMANCE RESULTS
  This objective promotes consistency and integrity          Three performance measures that assess internal
  throughout the organization, and ensures efficient         administrative and programmatic operations
  program delivery and effective and efficient program       and acquisition procedures are used to gauge the
  administration. Our work in this area covers a wide        achievement of this objective. Performance Measure
  range of administrative and operational efforts, such      3.4.1 tracks the independent auditor’s financial
  as formulating and executing the agency budget,            statement audit results, and Key Measure 3.4.2 tracks
  managing acquisition activities, overseeing the internal   the percentage of bureaus/offices that establish
  control program, managing accounting operations,           and maintain an effective, risk-based internal
  spearheading audit resolution, and ensuring                control environment. Strong internal controls over
  compliance with various financial management               financial and business processes are critical to the
  laws and regulations. These efforts are critical to        integrity of the data reported through the financial
  maintaining the management infrastructure needed           reporting system. Performance Measure 3.4.3
  to carry out the mission. In addition, the FTC aligns      monitors performance against the Small Business
  resources to strategic priorities and outcomes to focus    Administration’s government-wide small business
  the agency on the most important tasks and programs        procurement goals.
  and implement “best practice” acquisition and
  business process solutions to accomplish our goals.

  One of the primary strategies the agency uses under
  this objective is to enhance the internal control
  environment. During FY 2013 the FTC initiated one




102           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                   PERFORMANCE SECTION



PERFORMANCE MEASURE 3.4.1
INDEPENDENT AUDITOR’S FINANCIAL STATEMENT AUDIT RESULTS. (OUTCOME
MEASURE)
                 Unqualified opinion on the
 2015   Target
                   financial statements
                                              TARGET MET/EXCEEDED. The agency received a “clean”
                 Unqualified opinion on the
 2014   Target
                   financial statements
                                              (unqualified) opinion on its financial statements. The opinion
                                              is determined by the independent auditor’s review and tests
                 Unqualified opinion on the   of internal controls over operations and financial reporting
        Target
                   financial statements       and the auditor’s determination that the financial statements
 2013                                         and notes are fairly presented.
        Actual      Unqualified opinion

                 Unqualified opinion on the
        Target
                   financial statements
 2012
        Actual      Unqualified opinion

                 Unqualified opinion on the
        Target
                   financial statements
 2011
        Actual      Unqualified opinion

                 Unqualified opinion on the
        Target
                   financial statements
 2010
        Actual      Unqualified opinion




                   FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                              103
                                            PERFORMANCE SECTION



           KEY MEASURE 3.4.2
      THE PERCENTAGE OF BUREAUS/OFFICES THAT ESTABLISH AND MAINTAIN AN
      EFFECTIVE, RISK-BASED INTERNAL CONTROL ENVIRONMENT. (OUTCOME MEASURE)

                     Target        100.0%
                                              TARGET MET/EXCEEDED. The agency’s components
        **2013                                perform assessments of the internal controls that have been
                     Actual        100.0%
                                              placed into operation within their areas of responsibility.
                                              These assessments address the “Standards of Internal
                     Target        100.0%
                                              Control” issued by the Government Accountability Office and
         2012                                 are documented. The Financial Management Office (FMO)
                     Actual        100.0%     reviews the assessments and the Chairwoman considers
                                              these when preparing her annual Statement of Assurance.
                     Target        100.0%     These assessments submitted by the agency’s major
         2011                                 components, coupled with FMO’s review, provide the basis
                     Actual        100.0%     for the measurement of the effectiveness of the FTC’s risk-
                                              based internal control environment.
                     Target        100.0%
         2010                                 ** This measure will no longer be reported after FY 2013.
                     Actual        100.0%




      PERFORMANCE MEASURE 3.4.3
      PERFORMANCE AGAINST THE SMALL BUSINESS ADMINISTRATION’S GOVERNMENT-
      WIDE SMALL BUSINESS PROCUREMENT GOALS. (OUTCOME MEASURE)
                     Target        23.0%
        **2013                                TARGET MET/EXCEEDED. This measure encompasses
                     Actual        49.5%      contracts to organizations classified as small businesses in
                                              accordance with Federal Acquisition Regulation Part 19 Small
                     Target        23.0%
                                              Business Programs. The FY 2013 performance result reflects
         2012
                     Actual        57.7%      the agency’s full commitment to utilizing small businesses
                                              wherever possible based on the nature of the acquisition.
                     Target        23.0%      The agency has not raised the target for this performance
         2011                                 measure because the target is established nationwide by the
                     Actual        46.3%
                                              Small Business Administration.
                     Target        23.0%
         2010                                 ** This measure will no longer be reported after FY 2013.
                     Actual        58.9%




104          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
FINANCIAL
 SECTION
                                                       FINANCIAL SECTION



      MESSAGE FROM THE CHIEF                                     •	   Substantially exceeding the Small Business
                                                                      Administration’s Government-wide goal to
      FINANCIAL OFFICER                                               ensure that small businesses get their fair
                                                                      share of work with the federal government by
  I am pleased to present the Financial section of this               awarding 49.5 percent of “eligible dollars” to
  Performance and Accountability Report (PAR). This                   small businesses.
  report shows both the progress we made in Fiscal
  Year 2013 and our plans to continue improving future           •	   Continuing our record of no material
  performance. During this fiscal year, the Federal                   weaknesses, significant control deficiencies, or
  Trade Commission continued to protect consumers                     nonconformances with the Federal Managers’
  and promote competition while remaining fiscally                    Financial Integrity Act and other applicable
  responsible; FY 2013 marks the 17th consecutive                     laws and regulations.
  year that the FTC has received an unqualified (clean)        This section also includes FY 2013 financial
  opinion on our financial statements.                         information and uses our performance results to show
  Our commitment to effective financial management             how we optimized our financial resources to protect
  and to upholding high standards of accountability in         consumers and maintain competition.
  FY 2013 also included several key accomplishments:           The FTC’s Financial Management Office, and the
       •	   Returning more than more than $36 million          entire agency, are committed to exemplary financial
            directly to consumers who were victims             management and the enhancement of operational
            of fraud, following successful prosecution         efficiency through a variety of cost-saving efforts. We
            of defendants resulting in court-ordered           will continue to work to benefit American consumers
            judgments or settlements.                          through financial and performance management
                                                               excellence.
       •	   Receiving, for the sixth consecutive year, the
            association of Government Accountants’
            Certificate of Excellence in Accountability
            Reporting, awarded to agencies with the most
            transparent, innovative, and user-friendly         Steven A. Fisher
            PARs. In 2013 the agency also received a Special   Chief Financial Officer
            Recognition award for the Best Agency Head         December 16, 2013
            Message.




106              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
     FINANCIAL SECTION




FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013   107
                                  FINANCIAL SECTION




108   FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                           FINANCIAL SECTION




                                INDEPENDENT AUDITOR'S REPORT

Inspector General
Federal Trade Commission
Washington, D.C.


Report on the Financial Statements

We have audited the accompanying balance sheets of the Federal Trade Commission (FTC) as of
September 30, 2013, and the related statements of net cost, changes in net position, budgetary resources,
and custodial activity for the years then ended (collectively referred to as the financial statements), and
the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with accounting principles generally accepted in the United States of America; this includes
the design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of financial statements that are free from material misstatement, whether due to fraud or
error.

Auditor’s Responsibility

Our responsibility is to express an opinion on these financial statements based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and the Office of Management and Budget
(OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, as amended. Those
standards and OMB Bulletin No. 14-02 require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free from material misstatements.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the financial statements. The procedures selected depend on the auditor’s judgment, including the
assessment of the risks of material misstatement of the financial statements, whether due to fraud or error.
In making those risk assessments, the auditor considers internal control relevant to the entity’s preparation
and fair presentation of the financial statements in order to design audit procedures that are appropriate in
the circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.




                           1101 MERCANTILE LANE, SUITE 122 ● LARGO, MD 20774
          PHONE: (240) 770-4900 ● FAX: (301) 773-2090 ● mail@brownco-cpas.com ● www.brownco-cpas.com




                FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                  109
                                                     FINANCIAL SECTION




        Opinion on the Financial Statements

        In our opinion, the financial statements referred to above present fairly, in all material respects, the
        financial position of FTC as of September 30, 2013, and its net costs, changes in net position, budgetary
        resources, and custodial activity for the year then ended, in accordance with accounting principles
        generally accepted in the United States of America.

        Other Matters

        Required Supplementary Information
        Accounting principles generally accepted in the United States of America require that the information in
        the Management’s Discussion and Analysis (MD&A) and Required Supplementary Information (RSI)
        sections be presented to supplement the basic financial statements. Such information, although not a part
        of the basic financial statements, is required by the Federal Accounting Standards Advisory Board, who
        considers it to be an essential part of financial reporting for placing the basic financial statements in an
        appropriate operational, economic, or historical context. We have applied certain limited procedures to
        the required supplementary information in accordance with auditing standards generally accepted in the
        United States of America, which consisted of inquiries of management about the methods of preparing the
        information and comparing the information for consistency with management's responses to our inquiries,
        the basic financial statements, and other knowledge we obtained during our audit of the basic financial
        statements. We do not express an opinion or provide any assurance on the information because the limited
        procedures do not provide us with sufficient evidence to express an opinion or provide any assurance.

        Prior Year Financial Statements
        The financial statements as of and for the year ended September 30, 2012 were audited by other auditors
        whose report, dated November 12, 2012, expressed an unmodified opinion on those statements

        Report on Internal Control Over Financial Reporting

        In planning and performing our audit of the financial statements, we considered FTC’s internal control
        over financial reporting (internal control) to design audit procedures that are appropriate in the
        circumstances for the purpose of expressing an opinion on the financial statements, but not for the
        purpose of expressing an opinion on the effectiveness of FTC’s internal control. Accordingly, we do not
        express an opinion on the effectiveness of FTC’s internal control.

        A deficiency in internal control exists when the design or operation of a control does not allow
        management or employees, in the normal course of performing their assigned functions, to prevent, or
        detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or combination
        of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement
        of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
        significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
        severe than a material weakness, yet important enough to merit attention by those charged with
        governance.

        Our consideration of the internal control was for the limited purpose described in the first paragraph of
        this section and was not designed to identify all deficiencies in internal control over financial reporting
        that might be deficiencies, significant deficiencies or material weaknesses. In our fiscal year 2013 audit,
        we did not identify any deficiencies in internal control that we consider to be a material weakness.
        However, material weaknesses may exist that have not been identified.




                                                              2



110   FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                          FINANCIAL SECTION




Report on Compliance and Other Matters

As part of obtaining reasonable assurance about whether FTC’s financial statements are free from
material misstatement, we performed tests of its compliance with applicable provisions of laws,
regulations, contracts and grant agreements, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion. The results of our tests disclosed no instances of noncompliance or other matters that
are required to be reported under Government Auditing Standards or OMB Bulletin No. 14-02.


Management’s Responsibility for Internal Control and Compliance

FTC’s management is responsible for (1) evaluating effectiveness of internal control over financial
reporting based on criteria established under the Federal Managers Financial Integrity Act (FMFIA), (2)
providing a statement of assurance on the overall effectiveness of internal control over financial reporting,
and (3) ensuring compliance with other applicable laws and regulations.

Auditor’s Responsibilities

We are responsible for: (1) obtaining a sufficient understanding of internal controls over financial
reporting to plan the audit, (2) testing compliance with certain provisions of laws and regulations that
have a direct and material effect on the financial statements and applicable laws for which OMB Bulletin
14-02 requires testing, and (3) applying certain limited procedures with respect to the MD&A and other
RSI.

We did not evaluate all internal controls relevant to operating objectives as broadly established by the
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient operations.
We limited our internal control testing to testing controls over financial reporting. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or noncompliance may
nevertheless occur and not be detected. We also caution that projecting our audit results to future periods
is subject to risk that controls may become inadequate because of changes in conditions or that the degree
of compliance with controls may deteriorate. In addition, we caution that our internal control testing may
not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to FTC. We limited our tests of
compliance to certain provisions of laws and regulations that have a direct and material effect on the
financial statements and those required by OMB Bulletin 14-02 that we deemed applicable to FTC’s
financial statements for the fiscal year ended September 30, 2013. We caution that noncompliance with
laws and regulations may occur and not be detected by these tests and that such testing may not be
sufficient for other purposes.

Purpose of the Report on Internal Control over Financial Reporting and the Report on Compliance
and Other Matters

The purpose of the Report on Internal Control over Financial Reporting and the Report on Compliance
and Other Matters sections of this report is solely to describe the scope of our testing of internal control
and compliance and the result of that testing, and not to provide an opinion on the effectiveness of FTC’s
internal control or on compliance. These reports are an integral part of an audit performed in accordance




                                                     3



                FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                  111
                                                    FINANCIAL SECTION




        with Government Auditing Standards in considering FTC’s internal control and compliance.
        Accordingly, these reports are not suitable for any other purpose.

        This report is intended solely for the information and use of the management of FTC, OMB, OIG and
        Congress, and is not intended to be and should not be used by anyone other than these specified parties.



        Largo, Maryland
        December 16, 2013




                                                            4



112   FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                    FINANCIAL SECTION



PRINCIPAL FINANCIAL STATEMENTS
FINANCIAL STATEMENT DESCRIPTIONS

A brief description of the five principal financial statements presented on the following pages is provided:

  •	   Balance Sheet – Presents the combined amounts the agency had to use or distribute (assets) versus the
       amounts the agency owed (liabilities), and the difference between the two (net position).

  •	   Statement of Net Cost – Presents the annual cost of agency operations. The gross cost less any offsetting
       revenue is used to determine the net cost.

  •	   Statement of Changes in Net Position – Reports the accounting activities that caused the change in net
       position during the reporting period.

  •	   Statement of Budgetary Resources – Reports how budgetary resources were made available and the status of
       those resources at fiscal year-end.

  •	   Statement of Custodial Activity – Reports collections and their disposition by the agency on behalf of the
       Treasury General Fund and one other federal agency. The FTC acts as custodian and does not have use of
       these funds.

The accompanying notes to the financial statements describe significant accounting policies as well as detailed
information on select statement lines.




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                         113
                                                             FINANCIAL SECTION



  FEDERAL TRADE COMMISSION
  						
      BALANCE SHEET						
  AS OF SEPTEMBER 30, 2013 AND 2012						
  (Dollars shown in thousands)	 					
  					
                                                                                  2013           2012
      Assets (Note 2):
               Intragovernmental:
                         Fund balance with Treasury (Note 3)              $	206,638       $	192,786
                         Accounts receivable, net (Note 5)                	47             	995
               Total intragovernmental                                     	    206,685   	193,781
               Cash and other monetary assets (Note 4)                    	18,239         	28,360
               Accounts receivable, net (Note 5)                          	24,791         	30,991
               General property and equipment, net (Note 6)                	     22,042   	18,385
      Total Assets                                                        $	271,757       $	271,517


      Liabilities:
               Intragovernmental:
                         Accounts payable                                  $	     1,555   $	     1,030
                         Other (Note 8)                                   	2,314          	4,706
               Total intragovernmental                                     	      3,869   	      5,736
               Accounts payable                                            	      8,591   	      8,353
               Accrued consumer redress due to claimants                   	     23,693   	     27,219
               Consumer redress collections not yet disbursed             	65,848         	     84,935
               Other (Note 8)                                              	     17,265   	16,520
      Total Liabilities (Notes 7 & 8)                                      $	   119,266   $	   142,763


      Net Position (Note 1(n)):
               Unexpended appropriations                                  	           -   	          -
               Cumulative results of operations                           	152,491        	128,754
      Total Net Position                                                   $	   152,491   $	128,754
      Total Liabilities and Net Position                                   $	   271,757   $	271,517
  The accompanying notes are an integral part of these statements.						




114                  FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                          FINANCIAL SECTION



FEDERAL TRADE COMMISSION
						
STATEMENT OF NET COST					
FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012						
(Dollars shown in thousands)	 					
	

                                                                            2013            2012
    Costs by Strategic Goal:
            Strategic Goal 1: Protect Consumers:
                       Gross costs (Note 11)                    $	165,566            $	164,767
                       Less: earned revenue (Note 12)           	         (14,118)   	    (13,794)
            Net cost                                            	151,448             	150,973


            Strategic Goal 2: Maintain Competition:
                       Gross costs (Note 11)                    	122,375             	121,287
                       Less: earned revenue (Note 12)           	         (81,693)   	(87,825)
            Net cost                                            	         40,682     	33,462


    Net Cost of Operations                                      $	       192,130     $	184,435

The accompanying notes are an integral part of these statements.						




                                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                     115
                                                  FINANCIAL SECTION



  FEDERAL TRADE COMMISSION
  						
      STATEMENT OF CHANGES IN NET POSITION					
  FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012						
  (Dollars shown in thousands)	 					
  	

                                                                       2013                 2012
      Cumulative Results of Operations:
              Beginning balance                               $	   128,754          $	    93,196
      Budgetary Financing Sources:
              Appropriations used                             	    206,660      	210,267
      Other Financing Sources (Non-Exchange):
              Imputed financing                               	        9,207        	       9,726
              Total financing sources                         	    215,867          	    219,993
              Net cost of operations                          	    (192,130)        	    (184,435)
              Net change                                      	       23,737        	     35,558
      Cumulative Results of Operations                        $	   152,491      $	128,754


      Unexpended Appropriations:
              Beginning balance                               $	           -        $	          -
      Budgetary Financing Sources:
              Appropriations received                         	    216,249          	    210,267
              Other adjustments (rescissions)                 	       (9,589)                    -
              Appropriations used                             	    (206,660)        	    (210,267)
              Total budgetary financing sources               	            -        	           -
      Total Unexpended Appropriations                         	            -    	               -
      Net Position (Note 1(n))                                $	   152,491          $	   128,754

  The accompanying notes are an integral part of these statements.						




116             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                         FINANCIAL SECTION



FEDERAL TRADE COMMISSION
						
STATEMENT OF BUDGETARY RESOURCES					
FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012						
(Dollars shown in thousands)	 					
	
                                                                                                 2013          2012
    Budgetary Resources:
       Unobligated balance, brought forward, October 1                                    $	57,778      $	20,575
       Recoveries of prior year unpaid obligations                                        	    2,999    	    4,341
       Unobligated balance from prior year budget authority, net                          	   60,777    	   24,916
       Appropriations                                                                     	206,660      	210,267
       Spending authority from offsetting collections                                     	   89,420    	102,610
    Total Budgetary Resources                                                             $	 356,857    $	 337,793

    Status of Budgetary Resources:
       Obligations incurred (Note 13):                                                    $	 299,698    $	 280,015
       Unobligated balance, end of period:
            Apportioned (Note 1(q))                                                       	  52,778     	   56,434
            Unapportioned                                                                 	   4,381     	    1,344
       Total unobligated balance, end of period                                           	  57,159     	   57,778
    Total Status of Budgetary Resources                                                   $	356,857     $	 337,793

Change in Obligated Balance:
   Unpaid Obligations:
   Unpaid obligations, brought forward, October 1                                         $	79,576      $	87,672
   Obligations incurred (Note 13):                                                        	299,698      	 280,015
   Outlays, gross                                                                         	 (279,830)   	 (283,770)
   Recoveries of prior year unpaid obligations                                            	   (2,999)   	   (4,341)
   Unpaid obligations, end of period                                                      	   96,445    	   79,576

       Uncollected Payments:
       Uncollected payments from Federal sources, brought forward, October 1              	(1,098)      	(115)
       Change in uncollected payments from Federal sources, brought forward , October 1   	  (199)      	(983)
       Uncollected payments from Federal sources, end of period                           	(1,297)      	 (1,098)

       Memorandum (non-add) Entries:
       Obligated balance, start of year, net                                              	78,478       	87,557
       Obligated balance, end of period, net                                              $	 95,147     $	 78,478

    Budget Authority and Outlays, Net:
      Budget authority, gross                                                             $	 302,530    $	 312,877
      Actual offsetting collections                                                       	(95,671)     	 (101,627)
      Change in uncollected customer payments from Federal sources                        	     (199)   	     (983)
      Budget authority, net                                                               $	 206,660    $	 210,267

       Outlays, gross                                                                     $	 279,830    $	 283,770
       Actual offsetting collections                                                      	  (95,671)   	 (101,627)
       Outlays, net                                                                       	 184,159     	 182,143
       Distributed offsetting receipts                                                    	  (14,645)   	(15,478)
       Agency outlays, net                                                                $	 169,514    $	 166,665
The accompanying notes are an integral part of these statements.						


                                 FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                       117
                                                       FINANCIAL SECTION



  FEDERAL TRADE COMMISSION
  						
      STATEMENT OF CUSTODIAL ACTIVITY					
  FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012						
  (Dollars shown in thousands)	 					
  	
                                                              Protect   Maintain
                                                           Consumers Competition               2013             2012
      Revenue Activity (Note 16):

          Sources of collections:

              Premerger filing fees (net of refunds)       $	        -     $	 81,202     $	 81,202          $	 87,544

              Civil penalties and fines                    	    42,545     	         -   	    42,545     	      6,602

              Consumer redress (Note 17)                   	    14,518     	         -   	    14,518     	     15,261

              Other miscellaneous receipts                 	      127      	         -   	      127      	       217

          Total cash collections                           	57,190              81,202   	 138,392       	 109,624

          Accrual adjustments                              	    (2,675)   	          -   	    (2,675)    	      3,634

      Total Custodial Revenue                              $	54,515        $	 81,202     $	 135,717      $	 113,258



      Disposition of Collections (Note 16):

          Transferred to others:

              Treasury general fund                        $	 57,190       $	        -   $	 57,190       $	 22,080

              Department of Justice                        	         -     	    81,202   	    81,202    	      87,544

          Increase/(decrease) in amounts yet to be         	    (2,675)    	         -   	    (2,675)    	      3,634
          transferred
      Total Disposition of Collections                     $	54,515        $	 81,202     $	 135,717      $	 113,258

      Net Custodial Activity                               $	        -     $	        -   $	        -    $	          -

  The accompanying notes are an integral part of these statements.						




118              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                     FINANCIAL SECTION



Notes to the Financial                                      (b) FUND ACCOUNTING STRUCTURE
                                                            The FTC ’s financial activities are accounted for using
Statements                                                  various funds in the Treasury. These are identified by
                                                            Treasury Account Symbols (TAS) described below:
NOTE 1—SUMMARY OF SIGNIFICANT
ACCOUNTING POLICIES                                         GENERAL FUND

                                                            TAS 29X0100 consists of a salaries and expense
(a) REPORTING ENTITY
                                                            appropriation used to fund agency operations and
The Federal Trade Commission (FTC) is an                    capital expenditures. Offsetting collections received
independent agency of the U.S. Government,                  during the year are also recorded in the general fund.
established by the Federal Trade Commission Act of          (See Note 12, Exchange Revenues.)
1914. The FTC enforces a variety of federal antitrust
and consumer protection laws. Its mission is to             DEPOSIT FUND
prevent business practices that are anticompetitive
                                                            TAS 29X6013 consists of monies collected for the
or deceptive or unfair to consumers; to enhance
                                                            consumer redress program and held temporarily by
informed consumer choice and public understanding
                                                            the FTC until money is disbursed to consumers or
of the competitive process; and to accomplish this
                                                            transferred to the general fund of the Treasury. (See
without unduly burdening legitimate business activity.
                                                            Note 3, Fund Balance with Treasury and Note 17,
The FTC is headed by five Commissioners, nominated
                                                            Consumer Redress Activities)
by the President and confirmed by the Senate, each
serving a seven-year term. The President chooses one        CLEARING/SUSPENSE FUND
Commissioner to act as Chairman.
                                                            TAS 29F3875 consists of premerger filing fees
The FTC carries out its mission of protecting               collected by the FTC under the Hart-Scott-Rodino
consumers and maintaining competition through               (HSR) Antitrust Improvement Act of 1976 that are
three bureaus: The Bureau of Consumer Protection            distributed equally to the FTC as a funding source and
(BCP), the Bureau of Competition (BC), and the              to the Department of Justice (DOJ). (See Note 1(o),
Bureau of Economics (BE). Additionally, various             Revenues and Other Financing Sources).
offices within FTC provide mission support to the
bureaus. The FTC’s staff is located in Washington DC        RECEIPT ACCOUNTS
and seven geographic areas.
                                                            TAS 29 1040 is used to account for the collection and
The financial statements and notes include the              accrual of civil penalties imposed in court actions
financial activity recorded in all of the funds under the   for violations of antitrust acts and FTC orders. Cash
FTC’s control. As further described in Note 1(b), these     balances remaining in the fund at the end of each
funds include appropriations received for salaries and      fiscal year are transferred to the general fund of the
necessary expenses, as well as non-entity funds that        Treasury.
are primarily comprised of proceeds derived from
                                                            TAS 29 3220 is used to account for miscellaneous
court ordered judgments and settlements held for
                                                            receipts that by law are not retained by FTC and for
subsequent distribution to approved claimants.
                                                            collections in connection with the consumer redress
                                                            program that are disgorged to the Treasury. Cash


                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           119
                                                       FINANCIAL SECTION


  balances remaining in this fund at the end of each         Assets, liabilities, revenues and costs are classified
  fiscal year are transferred to the general fund of the     in these financial statements according to the type
  Treasury.                                                  of entity associated with the transactions. Balances
                                                             classified as intragovernmental arise from transactions
  (c) BASIS OF PRESENTATION AND                              with other Federal entities. Balances not classified
  ACCOUNTING                                                 as intragovernmental arise from transactions with
  The accompanying financial statements present the          individuals or organizations outside of the Federal
  financial position, net cost of operations, changes        Government (i.e., with the Public).
  in net position, budgetary resources, and custodial
  activities of the FTC. They have been prepared from        The FTC presents net cost of operations by its two
  the accounting records of the FTC. These financial         major strategic goals: protect consumers and maintain
  statements may differ from other financial reports         competition. These goals are described in the agency’s
  submitted pursuant to the Office of Management             strategic and performance plan and align with the
  and Budget (OMB) directives for the purpose of             agency’s major programs.
  monitoring and controlling the use of the FTC’s
                                                             (d) USE OF ESTIMATES
  budgetary resources.
                                                             The preparation of financial statements in conformity
  The FTC’s financial statements are prepared in             with GAAP requires management to make estimates
  conformity with generally accepted accounting              and assumptions that affect the reported amounts
  principles (GAAP) for Federal entities and with OMB        of assets and liabilities at the date of the financial
  Circular A-136, Financial Reporting Requirements           statements and the reported amounts of revenues and
  (as revised October 2013). Accordingly, revenues are       expenses during the reporting period. Actual results
  recognized when earned and expenses are recognized         could differ from those estimates.
  when incurred, without regard to the receipt or
  payment of cash. These principles differ from              (e) BUDGET AUTHORITY
  budgetary reporting principles. The differences relate     The Congress passes appropriations annually that
  primarily to the capitalization and depreciation of        provide the FTC with authority to obligate funds
  property and equipment, as well as the recognition of      for necessary expenses to carry out mandated
  other long-term assets and liabilities.                    program activities. These funds are available until
                                                             expended, subject to the OMB apportionment and
  As described in Note 1(b), the FTC maintains a single      to Congressional restrictions on the expenditure of
  fund to account for salaries and all necessary expenses.   funds. In addition, the FTC places internal restrictions
  Further, there are limited intra-entity transactions       on fund expenditures to ensure the efficient and
  with any other fund (e.g., deposit fund) that would        proper use of all funds. The FTC’s budget authority
  require eliminating entries to present consolidated        is derived from a direct appropriation and offsetting
  statements. Accordingly, the statements are not            collections. FTC accounts for budget authority in its
  labeled consolidated nor is the Statement of Budgetary     general fund (29X0100), as reflected in the Statement
  Resources (SBR) presented as combined.                     of Budgetary Resources.




120           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                    FINANCIAL SECTION



(f ) ENTITY/NON-ENTITY ASSETS                               entity accounts receivable are included in the financial
The FTC includes both entity and non-entity assets          statements along with an offsetting non-entity liability.
in these financial statements. Assets that an agency        Entity accounts receivable consist of amounts due
is authorized to use in its operations are entity assets.   from other federal entities and from current and
Assets that an agency holds on behalf of another            former employees and vendors. Gross receivables
federal agency or a third party and are not available for   are reduced to net realizable value by an allowance
the agency’s use are non-entity assets.                     for uncollectible accounts. (See Note 5, Accounts
                                                            Receivable, Net.)
(g) FUND BALANCE WITH TREASURY
                                                            (j) ACCRUED LIABILITIES AND ACCOUNTS
The FTC’s Fund Balance with Treasury (FBWT)                 PAYABLE
includes undisbursed appropriated funds, deposit
                                                            Accrued liabilities and accounts payable represent a
funds awaiting subsequent disbursement to claimants,
                                                            probable future outflow or other sacrifice of resources
and premerger filing fees that are to be distributed
                                                            as a result of past transactions or events. Liabilities
evenly between the DOJ and the FTC general fund.
                                                            are recognized when they are incurred, regardless
Funds are carried forward until such time as goods
                                                            of whether they are covered by budgetary resources.
or services are received and/or payment is made. All
                                                            Liabilities cannot be liquidated without legislation
cash receipts are deposited with the Treasury and all
                                                            that provides the resources to do so. In addition, the
payments are disbursed by the Treasury.
                                                            government, acting in its sovereign capacity, can
(h) CASH AND OTHER MONETARY ASSETS                          abrogate the FTC liabilities (other than contracts).
                                                            (See Note 7, Liabilities Not Covered by Budgetary
In connection with the consumer redress program,
                                                            Resources and Note 8, Other Liabilities.)
as described in Note 17, amounts necessary to cover
current disbursement schedules are held as cash at          (k) EMPLOYEE HEALTH BENEFITS AND
financial institutions in interest bearing accounts.        LIFE INSURANCE
Upon approval by FTC’s Redress Administration
                                                            FTC employees are eligible to participate in the
Office, consumer redress agents process claims and
                                                            contributory Federal Employees’ Health Benefit
disburse redress proceeds to approved claimants.
                                                            Program (FEHBP) and the Federal Employees’ Group
These funds are considered non-entity assets and are
                                                            Life Insurance Program (FEGLIP) administered by the
reported in the FTC’s financial records along with an
                                                            Office of Personnel Management (OPM). The FTC
offsetting non-entity liability.
                                                            contributes a percentage to each program to pay for
(i) ACCOUNTS RECEIVABLE, NET                                current benefits.

The bulk of FTC’s accounts receivable are non-entity        (l) EMPLOYEE RETIREMENT BENEFITS
accounts receivable arising from the settlement or
                                                            FTC’s employees participate in either the Civil Service
litigation of both administrative and federal court
                                                            Retirement System (CSRS) or the Federal Employees’
cases in connection with the consumer redress
                                                            Retirement System (FERS) administered by OPM.
program. Non-entity accounts receivable also include
                                                            Employees hired after December 31, 1983, are
uncollected civil monetary penalties imposed as a
                                                            covered by FERS and Social Security, while employees
result of the FTC’s enforcement activities. These non-




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                             121
                                                      FINANCIAL SECTION


  hired prior to January 1, 1984 were allowed to elect       covered employees were 32.3 percent and 29.8 percent
  joining FERS or remaining in CSRS. For employees           of basic pay, respectively. For the same years, the cost
  participating in CSRS, the FTC contributes seven           factors for FERS covered employees were 14.2 percent
  percent of the employee’s basic pay to the Civil Service   and 13.7 percent. The FTC recognizes the excess of
  Retirement and Disability Fund. For employees              the true service cost over amounts contributed as
  participating in FERS, the FTC contributes 11.9            an imputed cost. This additional cost is financed by
  percent to the Federal Employees’ Retirement Fund.         OPM, and recognized as an imputed financing source
  In addition, the FTC contributes the employer’s            by FTC.
  matching share to the Social Security Administration
  under the Federal Insurance Contributions Act,             (m) OTHER POST-EMPLOYMENT
  which fully covers FERS participating employees. FTC       BENEFITS
  contributions are recognized as current operating          FTC employees eligible to participate in the FEHBP
  expenses.                                                  and the FEGLIP may continue to participate in these
                                                             programs after their retirement. The FTC recognizes
  The Thrift Savings Plan (TSP) is a defined                 a current cost of providing post-retirement benefits
  contribution retirement savings and investment             using cost factors provided by OPM that estimate
  plan for employees covered by either CSRS or FERS.         the true cost of providing these benefit to current
  Participating employees may contribute any dollar          employees. During fiscal years ended 2013 and 2012,
  amount or percentage of basic salary to the TSP, not to    the cost factors relating to FEHBP were $5,190 and
  exceed an annual dollar amount of $17,500 for 2013.        $5,817, respectively, per employee enrolled. For the
  For those employees participating in FERS, the FTC         same years, the cost factor relating to FEGLIP was 0.02
  makes a mandatory 1 percent contribution to this           percent of basic pay per employee enrolled. The cost of
  plan and in addition, matches 100 percent of the first     providing post-retirement benefits for the FEHBP and
  three percent contributed and 50 percent of the next       FEGLIP is financed by OPM, and recognized as an
  two percent. CSRS participating employees do not           imputed financing source by FTC.
  receive a matching contribution from the FTC. FTC
  contributions to the TSP are recognized as current         (n) NET POSITION
  operating expenses.                                        Cumulative results of operations represent the net
                                                             results of operations since inception, the cumulative
  The FTC does not report CSRS and FERS assets,
                                                             amount of prior period adjustments, the remaining
  accumulated plan benefits, or unfunded liabilities,
                                                             book value of capitalized assets, and future funding
  if any, applicable to its employees. OPM reports this
                                                             requirements.
  information. However, the FTC recognizes the full
  cost of providing future pension benefits to covered       The portion of the FTC’s budget authority that is
  employees at the time the employees’ services are          funded by a direct appropriation is fully expended
  rendered using cost factors provided by OPM that           during the year. Therefore, there is no unexpended
  estimate the true service cost of providing the pension    appropriation balance in net position at the end of the
  benefits. During fiscal years 2013 and 2012, the cost      year. (See Statement of Changes in Net Position.)
  factors used to arrive at the service cost for CSRS




122           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                  FINANCIAL SECTION



(o) REVENUES AND OTHER FINANCING                         (p) METHODOLOGY FOR ASSIGNING
SOURCES                                                  COSTS AND EXCHANGE REVENUES
The FTC’s revenues and other financing sources           The FTC allocates costs and exchange revenues, on the
are derived from exchange revenue collections (see       Statement of Net Cost to its two major strategic goals:
Note 12, Exchange Revenues) and from a direct            protect consumers and maintain competition. Costs
appropriation. Exchange revenues consist of premerger    and exchange revenues that are identified specifically
filing fees under the authority of the HSR Act, fees     with each of these two strategic goals are charged or
related to the Do-Not-Call (DNC) Implementation          credited directly. Costs not directly attributable to
Act, and amounts received for services performed         these two goals, including costs related to FTC’s third
under reimbursable agreements with other federal         goal, Advance Performance, are allocated based on the
agencies. The FTC receives an annual Salaries and        percentage of direct fulltime equivalents used by each
Expense appropriation from the general fund of the       of these two goals.
Treasury to support its operations. The appropriation
represented approximately 58 percent of total            (q) UNOBLIGATED BALANCE
budgetary resources in fiscal year 2013 and 62 percent   The amount reported on the Statement of Budgetary
in fiscal year 2012.                                     Resources as Unobligated balance, end of period,
                                                         Apportioned for fiscal year 2013 includes $32.9
                                                         million that was designated to fund costs associated
                                                         with replacing leases for office space located at
                                                         601 New Jersey Avenue and 1800 M Street and for
                                                         relocating affected staff into a new single facility.
                                                         Current plans call for these funds to be obligated in
                                                         fiscal year 2014 with the anticipated occupancy of the
                                                         FTC’s new leased space in fiscal year 2014.




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                         123
                                                            FINANCIAL SECTION



      NOTE 2—ENTITY AND NON-ENTITY ASSETS                        FTC’s non-entity assets are comprised of fund balances
  FTC’s entity assets are comprised of fund balances             with Treasury, cash and other monetary assets, and
  with Treasury; accounts receivable; and property and           accounts receivable. The fund balances with Treasury
  equipment. The fund balances with Treasury consist             consist of deposits held for the consumer redress
  of undisbursed funds in the FTC general fund and               program and undisbursed premerger filing fees. Cash
  an amount in the clearing/suspense fund payable                and other Monetary Assets consist of amounts on
  to the FTC general fund. Entity accounts receivable            deposit for the consumer redress program in financial
  are comprised of amounts due from other federal                institutions. Accounts receivable consist of amounts
  agencies, current and former employees, and vendors.           due from consumer redress judgments and civil
                                                                 penalties.
  At September 30, 2013, FTC entity and non-entity assets consisted of the following (in thousands):
                                                                     2013            2013                   2013
                                                                     Entity        Non-Entity               Total
      Intragovernmental:
        Fund balance with Treasury:
          FTC funds                                             $	       158,756   $	            -     $	      158,756
          Deposit funds - consumer redress                      	-                 	47,609             	47,609
          Clearing/Suspense funds - premerger filing fees       	137               	136                	273
        Accounts receivable, net                                	47                	-                  	47
      Subtotal intragovernmental assets                         	158,940           	47,745             	206,685
        Cash and other monetary assets                          	-                 	18,239             	18,239
        Accounts receivable, net                                	48                	24,743             	24,791
        Property and equipment, net                             	22,042            	-                  	22,042
      Total Assets                                              $	       181,030   $	      90,727      $	      271,757

  At September 30, 2012, FTC entity and non-entity assets consisted of the following (in thousands):
                                                                     2012            2012                   2012
                                                                     Entity        Non-Entity               Total
      Intragovernmental:
        Fund balance with Treasury:
          FTC funds                                             $	       136,211   $	            -     $	      136,211
          Deposit funds - consumer redress                      	-                 	56,575             	56,575
        Accounts receivable, net                                	995               	-                  	995
      Subtotal intragovernmental assets                         	137,206           	56,575             	193,781
        Cash and other monetary assets                          	-                 	28,360             	28,360
        Accounts receivable, net                                	47                	30,944             	30,991
        Property and equipment, net                             	18,385            	-                  	18,385
      Total Assets                                              $	       155,638   $	     115,879      $	      271,517




124              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                      FINANCIAL SECTION



NOTE 3—FUND BALANCE WITH                                    arising from amounts collected for consumer redress
TREASURY                                                    and not yet disbursed to claimants. The fund balance
FTC’s Fund Balance with Treasury consists of                also includes the amount of undisbursed premerger
undisbursed appropriated funds, which are either            filing fees that will be distributed equally between the
unobligated or obligated, as well as non-entity funds       FTC and the DOJ in a subsequent period.


Fund Balance with Treasury consisted of the following as of September 30, 2013 and 2012 (in thousands):
                                                                                  2013                        2012
Fund Balance with Treasury:
   Appropriated funds                                                $	        158,756            $	        136,256
   Deposit funds - consumer redress                                  	47,609                      	56,575
   Clearing/suspense funds - premerger filing fees                   	273                         	(45)
Total Fund Balance with Treasury                                     $	        206,638            $	        192,786


Status of Fund Balance with Treasury:
   Unobligated balance:
     Apportioned                                                     $	         52,778            $	         56,434
     Unavailable - not apportioned                                   	4,381                       	1,344
     Unavailable - temporary reduction                               	6,450                       	-
   Obligated balance not yet disbursed                               	95,147                      	78,478
   Non-budgetary fund balance with treasury
     Deposit funds - consumer redress                                	47,609                      	56,575
     Clearing/suspense funds - premerger filing fees                 	273                         	(45)
Total Status of Fund Balance with Treasury                           $	        206,638            $	        192,786


The negative balance in the clearing/suspense fund as of September 30, 2012 represents the amount of premerger
filing fees that were disbursed in excess of actual fees collected. This amount was recorded as a receivable due
from DOJ and Treasury at the end of fiscal year 2012 and was collected during fiscal year 2013 through an offset to
distributions made (see Note 16, Premerger filing fees).  




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                            125
                                                       FINANCIAL SECTION



      NOTE 4—CASH AND OTHER                   Cash and other monetary assets consisted of the following as of
      MONETARY ASSETS                         September 30, 2013 and 2012 (in thousands):
  Cash and other monetary assets              	
  consists of cash in financial                                                                    2013           2012
  institutions necessary to cover                 Cash and Other Monetary Assets:
  current disbursement schedules in                 Consumer redress funds held in               $ 18,239       $ 28,360
  connection with the consumer redress              financial institutions
  program. (See Note 1(h), Cash and
  Other Monetary Assets and Note 17,              Total Cash and Other Monetary Assets           $ 18,239       $ 28,360
  Consumer Redress Activities.)



      NOTE 5—ACCOUNTS RECEIVABLE, NET                           In these circumstances, historical experience and
  Accounts receivable, net of allowances reflect the            economic realities indicate that these types of claims
  Federal Accounting Standards Advisory Board                   are frequently not fully collectible.
  (FASAB) standard for the recognition of losses using
                                                                The method used to estimate the allowance for
  the collection criterion of “more likely than not.” This
                                                                uncollectible accounts consists of individual case
  criterion results in receivable balances that are more
                                                                analysis by the attorney case manager with respect
  conservatively stated than those valued by the private
                                                                to the debtor’s ability and willingness to pay, the
  sector under GAAP. FASAB states that it is appropriate
                                                                defendant’s payment record, and the probable recovery
  to recognize the nature of federal receivables, which,
                                                                amount including the value of the sale of assets. Based
  unlike trade accounts of private firms or loans made
                                                                on the aforementioned, cases are referred to the
  by banks, are not created through credit screening
                                                                Treasury for collection activities after the receivable
  procedures. Rather, these receivables arise because
                                                                becomes six months delinquent in payment.
  of the assessment of fines from regulatory violations.

  Accounts receivable, net consisted of the following as of September 30, 2013 and 2012 (in thousands):
                                                                 Allowance for
                                                Gross            Uncollectible
                                                                                      2013 Net              2012 Net
                                             Receivables           Accounts
      Entity Accounts Receivable:
        Intragovernmental                     $	47                 $	            -   $	47                   $	995
        With the public                       	48                  	-                	48                    	47
      Total entity accounts receivable        $	95                 $	-               $	95                   $	1,042


      Non-Entity Accounts Receivable:
        Consumer redress                      $	994,781            $	971,088         $	23,693               $	27,219
        Civil penalties                       	31,345              	30,295           	1,050                 	3,725
      Total non-entity accounts receivable    $	1,026,126          $	1,001,383       $	24,743               $	30,944
      Total Accounts Receivable               $	1,026,221          $	1,001,383       $	24,838               $	31,986


126               FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                   FINANCIAL SECTION



NOTE 6—GENERAL PROPERTY AND                                under development, such as internal use software
EQUIPMENT, NET                                             and leasehold improvements with an estimated
The FTC’s property and equipment consists of               aggregate cost of over $100 thousand are capitalized
general-purpose equipment used by the agency, capital      as development-in-progress and then amortized once
improvements made to buildings leased by the FTC for       complete and placed into service. The FTC expenses
office space, and software. The FTC reports property       the cost of normal repairs and maintenance, as well
and equipment at historical cost and capitalizes items     as property and equipment that does not meet the
with an initial cost of $100 thousand or greater and       capitalization criteria.
a useful life over two years. Property and equipment
                                                           Depreciation expense was $3,216 and $3,766 thousand
that meets this criterion are depreciated using the
                                                           for fiscal years ending September 30, 2013 and 2012,
straight-line method over the estimated useful life of
                                                           respectively, and is contained in the accumulated
the asset. Leasehold improvements are amortized over
                                                           depreciation.
the remaining life of the lease. Additionally, assets

As of September 30, 2013, general property and equipment, net consisted of the following (in thousands):
                                               Service         Acquisition      Accumulated          Net
               Asset Class
                                                Life             Value          Depreciation      Book Value
Equipment                                      5-20 yrs.        $	    10,356      $	     4,779      $	      5,577
Leasehold improvements                        lease term        	16,079           	6,638            	9,441
Software                                        3-5 yrs.        	20,067           	13,043           	7,024
Total General Property and Equipment                            $	    46,502      $	   24,460       $	     22,042

As of September 30, 2012, general property and equipment, net consisted of the following (in thousands):
                                               Service         Acquisition      Accumulated          Net
               Asset Class
                                                Life             Value          Depreciation      Book Value
Equipment                                      5-20 yrs.        $	    13,447      $	     7,363      $	      6,084
Leasehold improvements                        lease term        	14,351           	5,742            	8,609
Software                                        3-5 yrs.        	15,275           	11,583           	3,692
Total General Property and Equipment                            $	    43,073      $	    24,688      $	     18,385




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                         127
                                                         FINANCIAL SECTION



      NOTE 7—LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
  Liabilities not covered by budgetary resources consisted of the following as of September 30, 2013 and 2012 (in
  thousands):

                                                                                               2013                  2012
      Intragovernmental:
        Undisbursed premerger filing fees due to DOJ                                   $	        136         $	          -
        Civil penalty accrual due to Treasury                                          	1,050                	3,725
        FECA liability                                                                 	394                  	390
        Other unfunded employment related liability                                    	2                    	7
      Subtotal intragovernmental liabilities not covered by budgetary resources        $	      1,582         $	      4,122
      Accrued consumer redress due to claimants                                        	23,693               	27,219
      Consumer redress collections not yet disbursed                                   	65,848               	84,935
      Accrued leave                                                                    	11,385               	11,529
      Actuarial FECA                                                                   	2,254                	2,080
      Total Liabilities Not Covered by Budgetary Resources                             $	   104,762          $	   129,885
      Total Liabilities Covered by Budgetary Resources                                 	14,504               	12,878
      Total Liabilities                                                                $	   119,266          $	   142,763


  Undisbursed Premerger Filing Fees Due to DOJ                     Consumer Redress Collections Not Yet Disbursed
  represents the non-entity liability for undisbursed              represents the non-entity liability corresponding to
  filing fees due to the DOJ in a subsequent period.               the non-entity assets (Fund Balance with Treasury and
                                                                   Cash and Other Monetary Assets ) collected through
  Civil Penalty Accrual Due to Treasury represents the             the consumer redress program.
  non-entity liability corresponding to the non-entity
  accounts receivable, net of allowance for civil mone-            Unfunded Leave represents the accrued unfunded li-
  tary penalties, which will be transferred to the general         ability for earned leave. The balance in the accrued an-
  fund of the Treasury upon receipt.                               nual leave account is reviewed quarterly and adjusted
                                                                   as needed to accurately reflect the liability at current
  Federal Employee’s Compensation Act (FECA)                       pay rates and leave balances. Accrued annual leave is
  Liability represents the unfunded liability for workers          paid from future funding sources and, accordingly,
  compensation payable to the Department of Labor                  is reflected as a liability not covered by budgetary re-
  (DOL), as paying agent for all FECA claims.                      sources. Sick and other leave is expensed as taken.

  Consumer Redress Accrual Due to Claimants                        Actuarial FECA represents the present value of future
  represents the non-entity liability corresponding to             workers’ compensation claims. The actuarial liability
  the non-entity accounts receivable, net for judgments            is based on the liability to benefits paid ratio provided
  obtained as a result of the agency’s consumer redress            by DOL multiplied by the average of benefits paid over
  litigation.                                                      three years.



128               FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                       FINANCIAL SECTION



NOTE 8—OTHER LIABILITIES
Other liabilities consisted of the following as of September 30, 2013 (in thousands):
                                                              2013                 2013
                                                                                                  2013 Total
                                                           Non-Current            Current
Other intragovernmental:
   Accrued employee benefits                                  $	          -        $	       734    $	      734
   Undisbursed premerger filing fees                          	-                   	136            	136
   Civil penalties                                            	-                   	1,050          	1,050
   FECA liability                                             	394                 	-              	394
Subtotal other intragovernmental                              	394                 	1,920          	2,314
   Accrued payroll and benefits                               	-                   	3,626          	3,626
   Accrued leave                                              	-                   	11,385         	11,385
   Actuarial FECA                                             	2,254               	-              	2,254
Subtotal other                                                	2,254               	15,011         	17,265
Total Other Liabilities                                       $	     2,648         $	   16,931     $	   19,579

Other liabilities consisted of the following as of September 30, 2012 (in thousands):
                                                              2012                 2012
                                                                                                  2013 Total
                                                           Non-Current            Current
Other intragovernmental:
   Accrued employee benefits                                  $	          -        $	       591    $	      591
   Civil penalties                                            	-                   	3,725          	3,725
   FECA liability                                             	390                 	-              	390
Subtotal other intragovernmental                              	390                 	4,316          	4,706
   Accrued payroll and benefits                               	-                   	2,911          	2,911
   Accrued leave                                              	-                   	11,529         	11,529
   Actuarial FECA                                             	2,080               	-              	2,080
Subtotal other                                                	2,080               	14,440         	16,520
Total Other Liabilities                                       $	     2,470         $	   18,756     $	   21,226




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                      129
                                                    FINANCIAL SECTION



      NOTE 9—LEASES                                         Future minimum lease payments under leases of
  Leases of commercial property are made through and        commercial property due as of September 30, 2013 are
  managed by the General Services Administration            as follows (in thousands):
  (GSA). The FTC has leases on five government-owned        Fiscal Year
  properties and nine commercial properties totaling        2014                                        $ 	 24,192
  approximately 633 thousand square feet for use as
                                                            2015                                        $ 	 15,003
  offices, storage and parking. The FTC’s current leases
                                                            2016                                        $ 	 14,589
  expire at various dates through 2024. All FTC leases
                                                            2017                                        $ 	 14,546
  are operating leases
                                                            2018                                        $ 	 13,441
  Certain leases provide for tenant improvement             Thereafter                                  $ 	 77,635
  allowances and these costs are amortized over the         Total Future Minimum Lease Payments         $ 	159,406
  length of the leases. Under the terms of the leases,
  the FTC agrees to reimburse the landlord for the          NOTE 10—COMMITMENTS AND
  principal balance of the unamortized portion of the       CONTINGENCIES
  tenant improvement allowance in the event the agency      The FTC is a party in various administrative
  vacates the space before lease expiration.                proceedings, legal actions, and claims brought by or
                                                            against it, including pending litigation where adverse
  In 2014, the FTC will begin relocating employees          decisions are considered by management and legal
  from 2 of the leased commercial properties into a         counsel as “reasonably possible”. The potential loss for
  single newly leased commercial facility. During the       pending claims and actions is estimated to be up to $2
  transition, the FTC’s lease payments will be higher due   million as of September 30, 2013.
  to the fact that payments will need to be made on both
  the old and new leases until the move is complete. The    NOTE 11—INTRAGOVERNMENTAL
  higher cost is reflected in the chart showing future      COSTS AND EXCHANGE REVENUES
  lease payments of commercial property.                    Intragovernmental costs arise from purchases of
                                                            goods or services from other components of the
  Future minimum lease payments due under leases
                                                            Federal Government. In contrast, public costs are
  of government-owned property as of September 30,
                                                            those that arise from the purchase of goods or services
  2013, are as follows (in thousands):
                                                            from nonfederal entities.
      Fiscal Year
      2014                                   $	   6,465     Intragovernmental exchange revenue is earned in
      2015                                   $	   6,378     connection with services provided by the FTC to
                                                            another federal entity in a reimbursable agreement.
      2016                                   $	   6,383
                                                            Public earned revenue represents the fees collected
      2017                                   $	   6,363
                                                            by the FTC from nonfederal entities. (See Note 12,
      2018                                   $	   6,321
                                                            Exchange Revenues.)
      Thereafter                             $	   6,080
      Total Future Minimum Lease Payments $ 	 37,990




130                 FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                    FINANCIAL SECTION


The accompanying chart shows a breakout of the Statement of Net Cost, for the fiscal years ended September 30,
2013 and 2012, by the categories intragovernmental and public (in thousands):

                                                                              2013                        2012
Strategic Goal 1: Protect Consumers
  Intragovernmental gross costs                                     $	       45,938             $	       43,660
  Public costs                                                      	119,628                    	121,107
Gross costs, Protect Consumers                                      	165,566                    	164,767
  Intragovernmental earned revenue                                  	(6)                        	(42)
  Public earned revenue                                             	(14,112)                   	(13,752)
Earned revenue, Protect Consumers                                   	(14,118)                   	(13,794)
Net Cost, Protect Consumers                                         	151,448                    	150,973


Strategic Goal 2: Maintain Competition
  Intragovernmental gross costs                                     	33,954                     	32,139
  Public costs                                                      	88,421                     	89,148
Gross costs, Maintain Competition                                   	122,375                    	121,287
  Intragovernmental earned revenue                                  	(491)                      	(281)
  Public earned revenue                                             	(81,202)                   	(87,544)
Earned revenue, Maintain Competition                                	(81,693)                   	(87,825)
Net Cost, Maintain Competition                                      	40,682                     	33,462
Net Cost of Operations                                              $	      192,130             $	      184,435


NOTE 12—EXCHANGE REVENUES                                 to the DOJ Antitrust Division. Revenue is recognized
The FTC’s exchange revenues are derived from three        upon collection of the fee and verification of proper
primary sources, as described below.                      documentation.

The HSR Act, in part, requires the filing of premerger    The FTC collects fees for the National DNC Registry,
notifications with the FTC and the Antitrust Division     which operates under Section 5 of the FTC Act.
of the DOJ and establishes a waiting period before        A permanent fee structure was established by
certain acquisitions may be consummated. Mergers          Public Law (P.L.) No. 110-188, the Do-Not-Call
with transaction valuation above $70.9 million            Extension Act of 2007, which amended the Do-
require the acquiring party to pay a filing fee. The      Not-Call Implementation Act and provided that
filing fees are based on the transaction amount and       fees be reviewed annually and adjusted for inflation,
follow a three-tiered structure: $45, $125 and $280       as appropriate. Telemarketers must pay an annual
thousand. By law, the FTC may retain one-half of all      subscription fee and download a list of telephone
premerger filing fees collected, and remits one-half      numbers of consumers who do not wish to receive




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                        131
                                                       FINANCIAL SECTION


  calls from the DNC Registry database. Fees are based       NOTE 13—APPORTIONMENT
  on the number of area codes downloaded. On October         CATEGORIES OF OBLIGATIONS
  1, 2012, the minimum charge was raised from $56 to         INCURRED: DIRECT VS. REIMBURSABLE
  $58 to download one area code. The maximum charge
                                                             OBLIGATIONS
  was raised from $15,503 to $15,962 for all area codes
                                                             For the fiscal years ended September 30, 2013 and
  within the United States. Revenue is recognized when
                                                             2012, obligations incurred consisted of the following
  collected and the telemarketer is given access to the
                                                             (in thousands):
  requested data.
                                                                                                   2013       2012
  The FTC receives reimbursements for services               Obligations Incurred:
  provided to other government agencies under                  Category A - direct obligations $ 	277,209 $ 	279,646
  interagency agreements. As the provider of services in
                                                               Category B - direct obligations 	21,945    	-
  an interagency agreement (reimbursable order), the
                                                               Category B - reimbursable
  FTC bills the buying agency to recover the full cost                                         	544       	369
                                                               obligations
  of services, primarily salaries and related expenses.
                                                             Total Obligations Incurred        $ 	299,698 $ 	280,015
  Revenue is earned at the time FTC incurs expenditures
  against the reimbursable order.
                                                             NOTE 14—EXPLANATION OF
  Exchange revenues are deducted from gross costs            DIFFERENCES BETWEEN THE
  on the Statement of Net Cost to arrive at net cost of      STATEMENT OF BUDGETARY RESOURCES
  operations.                                                AND THE BUDGET OF THE UNITED
                                                             STATES GOVERNMENT
  For the fiscal years ended September 30, 2013 and
                                                             There are no material differences between amounts
  2012, exchange revenue consisted of the following (in
                                                             reported in the fiscal year 2012 Statement of Budgetary
  thousands):
                                                             Resources and the fiscal year 2012 actual amounts as
                                        2013         2012    reported in the fiscal year 2014 Budget of the United
      Exchange Revenues:                                     States Government. The fiscal year 2015 Budget of the
       Premerger filing fees       $ 	 81,202   $ 	 87,544   United States is not available to compare fiscal year
       Do Not Call registry fees   	14,112      	13,752      2013 actual amounts to the fiscal year 2013 Statement
       Reimbursements              	497         	323         of Budgetary Resources.
      Total Exchange Revenues      $ 	 95,811   $ 	101,619
                                                             NOTE 15—UNDELIVERED ORDERS AT
                                                             THE END OF THE PERIOD
                                                             The amount of budgetary resources obligated for
                                                             undelivered orders as of September 30, 2013 and 2012,
                                                             is $81,941 and $66,697 thousand respectively.  




132             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                     FINANCIAL SECTION



NOTE 16—CUSTODIAL ACTIVITIES                                 ACCRUAL ADJUSTMENTS
The primary custodial activities of the FTC are:
                                                             Accrual adjustments represent the change in accounts
PREMERGER FILING FEES                                        receivable, net of allowances for uncollectible
HSR premerger filing fees collected by the FTC               accounts, for civil penalties assessed in court actions..
pursuant to 15 U.S.C. 18a notes, as amended, are
divided evenly between the FTC and the DOJ. The              (DECREASE)/INCREASE IN AMOUNTS YET
portion of collections designated for the DOJ is             TO BE TRANSFERRED
reported as a custodial activity. During fiscal year 2013    The decrease/increase in amounts yet to be transferred
and fiscal year 2012, the FTC collected $162,404 and         represents the change in the offsetting liability for civil
$175,088 thousand respectively, in HSR premerger             penalties due to Treasury that is established at the time
filing fees. One-half of the amounts collected in            an accounts receivable for civil penalties in recorded..
each year were distributed to DOJ, as show on the
Statement of Custodial Activity. Undistributed fees to       NOTE 17—CONSUMER REDRESS
the DOJ at September 30, 2013 were $136 thousand;            ACTIVITIES
fees to be credited back from DOJ and the Department         The FTC obtains consumer redress in connection with
of Treasury at September 30, 2012 were $45 thousand.         the settlement or litigation of both its administrative
                                                             proceedings and its federal court cases. The FTC
CIVIL PENALTIES                                              attempts to distribute funds thus obtained to
Civil monetary penalties collected in connection with        consumers whenever possible. In those cases where
the settlement or litigation of the FTC’s administrative     consumer redress is not practicable, the funds
or federal court cases are collected by either the FTC       are transferred (disgorged) to the Treasury, or on
or the DOJ as provided for by law. In those situations       occasion, used for consumer education or another
where the FTC collects the penalties, the FTC deposits       purpose as directed by the final order issued by the
the money in a receipt account with the Treasury. Civil      court. Major components of the redress program
penalties collected also include amounts collected for       include eligibility determination, claimant notification,
undecided civil penalty cases that are held until final      and administration of redress to claimants.
disposition of the case. All civil penalties collected are
transferred to the general fund of the Treasury at the       Redress funds are held by the FTC in a deposit fund
end of the year.                                             at Treasury until a determination is made on the
                                                             practicability of redress. If redress is determined to
CONSUMER REDRESS                                             be practicable, funds needed to cover immediate
Collections for consumer redress reported on the             disbursements to consumers are transferred to
Statement of Custodial Activity are limited to those         accounts at financial institutions from which redress
collections that have been disgorged to the Treasury.        agents process claims and disburse proceeds to
Collections disgorged to the Treasury were $14,518           claimants. (In previous years, funds not needed to
thousand for fiscal year 2013 and $15,261 thousand for       cover immediate disbursements were invested in
fiscal year 2012.                                            Treasury securities. After performing an analysis of
                                                             the yield versus the related costs in fiscal year 2012,
Other line items on the Statement of Custodial               the FTC discontinued this practice and the funds were
Activity include:                                            returned to the FTC’s deposit fund.)




                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                               133
                                                     FINANCIAL SECTION


  Redress fund activities consisted of the following for September 30, 2013 and 2012 (in thousands):
                                                                                      2013                   2012
      Consumer Redress:
      Fund Balance with Treasury
       Beginning balance                                                      $	    56,575             $	    3,803
       Collections                                                            	36,063                  	53,442
       Disbursements to claimants, net                                        	(23)                    	1
       Disgorgements to Treasury                                              	(14,518)                	(15,261)
       Transfers, expenses, refunds                                           	(30,488)                	14,590
      Total Fund Balance with Treasury, Ending                                $	    47,609             $	   56,575


      Cash and Other Monetary Assets
       Beginning balance                                                      $	    28,360             $	   44,944
       Disbursements to claimants, net                                        	(36,621)                	(36,231)
       Transfers, expenses, interest income                                   	26,500                  	19,647
      Total Cash and Other Monetary Assets, Ending                            $	    18,239             $	   28,360


      Investments
       Beginning balance                                                      $	          -            $	   35,443
       Transfers, expenses, interest income                                   	-                       	(14,269)
       Return to deposit fund                                                 	-                       	(21,174)
      Total Investments, Ending                                               $	          -            $	        -


      Accounts Receivable, Net
       Beginning balance                                                      $	    27,219             $	   11,229
       Net activity                                                           	(3,526)                 	15,990
      Total Accounts Receivable, Ending                                       $	    23,693             $	   27,219




134             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                         FINANCIAL SECTION



NOTE 18 — RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
For the fiscal years ended September 30, 2013 and 2012 (in thousands):
                                                                                        2013           2012
Resources Used to Finance Activities:
  Budgetary resources obligated:
    Obligations incurred                                                         $	   299,698   $	   280,015
    Less: spending authority from offsetting collections and recoveries          	(98,869)      	(106,951)
  Total budgetary resources obligated                                            	200,829       	173,064
  Other resources:
    Imputed financing from costs absorbed by others                              	9,207         	9,726
  Total other resources                                                          	9,207         	9,726
Total Resources Used to Finance Activities                                       	210,036       	182,790


Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated, but not yet provided                	(14,277)      	256
    Resources that finance the acquisition of assets                             	(6,873)       	(5,283)
  Total resources used to finance items not part of the net cost of operations   	(21,150)      	(5,027)
Total Resources Used to Finance the Net Cost of Operations                       	188,886       	177,763


  Components of the Net Cost of Operations that will not Require or
  Generate Resources in the Current Period:
  Components requiring or generating resources in future periods:
    Increase in annual leave liability                                           	(144)         	516
    Other                                                                        	172           	(113)
  Total components requiring or generating resources in future period            	28            	403
Components not requiring or generating resources:
    Depreciation and amortization                                                	3,216         	3,766
    Losses on disposition of assets - other                                      	-             	2,503
  Total components not requiring or generating resources                         	3,216         	6,269
Total Components of the Net Cost of Operations that will not Require or
                                                                                 	3,244         	6,672
Generate Resources in the Current Period:
Net Cost of Operations                                                           $	   192,130   $	   184,435




                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                   135
THIS PAGE INTENTIONALLY LEFT BLANK
OTHER ACCOMPANYING
   INFORMATION
                                   OTHER ACCOMPANYING INFORMATION



  Inspector General - Identified Management and
  Performance Challenges




138    FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
    OTHER ACCOMPANYING INFORMATION



INSPECTOR GENERAL - IDENTIFIED MANAGEMENT AND PERFORMANCE
CHALLENGES (CONTINUED)




               FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013   139
                                        OTHER ACCOMPANYING INFORMATION



      INSPECTOR GENERAL - IDENTIFIED MANAGEMENT AND PERFORMANCE
      CHALLENGES (CONTINUED)




140         FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
    OTHER ACCOMPANYING INFORMATION



INSPECTOR GENERAL - IDENTIFIED MANAGEMENT AND PERFORMANCE
CHALLENGES (CONTINUED)




               FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013   141
                                        OTHER ACCOMPANYING INFORMATION



      INSPECTOR GENERAL - IDENTIFIED MANAGEMENT AND PERFORMANCE
      CHALLENGES (CONTINUED)




142         FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
    OTHER ACCOMPANYING INFORMATION



INSPECTOR GENERAL - IDENTIFIED MANAGEMENT AND PERFORMANCE
CHALLENGES (CONTINUED)




               FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013   143
                                        OTHER ACCOMPANYING INFORMATION



      INSPECTOR GENERAL - IDENTIFIED MANAGEMENT AND PERFORMANCE
      CHALLENGES (CONTINUED)




144         FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
   OTHER ACCOMPANYING INFORMATION



Chairwoman's Response to IG Challenges




             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013   145
                                                           OTHER ACCOMPANYING INFORMATION



  Summary of Financial Statement Audit and Management Assurances
      TABLE 1: SUMMARY OF FINANCIAL STATEMENT AUDIT
      Audit Opinion                                                          Unqualified

      Restatement                                                                No

                                         Beginning                                                            Ending
                                                                 New         Resolved      Consolidated
                                          Balance                                                             Balance
      Material Weaknesses
                                                 0                0              0              0                  0

      Total Material Weaknesses                  0                0              0              0                  0



      TABLE 2: SUMMARY OF MANAGEMENT ASSURANCES
      Effectiveness of Internal Control Over Financial Reporting (Federal Managers’ Financial Integrity Act
      (FMFIA) Para. 2)
      Statement of Assurance                                                 Unqualified
                                        Beginning                                                              Ending
                                                           New        Resolved   Consolidated Reassessed
      Material Weaknesses                Balance                                                               Balance
                                             0               0           0            0              0                 0

      Total Material Weaknesses              0               0           0            0              0                 0

      Effectiveness of Internal Control Over Operations (FMFIA Para. 2)

      Statement of Assurance                                                 Unqualified
                                        Beginning                                                              Ending
                                                           New        Resolved   Consolidated Reassessed
      Material Weaknesses                Balance                                                               Balance
                                             0               0           0            0              0                 0

      Total Material Weaknesses              0               0           0            0              0                 0

      Conformance with Financial Management System Requirements (FMFIA Para. 4)

      Statement of Assurance                         Systems conform to financial management system requirements
                                        Beginning                                                              Ending
                                                           New        Resolved   Consolidated Reassessed
      Non-Conformances                   Balance                                                               Balance
                                             0               0           0            0              0                 0

      Total Non-Conformances                 0               0           0            0              0                 0



146              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
         OTHER ACCOMPANYING INFORMATION



THE IMPROPER PAYMENTS ELIMINATION AND
RECOVERY ACT
The Improper Payments Elimination and Recovery           for programs and activities that expend $1 million or
Act (IPERA) (Public Law No. 111-204)                     more annually, provided it is cost-effective to do so. In
requires agencies to review annually all programs        accordance with the OMB guidance, the FTC reviewed
and activities, identify those that may be susceptible   its programs and activities and determined that none
to significant improper payments, estimate annual        of the agency’s programs or activities were susceptible
improper payments in the susceptible programs and        to making significant improper payments and that the
activities, and report the results of their improper     implementation of a payment recapture audit would
payment activities. The IPERA also requires agencies     not be cost–effective.
to conduct payment recapture audits.
                                                         The FTC’s shared service provider, the Department
Office of Management and Budget (OMB)                    of Interior Business (IBC) Center, has implemented
Memorandum M-11-16 prescribes guidance for               a continuous monitoring solution against the
agencies to use in implementing IPERA. OMB               Department of Treasury’s Do Not Pay database. This
guidance defines “significant improper payments”, for    helps to identify and prevent improper payments
FY 2013 reporting, as those in any particular program    before they are made.  IBC compares the FTC’s
or activity that exceed both 1.5 percent of program      payee records in the financial system with payee
outlays and $10 million of all program or activity       records in the Do Not Pay database. Potential
payments made during the fiscal year, or $100 million    matches are reviewed by FTC on an on-going basis
(regardless of the improper payment percentage of        to prevent improper payments. Additionally, the
total program outlays). In addition, the OMB guidance    FTC has incorporated a pre-award check on potential
addresses implementing payment recapture audits,         contractors against the Do Not Pay database.




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           147
THIS PAGE INTENTIONALLY LEFT BLANK
APPENDICES
                                                    APPENDICES



  APPENDIX A: DATA QUALITY INFORMATION
      STRATEGIC GOAL 1: PROTECT                            compared to the total number of enforcement actions.
                                                           Data sources: The FTC’s CSN database, LexisNexis
      CONSUMERS                                            CourtLink, the FTC website, and reports from the
      OBJECTIVE 1.1: IDENTIFY FRAUD,                       agency, Bureau Director’s Office, divisions, and
      DECEPTION, AND UNFAIR PRACTICES                      regional offices.
      THAT CAUSE THE GREATEST CONSUMER                     Verification and validation: A list of all federal court
      INJURY.                                              actions filed in the current fiscal year is compiled in
  Performance Measure 1.1.1: Complaints collected          a spreadsheet. For each case, CSN database searches
  and entered into the Consumer Sentinel Network           by the defendants’ names are completed to determine
  Database.                                                if the cases target subjects of consumer complaints to
  Definition and background: This measure tracks           the FTC. The results of the searches are also recorded
  complaints entered into the FTC’s Consumer Sentinel      on the spreadsheet, and the percentage is calculated
  Network (CSN) Database. Consumer Sentinel is an          based on this information. This information is
  investigative tool that provides access to millions of   reviewed periodically by staff and management for
  consumer complaints to member law enforcement            completeness and accuracy.
  agencies. More information about CSN can be found        Data limitations: The spreadsheet may not capture a
  at www.ftc.gov/sentinel/index.shtm.                      case if it is missed during the internal review process.
  Data sources: The FTC’s CSN database.
                                                           Performance Measure 1.1.3: The rate of customer
  Verification and validation: Reports are run at least
                                                           satisfaction with the FTC’s Consumer Response
  quarterly to determine the number of complaints that
                                                           Center.
  are entered into the CSN database.
                                                           Definition and background: This measure ensures
  Data limitations: The data in the CSN database is
                                                           the FTC is providing satisfactory service to consumers
  dependent on the complainant providing accurate
                                                           through the complaint website and call center.
  and complete information. CSN data may be
                                                           Calculation/Formula: The calculation is conducted
  underreported because some people choose not to file
                                                           by a third party, Foresee, and the formula it uses is
  a formal complaint, and some people may not know
                                                           proprietary.
  they are able to file a complaint with the FTC.
                                                           Data sources: Reports from the U.S. Department of
  Performance Measure 1.1.2: The percentage of the         the Interior’s Federal Consulting Group, the executive
  FTC’s consumer protection law enforcement actions        agent for the American Customer Satisfaction
  that target the subject of consumer complaints to        Index (ACSI).
  the FTC.                                                 Verification and validation: Measurement is
  Definition and background: This measure gauges           generated by an outside source based on industry
  how well the FTC’s consumer protection law               standard practices.
  enforcement actions target the subject of concerns       Data limitations: There are no significant data
  identified by consumers.                                 limitations.
  Calculation/Formula: Number of enforcement
  actions targeted consumer identified complaints



150          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                                APPENDICES



OBJECTIVE 1.2: STOP FRAUD,                                   the deceptive claims. This figure is compared to the
DECEPTION, UNFAIRNESS, AND OTHER                             baseline to determine the effectiveness of the FTC’s
UNLAWFUL PRACTICES THROUGH LAW                               actions in stopping deceptive practices.
ENFORCEMENT.                                                 Data sources: Evaluations of the prevalence of
Performance Measure 1.2.1: The percentage of all             prohibited business practices in targeted areas. The
cases filed by the FTC that were successfully resolved       Internet is used to examine advertising claims.
through litigation, a settlement, or issuance of a default   Verification and validation: Attorneys assigned to
judgment.                                                    the subject area work with FTC economists to validate
Definition and background: This measure gauges               the methodology and quality control.
how well the FTC successfully resolves cases, including      Data limitations: Advertising claims in other types of
those that raise challenging legal and factual issues.       media are not captured.
Calculation/Formula: The number of successfully              Performance Measure 1.2.3: The percentage of
filed cases is divided by the by the total number of all     redress cases in which the FTC distributes redress
federal court cases resolved in the current fiscal year.     dollars designated for distribution to consumers
Data sources: LexisNexis CourtLink, the FTC website,         within six months.
and reports from the Bureau Director’s Office,               Definition and background: This measure ensures
divisions, and regional offices.                             that the FTC returns redress dollars to consumers as
Verification and validation: A list of all federal court     quickly as possible.
cases resolved in the current fiscal year is compiled        Calculation/Formula: When a redress distribution
in a spreadsheet, and the percentage of successfully         occurs, the date designated for distribution in the
resolved cases is calculated based on this information.      redress case status report is checked to determine
The report is sent to the Associate Directors and            whether or not redress occurred within six months.
regional managers on a quarterly basis to verify the         The percentage is determined by dividing the number
accuracy of the report and ensure all resolutions are        of cases redress distribution occurred within six
included in the report.                                      months by the total number of redress distributions in
Data limitations: The spreadsheet may not capture a          a quarter.
case if it is missed during the internal review process.     Data sources: Bureaus’ open redress case status
Performance Measure 1.2.2: The FTC’s effectiveness           reports.
in stopping prohibited business practices in three high      Verification and validation: When a redress
priority areas over the next five years.                     distribution occurs, the date of the distribution is
Definition and background: This measure gauges the           checked and verified to determine whether or not the
FTC’s success in changing business practices related to      redress occurred within six months.
misleading advertising claims within priority areas and      Data limitations: There are no significant data
demonstrates the change through research methods.            limitations.
Calculation/Formula: In each area, FTC staff                 Performance Measure 1.2.4: Investigations or
establishes a baseline by identifying the number of          cases in which the FTC obtains foreign-based
potentially deceptive advertisements appearing online.       evidence or engages in mutual assistance that
After the FTC takes enforcement or other actions in          contributes to FTC law enforcement actions or in
that area, the staff reviews the online advertisements       which we cooperate with foreign agencies and/or
again to determine the number that continue to make          multilateral organizations.



                              FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                          151
                                                   APPENDICES


  Definition and background: This measure tracks           Data limitations: It is possible that distribution is
  investigations or cases in which the FTC obtains         much higher than reported, as online users may be
  foreign-based evidence or engages in mutual              printing and disseminating copies.
  assistance that contributes to FTC law enforcement
                                                           Performance Measure 1.3.2: Customer satisfaction
  actions or in which we cooperate with foreign agencies
                                                           rate with the FTC consumer education websites or
  and/or multilateral organizations.
                                                           microsites.
  Data sources: Office of International Affairs weekly
                                                           Definition and background: This measure gauges the
  reports and internal tracking sheets.
                                                           effectiveness, helpfulness, and usability of the FTC’s
  Verification and validation: Consumer Protection
                                                           consumer education websites and microsites.
  team members report matters they worked on in
                                                           Calculation/Formula: The calculation is conducted
  which information was shared. Staff review and
                                                           by a third party, Foresee, and the formula it uses is
  compile the matters reported. Managers review these
                                                           proprietary.
  matters to ensure that they qualify as part of the
                                                           Data sources: Reports from the U.S. Department of
  measure and have not been previously counted.
                                                           the Interior’s Federal Consulting Group, the executive
  Data limitations: Review is necessary to avoid double
                                                           agent for the American Customer Satisfaction Index
  counting of particular matters.
                                                           (ACSI).
      OBJECTIVE 1.3: PREVENT CONSUMER                      Verification and validation: Measurement is
      INJURY THROUGH EDUCATION.                            generated by an outside source based on industry
                                                           standard practices.
  Performance Measure 1.3.1: Consumer protection
                                                           Data limitations: There are no significant data
  messages accessed online or in print.
                                                           limitations.
  Definition and background: This measure gauges
  whether the agency is producing a sufficient amount      Performance Measure 1.3.3: Organizations requesting
  of educational activity and educational materials        consumer education publications.
  that are aimed at new trends and at particularly         Definition and background: This measure helps the
  vulnerable populations.                                  FTC ensure that it is publicizing its activities in the
  Data sources: The measure is determined using            best way possible, and that the agency has a wide array
  the agency’s web statistics software (for messages       of partners to leverage resources.
  accessed online) and the FTC publication inventory       Data sources: The measure is derived from the
  (for messages accessed in print). Print distribution     agency’s database of online customer orders,
  numbers are derived from three sources: distribution     maintained by the Division of Consumer and
  center; distribution from the FTC warehouse; and         Business Education.
  distribution directly from printers when publications    Verification and validation: The data includes
  are printed or reprinted. A full recap of FY 2013 is     customers who have ordered materials during the
  available on request.                                    fiscal year and provided a valid organization. Orders
  Verification and validation: The publication             from individuals and duplicate organizations are
  inventory is tracked to determine the number of print    not included.
  messages distributed. The agency’s IT office compiles    Data limitations: The accuracy of the calculations
  statistics for all FTC websites.                         depends in part on customers entering their




152          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                               APPENDICES


organization name into the order form with consistent     advocacy comments and amicus briefs involving
spelling and formatting; otherwise data may be slightly   consumer protection-related matters. There were five
over-reported.                                            advocacies relating to both consumer protection and
                                                          competition related matters that were counted in both
OBJECTIVE 1.4: ENHANCE CONSUMER                           this performance measure and performance measure
PROTECTION THROUGH RESEARCH,                              2.3.3. Thus, there were 12 consumer protection-related
REPORTS, RULEMAKING, AND                                  filings.
ADVOCACY.                                                 Data sources: Internal matter records of advocacy
                                                          comments and amicus briefs filed (e.g., records
Performance Measure 1.4.1: Workshops and
                                                          available in the FTC’s document management system).
conferences convened or cosponsored that address
                                                          Verification and validation: Review of internal
consumer protection problems.
                                                          matter records of advocacy comments and amicus
Definition and background: This measure helps the
                                                          briefs filed (e.g., records available in the FTC’s
FTC ensure that enforcement and education efforts
                                                          document management system) and confirmation of
are augmented by encouraging discussions among
                                                          data with staff having responsibilities for advocacy
all interested parties, through careful study of and
                                                          matters.
empirical research on novel or challenging consumer
                                                          Data limitations: There are no significant data
protection problems.
                                                          limitations.
Data sources: The FTC website and reports from
the agency, Bureau Director’s Office, division, and       Performance Measure 1.4.3: The percentage of
regional offices.                                         respondents finding the FTC’s advocacy comments
Verification and validation: A list of all workshops      and amicus briefs “useful.”
and conferences is maintained in a spreadsheet. The       Definition and background: This measure tracks the
spreadsheet is reviewed quarterly by headquarters and     percentage of respondents finding the FTC’s advocacy
regional office management to verify the accuracy         comments and amicus briefs to be “useful,” in order
of the report and to ensure that all conferences and      to assess the effect of consumer protection advocacy
workshops are included in the report.                     comments.
Data limitations: Review is necessary to avoid under-     Calculation/Formula: Number of survey responses
reporting any workshops or conferences.                   received indicating the usefulness of an advocacy
                                                          divided by the total number of surveys sent to
Performance Measure 1.4.2: Advocacy comments
                                                          advocacy recipients. During FY 2013, two survey
and amicus briefs on consumer protection issues filed
                                                          responses were received, one relating to a consumer
with entities including federal and state legislatures,
                                                          protection filing and one relating to both consumer
agencies, or courts.
                                                          protection and competition. The survey response
Definition and background: The measure tracks the
                                                          regarding an advocacy relating to both consumer
number of advocacy comments and amicus briefs
                                                          protection and competition was counted in both
on consumer protection matters filed with entities
                                                          this performance measure and in performance
including federal and state legislatures, agencies, and
                                                          measure 2.3.4.
courts to measure the output of the FTC’s advocacy
                                                          Data sources: Responses to a written survey, sent by
activities relating to consumer protection matters.
                                                          agency staff to advocacy recipients (except courts), to
Advocacy letters and amicus briefs are tracked based
                                                          evaluate the usefulness of an advocacy.
on their date of filing to their recipients. During
                                                          Verification and validation: Agency staff review
FY 2013, the Commission and staff filed seven


                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                         153
                                                     APPENDICES


  written responses in order to determine percentage of      protection and privacy agencies, directly and through
  respondents describing the FTC’s advocacy comments         international organizations. Policy advice is defined
  as “useful.”                                               as substantive consultations, written submissions,
  Data limitations: There are no significant data            or comments.
  limitations.                                               Data sources: Office of International Affairs weekly
                                                             reports and internal tracking sheets.
  Performance Measure 1.4.4: The percentage of
                                                             Verification and validation: OIA staff report policy
  proposed Administrative Procedure Act (APA)
                                                             advice provided in weekly reports and internal
  rulemakings, conducted solely by the FTC, completed
                                                             logs. Staff review and compile the matters reported.
  within nine months of receipt of final comments in the
                                                             Managers review these matters to ensure that they are
  Final Notice of Proposed Rulemaking.
                                                             sufficiently substantive to qualify for the measure and
  Definition and background: This measure helps the
                                                             have not previously been counted.
  FTC ensure that the agency augments its enforcement
                                                             Data limitations: Review is necessary to avoid
  and education efforts by conducting appropriate
                                                             double counting of particular matters and to
  rulemakings.
                                                             ensure the instances of policy advice reported are
  Data sources: The Federal Register and the FTC
                                                             sufficiently substantive.
  website.
  Verification and validation: A list of all rulemakings,    Performance Measure 1.5.2: Technical assistance to
  the comment period close date, and the completion          foreign consumer protection and privacy authorities.
  date of APA rulemakings is maintained in a                 Definition and background: This measure tracks
  spreadsheet. The spreadsheet is reviewed quarterly         technical assistance provided to foreign consumer
  by headquarters and regional office management to          protection and privacy authorities.
  verify the accuracy of the report and to ensure that all   Data sources: Office of International Affairs weekly
  rulemakings are included in the report.                    reports and Technical Assistance calendar.
  Data limitations: Review is necessary to avoid under-      Verification and validation: OIA staff report
  reporting any rulemakings.                                 technical assistance workshops, conferences, and other
                                                             missions conducted. Staff review and compile the
      OBJECTIVE 1.5: PROTECT AMERICAN                        matters reported, and managers review these reports.
      CONSUMERS IN THE GLOBAL                                Data limitations: Review is necessary to ensure that
      MARKETPLACE BY PROVIDING SOUND                         reported items qualify as technical assistance missions.
      POLICY AND TECHNICAL INPUT
      TO FOREIGN GOVERNMENTS AND                             STRATEGIC GOAL 2: MAINTAIN
      INTERNATIONAL ORGANIZATIONS TO
      PROMOTE SOUND CONSUMER POLICY.                         COMPETITION
  Performance Measure 1.5.1: Policy advice provided          OBJECTIVE 2.1: TAKE ACTION AGAINST
  to foreign consumer protection and privacy agencies,       ANTICOMPETITIVE MERGERS
  directly and through international organizations,          AND PRACTICES THAT MAY CAUSE
  through substantive consultations, written                 SIGNIFICANT CONSUMER INJURY.
  submissions, or comments.                                  Performance Measure 2.1.1: Actions to maintain
  Definition and background: This measure tracks             competition, including litigated victories, consent
  policy advice provided to foreign consumer                 orders, abandoned transaction remedies, restructured



154           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                               APPENDICES


transaction remedies, or fix-it-first transaction          under the definition of substantial as specified by this
remedies in a significant percentage of substantial        measure. Compulsory process refers to a resolution,
merger and nonmerger investigations.                       or vote, adopted by the FTC that authorizes staff to
Definition and background: This measure ensures            issue subpoenas and civil investigative demands. This
that FTC actions promote vigorous competition by           measure also does not include actions that are still in
preventing anticompetitive mergers and stopping            litigation or on appeal.
business practices that diminish competition. This
                                                           Performance Measure 2.1.2: Consumer savings
measure reflects actions to maintain competition,
                                                           of at least $500 million through merger actions to
including litigated victories, consent orders,
                                                           maintain competition.
abandoned transaction remedies, restructured
                                                           Definition and background: This measure ensures
transaction remedies, or fix-it-first transaction
                                                           that the FTC’s merger actions are in part guided by the
remedies in a significant percentage of substantial
                                                           prospective effect these actions will have on consumer
merger and nonmerger investigations.
                                                           savings.
Calculation/Formula: The measure is calculated
                                                           Calculation/Formula: The measure is calculated by
by taking the number of substantial investigations
                                                           taking the sum of “Consumer Savings” of individual
closed with an action divided by the total number
                                                           merger actions for the current fiscal year plus the
of substantial investigations closed (with or without
                                                           previous four fiscal years and dividing the sum by five.
action). “Substantial investigations” comprises all
                                                           Data sources: The lead attorney estimates consumer
second request and/or compulsory process merger
                                                           savings for a particular case using the appropriate
investigations, and nonmerger investigations where
                                                           applicable estimation formula and submits it to the
staff logged more than 150 hours and/or obtained
                                                           Bureau of Economics for concurrence. If available,
compulsory process.
                                                           staff will use case-specific data to generate the
Data sources: Press releases are the source of
                                                           estimate of consumer savings due to the FTC’s action.
information for public actions, such as consent orders
                                                           Otherwise, staff uses a formulaic approach taking one
and the results of judicial review, while internal
                                                           percent of the volume of commerce in the affected
communications from staff attorneys are used to
                                                           market(s) for two years, where the relevant product
identify those investigations that were closed because
                                                           and geographic market(s) are those identified in the
parties abandoned a transaction or because staff
                                                           final enforcement action.
did not find that the transaction or the conduct is
                                                           Verification and validation: See measure 2.1.1.
likely to harm competition. This information is then
                                                           Data limitations: The data is dependent on the
cross referenced with a list of second request and
                                                           estimates of consumer savings made by staff in
compulsory process merger investigations and a list
                                                           accordance with the appropriate applicable estimation
of significant nonmerger investigations as recorded in
                                                           formulas. Additionally, a five year average is used
the agency’s records and identified using the agency’s
                                                           because total consumer savings in an individual year
time and attendance reporting database.
                                                           may be heavily influenced by significant cases in that
Verification and validation: The data is recorded
                                                           year.
by bureau staff, and reviewed monthly by analysts,
attorneys, economists, and senior management.              Performance Measure 2.1.3: Actions against mergers
Data limitations: This measure does not include            likely to harm competition in markets with a total of at
actions taken in investigations that did not involve the   least $25 billion in sales.
use of compulsory process, and therefore did not fall      Definition and background: This measure ensures



                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           155
                                                      APPENDICES


  that the FTC’s merger actions are guided in part by the     Performance Measure 2.1.5: Consumer savings of at
  size of the relevant product markets involved.              least $80 million through nonmerger actions taken to
  Calculation/Formula: The measure is calculated by           maintain competition.
  taking the sum of the estimated volume of commerce          Definition and background: This measure ensures
  in the affected market(s) in which the FTC took action      that the FTC’s nonmerger actions are in part guided
  for the current fiscal year plus the previous four fiscal   by the prospective effect they will have on consumer
  years divided by five.                                      savings.
  Data sources: The lead attorney who worked on the           Calculation/Formula: The measure is calculated by
  investigation estimates the volume of commerce using        taking the sum of the estimated consumer savings in
  the appropriate applicable estimation formula and           nonmerger actions for the current fiscal year plus the
  submits the information to the Bureau of Economics          previous four fiscal years, and dividing the sum by
  for concurrence.                                            five.
  Verification and validation: See measure 2.1.1.             Data sources: The lead attorney estimates consumer
  Data limitations: The data is dependent on the              savings for a particular case using the appropriate
  estimates of volume of commerce made by staff in            applicable estimation formula and submits it to the
  accordance with the appropriate applicable estimation       Bureau of Economics for concurrence. If available,
  formulas. Additionally, a five year average is used         staff will use case-specific data to generate the
  because the total volume of commerce in an individual       estimate of consumer savings due to the FTC’s action.
  year may be heavily influenced by significant cases in      Otherwise, staff uses a formulaic approach taking one
  that year.                                                  percent of the volume of commerce in the affected
                                                              market(s) for one year, where the relevant product and
  Performance Measure 2.1.4: Consumer savings of
                                                              geographic market(s) are those identified in the final
  at least thirteen times the amount of FTC resources
                                                              enforcement action.
  allocated to the merger program.
                                                              Verification and validation: See measure 2.1.1.
  Definition and background: This measure ensures
                                                              Data limitations: See measure 2.1.2.
  that the FTC’s actions are in part guided by the
  requirement that estimated consumer savings exceed          Performance Measure 2.1.6: Actions against
  how much is spent on the merger program.                    anticompetitive conduct in markets with a total of at
  Calculation/Formula: Estimated consumer savings             least $8 billion in annual sales.
  generated under measure 2.1.2 are divided by the            Definition and background: This measure ensures
  amount of resources spent on the merger program for         that the FTC’s nonmerger actions are in part guided by
  the current fiscal year.                                    the size of the relevant product markets involved.
  Data sources: The lead attorney estimates consumer          Calculation/Formula: The measure is calculated by
  savings for a particular case using the appropriate         taking the sum of the estimated volume of commerce
  applicable estimation formula and submits it to the         in the affected market(s) in which the FTC took action
  Bureau of Economics for concurrence. The FTC’s              for the current fiscal year plus the previous four fiscal
  financial system provides the amount of resources           years and dividing the sum by five.
  expended on the merger program.                             Data sources: The lead attorney who worked on the
  Verification and validation: See measure 2.1.1.             investigation estimates the volume of commerce using
  Data limitations: See measure 2.1.2.                        the appropriate applicable estimation formula and
                                                              submits the information to the Bureau of Economics
                                                              for concurrence.


156           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                              APPENDICES


Verification and validation: See measure 2.1.1.           approach and reached compatible outcomes divided
Data limitations: See measure 2.1.3.                      by the total number of cases the FTC has at least one
                                                          substantive contact.
Performance Measure 2.1.7: Consumer savings of at
                                                          Data sources: Office of International Affairs weekly
least twenty times the amount of the FTC resources
                                                          reports and internal logs.
allocated to the nonmerger program.
                                                          Verification and validation: International Antitrust
Definition and background: This measure ensures
                                                          team members report matters they worked on in
that the FTC’s actions are in part guided by the
                                                          which substantial contact took place. Staff review
requirement that estimated consumer savings exceed
                                                          and compile the matters reported, overseen by an
how much is spent on the nonmerger program.
                                                          International Antitrust team member. Managers
Calculation/Formula: This measure is calculated
                                                          review and ensure that the matters reported qualify for
by taking the estimated consumer savings generated
                                                          the measure.
under measure 2.1.5 divided by the amount of
                                                          Data limitations: Review is necessary to ensure that
resources spent on the nonmerger program.
                                                          the matters reported included sufficiently substantial
Data sources: The lead attorney estimates consumer
                                                          contact with a foreign antitrust authority.
savings for a particular case using the appropriate
applicable estimation formula. The FTC’s financial
                                                          OBJECTIVE 2.2: PREVENT CONSUMER
system provides the amount of resources expended on
                                                          INJURY THROUGH EDUCATION.
the nonmerger program.
Verification and validation: See measure 2.1.1.           Performance Measure 2.2.1: Competition resources
Data limitations: See measure 2.1.2.                      accessed via the FTC’s website.
                                                          Definition and background: This measure ensures
Performance Measure 2.1.8: The percentage of              that consumer injury is prevented by educating
cases in which the FTC had at least one substantive       antitrust practitioners and consumers. This measure
contact with a foreign antitrust authority in which the   is calculated by taking the sum of the views recorded
agencies followed the analytical approach and reached     on antitrust related web pages on the FTC’s external
compatible outcomes.                                      website.
Definition and background: This measure tracks            Data sources: The primary data source is software
the cases in which the Bureau of Competition or           that monitors traffic on the FTC’s external website.
foreign agency staff notify the Office of International   Verification and validation: Bureau staff identify
Affairs that a substantial contact has taken place,       relevant FTC web-based resources to track. Internet
compared with cases where, in the judgment of OIA         traffic data is received and entered into a bureau
management, no consistent analytical approaches were      database by staff, and reviewed monthly by analysts,
observed. The phrase “reached compatible outcomes”        attorneys, and senior management.
means that the reviewing agencies do not impose           Data limitations: The analysis is dependent on the
inconsistent obligations on parties; professional         accuracy of measurements made by the web tracking
judgment from OIA senior management is used               software and the presence of internal and external
to make a final decision on compatibility for FTC         traffic filters. The data is also dependent on the
measurement purposes.                                     accurate identification of relevant FTC web-based
Calculation/Formula: Number of cases where foreign        materials.
antitrust authority or agency followed the analytical




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                          157
                                                     APPENDICES



      OBJECTIVE 2.3: ENHANCE CONSUMER                        Data limitations: See measure 2.3.1.
      BENEFIT THROUGH RESEARCH,
                                                             Performance Measure 2.3.3: Advocacy comments and
      REPORTS, AND ADVOCACY.
                                                             amicus briefs on competition issues filed with entities
  Performance Measure 2.3.1: Workshops, seminars,            including federal and state legislatures, agencies
  conferences, and hearings convened or cosponsored          or courts.
  that involve significant competition-related issues.       Definition and background: This measure tracks
  Definition and background: This measure ensures            the number of advocacy comments and amicus briefs
  that consumer benefits are enhanced through policy         on competition matters filed with entities including
  related activities such as workshops, seminars,            federal and state legislatures, agencies, or courts to
  conferences, and hearings convened or cosponsored          measure the output of the FTC’s advocacy activities
  that involve significant competition-related issues.       relating to competition matters. Advocacy letters and
  The measure is calculated by counting the number           amicus briefs are tracked based on their date of filing
  of competition-related workshops, hearings and             to their recipients. During FY 2013, the FTC and
  conferences hosted by the FTC.                             staff filed 14 advocacy comments and amicus briefs
  Data sources: Information on conferences involving         involving competition-related matters. There were five
  significant competition related issues is taken from the   advocacies relating to both consumer protection and
  FTC’s website (www.ftc.gov/ftc/workshops.shtm) and         competition related matters that were counted in both
  from press releases.                                       this performance measure and performance measure
  Verification and validation: Data is received from         1.4.2. Thus, there were 19 competition-related filings.
  staff attorneys, internal databases and press releases.    Data sources: Internal matter records of advocacy
  The data is entered into a bureau database by staff, and   comments and amicus briefs filed (e.g., records
  reviewed monthly by analysts, attorneys, economists,       available in the FTC’s document management system).
  and senior management.                                     Verification and validation: Review internal matter
  Data limitations: Review is necessary to ensure that       records of advocacy comments and amicus briefs
  all competition-related workshops, hearings and            filed (e.g., records available in the FTC’s document
  conferences are identified.                                management system) and confirm data with staff
  Performance Measure 2.3.2: Reports and studies             having responsibilities for advocacy matters.
  issued on key competition-related topics.                  Data limitations: There are no significant data
  Definition and background: The measure tracks              limitations.
  competition policy related activities such as research,    Performance Measure 2.3.4: The percentage of
  reports, and studies that enhance consumers’               respondents finding the FTC’s advocacy comments
  knowledge of competition issues. The measure is            and amicus briefs “useful.”
  calculated by counting the number of the reports and       Definition and background: This measure tracks the
  studies issued by the FTC.                                 percentage of respondents finding the FTC’s advocacy
  Data sources: Information on studies and reports on        comments and amicus briefs to be “useful,” in order to
  significant competition-related issues is taken from       assess the effect of competition advocacy comments.
  the FTC’s website (www.ftc.gov/be/research.shtm and        Calculation/Formula: Number of survey responses
  http://www.ftc.gov/policy/reports).                        received indicating the usefulness of an advocacy
  Verification and validation: See measure 2.3.1.




158           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                               APPENDICES


divided by the total number of surveys sent to             OBJECTIVE 2.4: PROTECT AMERICAN
advocacy recipients. During FY 2013, two survey            CONSUMERS IN THE GLOBAL
responses were received, one relating to a competition     MARKETPLACE BY PROVIDING SOUND
filing and one relating to both consumer protection        POLICY RECOMMENDATIONS AND
and competition. The survey response regarding an          TECHNICAL ADVICE TO FOREIGN
advocacy relating to both consumer protection and          GOVERNMENTS AND INTERNATIONAL
competition was counted in both this performance           ORGANIZATIONS TO PROMOTE SOUND
measure and in performance measure 1.4.3.                  COMPETITION POLICY.
Data sources: Responses to a written survey, sent by       Performance Measure 2.4.1: Policy advice provided
agency staff to advocacy recipients (except courts), to    to foreign competition agencies, directly and through
evaluate the usefulness of an advocacy.                    international organizations, through substantive
Verification and validation: Agency staff review           consultations, written submissions, or comments.
written responses in order to determine percentage of      Definition and background: This measure tracks
respondents describing the FTC’s advocacy comments         the policy advice provided to foreign competition
as “useful.”                                               agencies, directly and through international
Data limitations: There are no significant data            organizations, through substantive consultations,
limitations.                                               written submissions, or comments excluding casual
                                                           contacts.
Performance Measure 2.3.5: The volume of traffic on
                                                           Data sources: Office of International Affairs weekly
www.ftc.gov relating to competition research, reports,
                                                           reports.
and advocacy.
                                                           Verification and validation: Agency staff create a
Definition and background: This measure ensures
                                                           draft list of events that fall within the scope of the
the agency’s policy related activities enhance consumer
                                                           measure, which is then submitted to attorneys for
benefit by providing practitioners and consumers with
                                                           review. Managers review and ensure that the matters
opportunities to interact with the staff and to learn
                                                           reported qualify as substantive policy advice.
about the agency’s enforcement and policy priorities.
                                                           Data limitations: Review is necessary to ensure that
The measure is calculated by summing the views
                                                           instances of policy advice reported are sufficiently
registered on the website of a subset of the competition
                                                           substantive.
related pages that pertain to advocacy, research, and
international activities.                                  Performance Measure 2.4.2: Technical assistance
Data sources: The agency’s software that monitors          provided to foreign competition authorities.
traffic on the FTC’s external website, the Office          Definition and background: This measure tracks
of International Affairs, and the Office of Policy         the number of long term and short term technical
Planning.                                                  assistance missions and international Fellows and
Verification and validation: See measure 2.3.1.            interns hosted.
Data limitations: The analysis is dependent on the         Data sources: Office of International Affairs weekly
accuracy of the measurements made by the web               reports and Technical Assistance calendar.
tracking software, and the presence of internal and        Verification and validation: See measure 2.4.1.
external traffic filters. The data is also dependent on    Data limitations: Review is necessary to ensure that
the accurate identification of relevant FTC web-based      reported items qualify as technical assistance missions.
materials.




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                           159
                                                    APPENDICES



      STRATEGIC GOAL 3: ADVANCE                             Performance Measure 3.1.2: The extent employees
                                                            think the organization has the talent necessary to
      PERFORMANCE                                           achieve organizational goals.
      OBJECTIVE 3.1: PROVIDE EFFECTIVE                      Definition and background: This measure gauges
      HUMAN RESOURCES MANAGEMENT.                           the extent employees think the organization has the
  Performance Measure 3.1.1: The extent to which            talent necessary to achieve organizational goals so that
  employees believe their organizational culture            the FTC has a strong foundation of organizational,
  promotes improvement in processes, products and           individual, and management excellence driving
  services, and organizational outcomes.                    mission success.
  Definition and background: This measure gauges the        Data sources: See measure 3.1.1.
  extent employees believe their organizational culture     Verification and validation: See measure 3.1.1.
  promotes improvement in processes, products and           Data limitations: See measure 3.1.1.
  services, and organizational outcomes so that the FTC     OBJECTIVE 3.2: PROVIDE EFFECTIVE
  has a strong foundation of organizational, individual,    INFRASTRUCTURE AND SECURITY
  and management excellence driving mission success.        MANAGEMENT.
  Data sources: The Federal Employee Viewpoint
                                                            Performance Measure 3.2.1: A favorable Continuity
  Survey is administered annually by the U.S. Office
                                                            of Operations (COOP) rating.
  of Personnel Management (OPM). The Federal
                                                            Definition and background: The FTC ensures a safe
  Employee Viewpoint Survey is a tool that measures
                                                            and secure workplace through the development and
  employees’ perceptions of whether, and to what extent,
                                                            implementation of the FTC COOP. The FTC COOP
  conditions that characterize successful organizations
                                                            defines the necessary planning and actions that are
  are present. This survey was administered for the first
                                                            required to ensure the preservation and performance
  time in 2002, and then repeated in 2004, 2006, 2008,
                                                            of the FTC Mission Essential Functions (MEFs).
  2010, 2011, and most recently in 2012. OPM transmits
                                                            Continuity planning facilitates the performance of
  the agency results to the FTC’s Human Capital
                                                            FTC MEFs during all-hazards emergencies or other
  Management Office.
                                                            situations that may disrupt or potentially disrupt
  Verification and validation: Data collected is
                                                            normal operations. The FTC participated in the
  weighted by statisticians to produce survey estimates
                                                            government-wide Eagle Horizon Exercise to test
  that accurately represent the survey population and
                                                            and verify the effectiveness of the FTC COOP. An
  adjust for differences between the characteristics of
                                                            analysis of the plan and exercise is conducted with
  the survey respondents and the population of federal
                                                            a combination of Federal Emergency Management
  employees surveyed. The weights developed take
                                                            Agency (FEMA), self, and peer review. An overall
  into account the variable probabilities of selection
                                                            score is derived for the exercise using the average
  across sample domains, nonresponse, and known
                                                            numeric rating for each element of the review.
  demographic characteristics of the survey population.
                                                            Calculation/Formula: Results of the annual
  Data limitations: The survey results represent a
                                                            government-wide Eagle Horizon exercise, whereas
  snapshot in time of the perceptions of the workforce.
                                                            an overall score is derived for the exercise using the
  The Government-wide results have a plus or minus 1
                                                            average numeric rating for each element of the review.
  percent margin of error.
                                                            Data sources: The data on performance of the COOP




160          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                              APPENDICES


exercise is generated using standard evaluation           is currently working to implement SolarWinds, a
protocol developed by FEMA.                               network performance-monitoring tool that will
Verification and validation: The review of the FTC        provide early warning notifications regarding changes
COOP was conducted independently by a FEMA                to application performance and generate outage and
representative and the evaluation of the Eagle Horizon    downtime data.
Exercise was conducted by an internal FTC team,
                                                          OBJECTIVE 3.3: PROVIDE EFFECTIVE
when then submitted the data to FEMA. The FTC
                                                          INFORMATION RESOURCES
Health and Safety Officer provided an overall review
                                                          MANAGEMENT.
to make sure that the data is complete and accurate.
Data limitations: The overall score is based on           Performance Measure 3.3.1: The percentage of
subjective analysis of the COOP and performance of        Commission-approved documents in the FTC’s
the exercise designed to give an overall evaluation of    ongoing and newly initiated proceedings available via
the COOP and identify improvement opportunities.          the Internet within 15 days of becoming part of the
The subjective nature of the data limits its usefulness   public record.
in trend or comparative analysis.                         Definition and background: This performance
                                                          measure was created in an effort to promote agency
Performance Measure 3.2.2: Availability of                transparency and ensure that documents the
information technology systems.                           Commission approves are made available to the public
Definition and background: This measure tracks            in a timely manner. The Commission approves public
unplanned service outages and monitors the                documents by majority vote. These votes are tracked
reliability of 31 critical information technology         by the Office of the Secretary (OS) and are counted
services including: email, FTC-specific applications      each quarter. Once the Commission approves a public
and systems, BlackBerry servers, Internet/Intranet,       document, the Office of Public Affairs works with
telecommunications (includes phone and voicemail          agency staff to determine whether to publish a news
services), Wide Area Network, the agency’s primary        release announcing the document. OS works to make
public website (www.ftc.gov), remote employee access,     sure the document is posted to www.ftc.gov at the
printing, and enterprise-wide applications.               same time as the news release or, if there is no news
Calculation/Formula: This measure is calculated           release, as soon as feasible. The agency sometimes
by dividing the number of minutes of unscheduled          waits to post a specific document to www.ftc.gov in
system outages per month by the number of total           order to maximize consumer impact by posting it in
minutes per month.                                        conjunction with several related matters.
Data sources: System and network engineers record         Calculation/Formula: To arrive at the performance
system or component outage data as part of the            measure, we count the total number of Commission
OCIO’s Change Management procedure.                       votes on public documents. Next, we count the
Verification and validation: Outage timeframes are        number of public documents that were posted to www.
verified by correlating outages to system alerts and      ftc.gov within 15 days after Commission approval.
data recorded in the change management database.          Then, we divide this number by the total number of
Data limitations: The agency uses a manual tracking       public documents to arrive at a percentage. We do not
process to record the outage data in a spreadsheet.       include any documents that a court has placed under
The reliability of the data depends on compliance         seal until the court lifts the seal, because documents
with the change management procedure. The agency          under seal are not available to the public. Also, we



                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                         161
                                                     APPENDICES


  do not count as “posted to the Internet” documents         Verification and validation: FTC’s independent
  that are unavailable on www.ftc.gov, even if they are      auditors render their opinion to the agency.
  available elsewhere on the Internet (e.g., in electronic   Data limitations: There are no significant data
  filing systems used by the federal courts).                limitations.
  Data sources: The data is compiled from Commission
                                                             Performance Measure 3.4.2: The percentage of
  voting records, FTC news releases, and FTC Web
                                                             Bureaus/Offices that establish and maintain an
  Team confirmations that documents have been posted
                                                             effective, risk-based internal control environment.
  to www.ftc.gov.
                                                             Definition and background: This measure tracks
  Verification and validation: Agency staff and
                                                             the percentage of Bureaus/Offices that establish and
  management verify that the data showing all
                                                             maintain an effective, risk-based internal control
  Commission-approved public documents for a specific
                                                             environment.
  quarter is complete and accurate by reviewing the
                                                             Calculation/Formula: Number of Bureaus and
  actual Commission votes. We verify the accuracy
                                                             Offices that established and maintain an effective,
  of the date a document is posted to www.ftc.gov
                                                             risk-based internal control environment divided by the
  by checking the date against the FTC Web Team
                                                             total number of Bureaus and Offices.
  confirmation that the document has been posted.
                                                             Data sources: FMFIA Annual Statement of Assurance
  At the time a document is posted to www.ftc.gov,
                                                             Verification and validation: As basis for the FTC’s
  we test the web link to the document to confirm it is
                                                             annual statement of assurance, agency staff distribute
  operational. The FTC’s OS management reviews the
                                                             an annual survey to key agency management and staff
  source materials and counts to make sure the data is
                                                             which includes detailed questions about their internal
  complete and accurate.
                                                             controls. Staff verify that survey responses have been
  Data limitations: This measure only includes
                                                             received by each of the Bureaus/Offices (assessable
  Commission-approved public documents.
                                                             units), verify the percentage of the Bureaus/Offices
      OBJECTIVE 3.4: PROVIDE EFFECTIVE                       that indicate they maintain an effective internal
      FINANCIAL AND ACQUISITION                              control environment (supported by an internal control
      MANAGEMENT.                                            assessment), and staff and management review the
  Performance Measure 3.4.1: Independent auditor’s           final compilation of assessments.
  financial statement audit results.                         Data limitations: Internal control survey responses
  Definition and background: Independent auditor’s           are dependent on the respondent’s understanding of
  opinion based on auditor’s review and tests of internal    their programs.
  controls over operations and financial reporting and
                                                             Performance Measure 3.4.3: Performance against the
  the determination that the financial statements and
                                                             Small Business Administration’s government-wide
  notes are fairly presented. The measure formula is
                                                             small business procurement goals.
  100 percent if an unqualified or “clean” opinion (the
                                                             Definition and background: This measure identifies
  financial statements are fairly presented) is achieved
                                                             quarterly and annual awards of contract dollars to
  or zero percent for all other opinion types (qualified,
                                                             small business entities as a ratio against total dollars
  adverse, disclaimer).
                                                             available for a set-aside for small business awards in
  Data sources: Independent auditor’s opinion of year-
                                                             whole or part. The accumulation, ratio analysis, and
  end financial statements.
                                                             agency targets are managed by SBA. The internal




162           FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                             APPENDICES


operations of the Federal Procurement Data System      performs a statistical analysis annually and certifies
- Next Generation (FPDS-NG) application, through       the statistical validity of the FPDS-NG data.
which the measure is reported, are managed by GSA.     Data limitations: There are no significant data
Data sources: FPDS-NG, found at www.fpds.gov           limitations.
Verification and validation: FTC’s acquisition staff




                           FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                       163
                                                APPENDICES



  APPENDIX B: ACRONYMS
      A&A                  Assessment & Authorization
      ACSI                 American Customer Satisfaction Index
      APA                  Administrative Procedure Act
      BC                   Bureau of Competition
      BCP                  Bureau of Consumer Protection
      BE                   Bureau of Economics
      CFO                  Chief Financial Officer
      CFS                  Core Financial System
      COOP                 Continuity of Operations Plan
      COPPA                Children’s Online Privacy Protection Act
      CSN                  Consumer Sentinel Network
      CSRS                 Civil Service Retirement System
      DCBE                 Division of Consumer and Business Education
      DNC                  Do Not Call
      DOJ                  Department of Justice
      DOL                  Department of Labor
      EFT                  Electronic Funds Transfer
      ERCR                 Electronic Recordkeeping Certification Review
      FASAB                Federal Accounting Standards Advisory Board
      FBWT                 Fund Balance with Treasury
      FECA                 Federal Employee’s Compensation Act
      FEGLIP               Federal Employees Group Life Insurance Program
      FEHBP                Federal Employees Health Benefit Program
      FEMA                 Federal Emergency Management Agency
      FERS                 Federal Employees Retirement System
      FISMA                Federal Information Security Management Act
      FMFIA                Federal Managers’ Financial Integrity Act
      FMO                  Financial Management Office
      FPDS-NG              Federal Procurement Data System - Next Generation
      FRAND                Fair, Reasonable, And Non-Discriminatory
      FTC                  Federal Trade Commission
      FTE                  Full-Time Equivalent
      FY                   Fiscal Year
      GAAP                 Generally Accepted Accounting Principles
      GAO                  Government Accountability Office
      GPRA                 Government Performance and Results Act




164             FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                  APPENDICES



GPRAMA            GPRA Modernization Act of 2010
GSA               General Services Administration
HSR               Hart-Scott-Rodino Act
IBC               Department of the Interior Business Center
IG                Inspector General
IPERA             Improper Payments Elimination and Recovery Act
IT                Information Technology
MEF               Mission Essential Function
N/A               Not Applicable or Not Available
NARA              National Archives and Records Administration
NIST              National Institute of Standards and Technology
OCIO              Office of the Chief Information Officer
OIA               Office of International Affairs
OIG               Office of Inspector General
OMB               Office of Management and Budget
OPM               Office of Personnel Management
OS                Office of the Secretary
PAE               Patent Assertion Entity
PAR               Performance and Accountability Report
PIO               Performance Improvement Officer
PMRO              Performance Measure Reporting Official
SAT               Senior Assessment Team
SBR               Statement of Budgetary Resources
SEP               Standard Essential Patent
SSAE              Statement on Standards for Attestation Engagements
TAS               Treasury Account Symbol
TSR               Telemarketing Sales Rule
TSP               Thrift Savings Plan
TTY               Text Telephone or Telephone Typewriter
USAID             United States Agency for International Development
US SAFE WEB Act   Undertaking Spam, Spyware, And Fraud Enforcement With Enforcers beyond
                  Borders Act of 2006




                  FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                           165
                                                           APPENDICES



  APPENDIX C: OTHER USEFUL LINKS
      INTRODUCTION SECTION:
       •	   Accountability of Tax Dollars Act of 2002 (page I): http://www.whitehouse.gov/sites/default/files/omb/assets/about_
            omb/107-2891.pdf
       •	   Association for Government Accountant’s Certificate of Excellence in Accountability Reporting (page I): http:// www.
            agacgfm.org/Advocacy---Accountability/Certification-of-Excellence-in-Accountability-Repo.aspx
       •	   Clayton Act (page III): http://www.law.cornell.edu/uscode/html/uscode15/usc_sec_15_00000012----000-.html
       •	   Fair Credit Reporting Act (page III): http://www.ftc.gov/os/statutes/031224fcra.pdf
       •	   Federal Managers’ Financial Integrity Act of 1982 (page I): http://www.whitehouse.gov/omb/financial_fmfia1982
       •	   Federal Trade Commission Act (page III): http://www.law.cornell.edu/uscode/text/15/41
       •	   Government Management Reform Act of 1994 (page I): http://govinfo.library.unt.edu/npr/library/misc/s2170.html
       •	   Government Performance and Results Act of 1993 (page I): http://www.whitehouse.gov/omb/mgmt-gpra/gplaw2m
       •	   GPRA Modernization Act of 2010 (page I): http://www.gpo.gov/fdsys/pkg/PLAW-111publ352/pdf/PLAW-
            111publ352.pdf
       •	   Identity Theft Act (page III): http://www.law.cornell.edu/uscode/text/18/1028
       •	   Improper Payments Information Act of 2002 (page I): http://www.whitehouse.gov/omb/financial_fia_improper/
       •	   Reports Consolidation Act of 2000 (page I): http://www.gpo.gov/fdsys/pkg/PLAW-106publ531/pdf/PLAW-
            106publ531.pdf
       •	   Telemarketing Sales Rule (page III): http://www.law.cornell.edu/uscode/text/15/chapter-87


      MANAGEMENT’S DISCUSSION & ANALYSIS SECTION:
       •	   The Affordable Care Act of 2010 (page 24): http://www.whitehouse.gov/healthreform/healthcare-overview
       •	   American Customer Satisfaction Index (page 10): http://www.theacsi.org
       •	   Children’s Online Privacy Protection Act (page 23): http://www.business.ftc.gov/privacy-and-security/childrens-
            privacy
       •	   Circular A-123, “Management’s Responsibility for Internal Control” (page 26): http://www.whitehouse.gov/omb/
            circulars_a123_rev/
       •	   Debt Collection Improvement Act of 1996 (page 28: http://www.dol.gov/ocfo/media/regs/DCIA.pdf
       •	   Do Not Call Registry (page 9): www.donotcall.gov
       •	   Energy Independence and Security Act of 2007 (page 25): http://www.gpo.gov/fdsys/pkg/BILLS-110hr6enr/pdf/BILLS-
            110hr6enr.pdf
       •	   Equal Credit Opportunity Act (page 2): http://www.ftc.gov/bcp/edu/pubs/consumer/credit/cre15.shtm
       •	   Federal Human Capital Survey (page 18): http://www.fedview.opm.gov
       •	   Federal Information Security Management Act (page 28): http://csrc.nist.gov/drivers/documents/FISMA-final.pdf
       •	   FTC Guides for the Use of Environmental Marketing Claims (page 23): http://www.ftc.gov/bcp/edu/microsites/
            energy/about_guides.shtml
       •	   Hart-Scott-Rodino Act (page 24): http://www.ftc.gov/bc/hsr




166              FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                               APPENDICES


 •	   Prompt Payment Act (page 28): http://www.fms.treas.gov/prompt/regulations.html
 •	   Statement on Standards for Attestation Engagement (page 26): http://www.aicpa.org/Research/Standards/AuditAttest/
      Pages/SSAE.aspx


PERFORMANCE SECTION:
 •	   Complaint Assistant (page 49): https://www.ftccomplaintassistant.gov
 •	   Consumer Sentinel (page 49): http://www.ftc.gov/sentinel/
 •	   Federal Employee Viewpoint Survey (page 96): http://www.fedview.opm.gov
 •	   Hart-Scott-Rodino Act (page 71): http://www.ftc.gov/bc/hsr
 •	   National Do Not Call Registry (page 49): www.donotcall.gov
 •	   OnGuardOnline (page 60): www.onguardonline.gov
 •	   Undertaking Spam, Spyware, And Fraud Enforcement With Enforcers beyond Borders Act of 2006 (page 54): http://
      www.gpo.gov/fdsys/pkg/PLAW-109publ455/pdf/PLAW-109publ455.pdf


OTHER ACCOMPANYING INFORMATION:
 •	   Improper Payments Elimination and Recovery Act (page 147): http://www.gpo.gov/fdsys/pkg/BILLS-111s1508enr/pdf/
      BILLS-111s1508enr.pdf




                            FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                                167
                                                 APPENDICES



  APPENDIX D: CONTACT INFORMATION AND
  ACKNOWLEDGEMENTS
  FEDERAL TRADE COMMISSION	       	 	 600 Pennsylvania Avenue, NW
  	        	       	        	   	 	 	 Washington, DC 20580
  General Information Number 	 	  	 	 202-326-2222
  Internet Home Page					www.ftc.gov
  FTC Spanish Home Page 				          www.ftc.gov/espanol
  Strategic Plan Internet Site 				   www.ftc.gov/strategicplan
  FTC Press Releases 					            www.ftc.gov/news-events/press-releases

  PERFORMANCE AND ACCOUNTABILITY REPORT (PAR)-SPECIFIC
  The FTC welcomes comments or suggestions for improvement of its PAR. Please contact the agency to provide
  feedback or to request additional copies.
  PAR Internet Site 					     www.ftc.gov/par
  PAR Contact 						Valerie Green
  PAR Telephone	 	    	 	 	 	 202-326-2901
  PAR Email Address					gpra@ftc.gov
  PAR Fax Number 	    	 	 	 	 202-326-2329
  PAR Mailing Address 					   Federal Trade Commission
  							attn: PAR, M/D H-774
  	      	        	   	 	 	 	 600 Pennsylvania Avenue, NW
  	      	        	   	 	 	 	 Washington, DC 20580

  REGIONS
  East Central (Cleveland, OH)	 	 	 	                   216-263-3455
  Midwest (Chicago, IL)	 	      	 	 	                   312-960-5634
  Northeast (New York, NY)	     	 	 	                   212-607-2829
  Northwest (Seattle, WA) 	     	 	 	                   206-220-6350
  Southeast (Atlanta, GA) 	     	 	 	                   404-656-1390
  Southwest (Dallas, TX) 		     	 	 	                   214-979-9350
  Western (San Francisco, CA)	 	  	 	                   415-848-5100
  Western (Los Angeles, CA) 				                        310-824-4343

  CONSUMER RESPONSE CENTER
  General Complaints 	 	         	       	 	            877-FTC-HELP (877-382-4357)
  Identity Theft Complaints 				                        877-ID-THEFT (877-438-4338)
  Online General Complaints 				                        www.ftc.gov/complaint
  Identity Theft Education and Complaints		             www.ftc.gov/idtheft
  National Do Not Call Registry 				                    www.donotcall.gov



168          FEDER AL TR ADE COMMISSION • PERFORMANCE AND ACCOUNTABILIT Y REPORT
                                               APPENDICES


ACKNOWLEDGEMENTS

The FTC gratefully acknowledges the following individuals who made a significant contribution in producing
this report: Heather Hippsley of the Office of the Chairwoman; George Adam, Pat Bak, Chloe Collins, Juliet
Felent, Steven Fisher, Antonio Gomez, Valerie Green, James Hale, Karen Leydon, Kimberly Mayo, Jeff Nakrin,
Mark Oemler, Karen Overmier, David Robbins, Russ Roeller, Randall Salzer, Lori Walsh-Van Wey, and Milissa
Young-Loiselle of the Office of the Executive Director; Don Clark and April Tabor of the Office of the Secretary;
Jeanine Balbach, Shannon Chowdhury, Nathan Hawthorne and Andrea Zach of the Bureau of Competition; Laura
DeMartino, Gregory Fortsch and Jenny Kellogg of the Bureau of Consumer Protection; Russell Damtoft and
Priscilla Jamison of the Office of International Affairs; and Christopher Grengs of the Office of Policy Planning for
contributing to the development of this report. Editorial and design work supported by LMI and Graphic Visions.




                             FEDER AL TR ADE COMMISSION • FISC AL YEAR 2013                                             169
